<html>
<title> - CONTROLLED SUBSTANCES: FEDERAL POLICIES AND ENFORCEMENT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
        CONTROLLED SUBSTANCES: FEDERAL POLICIES AND ENFORCEMENT

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, MARCH 11, 2021

                               __________

                            Serial No. 117-9

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
         


               Available via: http://judiciary.house.gov
               
               
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 44-670               WASHINGTON : 2021       
 
 
 
               
               
               
                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
                MADELEINE DEAN, Pennsylvania, Vice-Chair
ZOE LOFGREN, California              JIM JORDAN, Ohio, Ranking Member
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
STEVE COHEN, Tennessee               LOUIE GOHMERT, Texas
HENRY C. ``HANK'' JOHNSON, Jr.,      DARRELL ISSA, California
    Georgia                          KEN BUCK, Colorado
THEODORE E. DEUTCH, Florida          MATT GAETZ, Florida
KAREN BASS, California               MIKE JOHNSON, Louisiana
HAKEEM S. JEFFRIES, New York         ANDY BIGGS, Arizona
DAVID N. CICILLINE, Rhode Island     TOM McCLINTOCK, California
ERIC SWALWELL, California            W. GREG STEUBE, Florida
TED LIEU, California                 TOM TIFFANY, Wisconsin
JAMIE RASKIN, Maryland               THOMAS MASSIE, Kentucky
PRAMILA JAYAPAL, Washington          CHIP ROY, Texas
VAL BUTLER DEMINGS, Florida          DAN BISHOP, North Carolina
J. LUIS CORREA, California           MICHELLE FISCHBACH, Minnesota
MARY GAY SCANLON, Pennsylvania       VICTORIA SPARTZ, Indiana
SYLVIA R. GARCIA, Texas              SCOTT FITZGERALD, Wisconsin
JOE NEGUSE, Colorado                 CLIFF BENTZ, Oregon
LUCY MCBATH, Georgia                 BURGESS OWENS, Utah
GREG STANTON, Arizona
VERONICA ESCOBAR, Texas
MONDAIRE JONES, New York
DEBORAH ROSS, North Carolina
CORI BUSH, Missouri

                PERRY APELBAUM, Majority Staff Director
        BRENDAN BELAIR, Minority Staff Director & Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                    SHEILA JACKSON LEE, Texas, Chair
                    CORI BUSH, Missouri, Vice-Chair
KAREN BASS, California               ANDY BIGGS, Arizona, Ranking 
VAL BUTLER DEMINGS, Florida              Member
LUCY MCBATH, Georgia                 STEVE CHABOT, Ohio
MADELEINE DEAN, Pennsylvania         LOUIE GOHMERT, Texas
MARY GAY SCANLON, Pennsylvania       W. GREGORY STEUBE, Florida
DAVID N. CICILLINE, Rhode Island     TOM TIFFANY, Wisconsin
TED LIEU, California                 THOMAS MASSIE, Kentucky
J. LUIS CORREA, California           VICTORIA SPARTZ, Indiana
VERONICA ESCOBAR, Texas              SCOTT FITZGERALD, Wisconsin
STEVE COHEN, Tennessee               BURGESS OWENS, Utah

                   JOE GRAUPENSPERGER, Chief Counsel
                    JASON CERVENAK, Minority Counsel
                    
                            C O N T E N T S

                              ----------                              

                        Thursday, March 11, 2021

                                                                   Page

                           OPENING STATEMENTS

The Honorable Sheila Jackson Lee, Chair, a member of Congress 
  from the State of Texas, Subcommittee on Crime, Terrorism, and 
  Homeland Security..............................................     1
The Honorable Andy Biggs, Ranking Member, a member of Congress 
  from the State of Texas, Subcommittee on Crime, Terrorism, and 
  Homeland Security..............................................     3
The Honorable Jerrold Nadler, Chair, a member of Congress from 
  the State of New York, Committee on the Judiciary..............     5
The Honorable Jim Jordan, Ranking Member, a member of Congress 
  from the State of Ohio, Committee on the Judiciary.............     7

                               WITNESSES

Howard Henderson, Ph.D., Founding Director, Center for Justice 
  Research Texas Southern University, Nonresident Senior Fellow, 
  Governance Studies Brookings Institution
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Katharine Neill Harris, Ph.D., Alfred C. Glassell, III, Fellow in 
  Drug Policy Rice University's Baker Institute for Public Policy
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Derek Maltz, Former Special Agent in Charge, Special Operations 
  Division, U.S. Department of Justice
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25
Nicole M. Austin-Hillery, Esq., Executive Director, U.S. Program, 
  Human Rights Watch
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37

           STATEMENTS, LETTERS, MATERIALS, ARTICLES SUBMITTED

Visual Aids for the record submitted by Hon. Andy Biggs, Ranking 
  Member,........................................................    48
Statement regarding article submitted by Hon. Sheila Jackson Lee 
  a Member of Congress of the State of Texas, and Chair of the 
  Subcommittee on Crime, Terrorism, and Homeland Security of the 
  House, Committee on the Judiciary from USA Today Fact-checking 
  Trump officials: Most drugs enter U.S. through legal ports of 
  entry, not vast, open border for the record....................    62

Articles and letters submitted for the record by Hon. Andy Biggs, 
  Ranking Member,
  Statement submitted by Alison Siegler, Erica Zunkel, and Judith 
    P. Miller of the Federal Criminal Justice Clinic, University 
    of Chicago Law School for the record.........................    84
  Statement submitted by Janos Marton, Nation Director of Dream 
    Corps Justice for the record.................................   170
  Letter submitted to the Hon. Nancy Pelosi, House Speaker, Hon. 
    Kevin McCarthy, House Minority Leader, Hon. Steny Hoyer, 
    House Majority Leader, and Hon. Steve Scalise, House Minority 
    Whip on behalf of the of numerous organizations regarding the 
    classwide-ban senate bill for the record.....................   172
  Letter submitted regarding Urgent Need for Civil Forfeiture 
    Reform by Dan Alban, Senior Attorney at the Institute for 
    Justice on behalf of the advocates listed for the record.....   177
  Letter submitted by Justice Roundtable's Sentencing Reform 
    Working Group Co-chairs, Kara Gotsch, Aamra Ahmad and Nkechi 
    Taifa, and numerous advocates for the record.................   181
  Fact Sheet submitted regarding Why Civil Asset Forfeiture is 
    Legalized Theft from the Leadership Conference for the record   184
  Article--Washington Times, Biden's first full month sets new 
    records for illegal immigration for the record...............   190
  Article--FoxNews.com, Biden adviser admits immigration policy 
    may have driven migrant surge, encouraged smugglers for the 
    record.......................................................   193
  Article--Fox News.com, Border encounters top 100,000 in 
    February as migrant crisis spirals for the record............   195
  Article--WashingtonPost.com, Biden Administration rushes to 
    accommodate border surge, with few signs of plans to contain 
    it for the record............................................   198
  Article--Politico.com, Biden Administration says it's 
    struggling for the right message on immigration for the 
    record.......................................................   203
  Article--TucsonSentinel.com, Crisis looms at Pima migrant 
    shelter; Feds are ill-prepared to help county with COVID 
    issues for the record........................................   206
  Amicus Brief--No. 20-71433, In the United States Court of 
    Appeals for the Ninth Circuit, Suzanne Sisley, MD; Scottsdale 
    Research Institute, LLC; Battlefield Foundation, DBA Field to 
    Healed; Lorenzo Sullivan; Kendrick Speagle; Gary Hess v. U.S. 
    Drug Enforcement Administration; William Barr, Attorney 
    General Timothy Shea, Acting Administrator, Drugh Enforcement 
    Administration for the record................................   210
  Article--Rice University's Baker Institute for Public Policy 
    regarding Drug Policy Priority Issues for Biden 
    Administration for the record................................   254
  Article--The New York Times, What to Know About Breonna 
    Taylor's Death for the record................................   259
  Article--Four-in-ten U.S. drug arrests in 2018 were for 
    possession, sale or manufacture of marijuana for the record..   263

                                APPENDIX

  Article submitted by Hon. Sheila Jackson Lee, a Member of 
    Congress of the State of Texas, and Chair of the Subcommittee 
    on Crime, Terrorism, and Homeland Security of the House, 
    Committee on the Judiciary regarding Customs and Border 
    Protection officers at the World Trade Bridge Seize Narcotics 
    Worth Over $24 Million for the record........................   272
  Article submitted by Hon. Sheila Jackson Lee, a Member of 
    Congress of the State of Texas, and Chair of the Subcommittee 
    on Crime, Terrorism, and Homeland Security of the House, 
    Committee on the Judiciary regarding Laredo Customs and 
    Border Protection Officers Seize Narcotics Worth Over $2.5 
    Million at the Juarez-Lincoln Bridge for the record..........   273
  Article submitted by Hon. Sheila Jackson Lee, a Member of 
    Congress of the State of Texas, and Chair of the Subcommittee 
    on Crime, Terrorism, and Homeland Security of the House, 
    Committee on the Judiciary regarding Customs and Border 
    Protections Field Operations Arrests Woman with Over $1.9 
    Million in Methamphetamine at Pharr International Bridge for 
    the record...................................................   274
  Article submitted by Hon. Sheila Jackson Lee, a Member of 
    Congress of the State of Texas, and Chair of the Subcommittee 
    on Crime, Terrorism, and Homeland Security of the House, 
    Committee on the Judiciary regarding Laredo Sector Border 
    Patrol Apprehends Over 100 Individuals in Separate Smuggling 
    Attempts for the record......................................   276
  Article submitted by Hon. Sheila Jackson Lee, a Member of 
    Congress of the State of Texas, and Chair of the Subcommittee 
    on Crime, Terrorism, and Homeland Security of the House, 
    Committee on the Judiciary regarding a Record number of 
    migrant youths at the Border wait in adult detention cells 
    longer than legally allowed for the record...................   278


        CONTROLLED SUBSTANCES: FEDERAL POLICIES AND ENFORCEMENT

                              ----------                              


                        Thursday, March 11, 2021

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The Subcommittee met, pursuant to call, at 10:25 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Sheila Jackson 
Lee [chairwoman of the subcommittee] presiding.
    Members present: Representatives Jackson Lee, Nadler, 
Demings, McBath, Dean, Scanlon, Bush, Cicilline, Lieu, Correa, 
Cohen, Biggs, Jordan, Chabot, Gohmert, Steube, Tiffany, Spartz, 
and Owens.
    Staff present: David Greengrass, Senior Counsel; Madeline 
Strasser, Chief Clerk; Cierra Fontenot, Staff Assistant; John 
Williams, Parliamentarian; Keenan Keller, Senior Counsel; Joe 
Graupensperger, Chief Counsel; Christine Leonard, Counsel; 
Veronica Eligan, Professional Staff Member; Analia Mireles, 
Intern; Ken David, Minority Counsel; Caroline Nabity, Minority 
Counsel; James Lesinski, Minority Counsel; Kyle Smithwick, 
Minority Counsel; Sarah Trentman, Minority Senior Professional 
Staff Member; Michael Koren, Minority Professional Staff 
Member; and Kiley Bidelman, Minority Clerk.
    Ms. Jackson Lee. Good morning. The Subcommittee will come 
to order. Without objection, the chair is authorized to declare 
witnesses of the Subcommittee at any time.
    Members, let me thank you and hope that all of you have 
voted for the first two votes. What we will do is we will 
continue to proceed until the end of the third vote. We will go 
break for the third vote and do the fourth vote and then 
return. So, there will only be one break and then we will 
continue with our hearing and we thank you for your 
cooperation. We will all be watching the clock, but we will 
proceed at this time.
    We welcome everyone for this morning's hearing on 
Controlled Substances: Federal Policies and Enforcement. Some 
of us are doing double duty. I am wearing an orange mask, I 
believe, because I know that we are working towards a good 
response of the American people on ending gun violence. Today 
we are talking about trying to be problem solvers, if you will, 
in the on-going war on drugs and the approach that has been 
taken.
    Before we begin, I would like to remind Members and so we 
welcome everyone to this morning's hearing on Controlled 
Substances: Federal Policies and Enforcement. Before we begin, 
I would like to remind Members that we have established an 
email address and distribution list dedicated to circulating 
exhibits, motions, or other written materials that Members 
might want to offer as part of our hearing today. If you would 
like to submit materials, please send them to the email address 
that has been previously distributed to your offices and we 
will circulate the materials to Members and staff as quickly as 
we can.
    I would also ask all Members, both those in person and 
those attending remotely, to mute your microphone when you are 
not speaking. This will help prevent feedback and other 
technical issues. You may unmute yourself any time you seek 
recognition. I would also remind all Members that guidance from 
the Office of the Attending Physician calls for all Members to 
wear masks even when they are speaking. I will now recognize 
myself for an opening statement.
    An important early focus of this Subcommittee will be 
examining the many challenging issues relating to our federal 
drug laws. For far too long, our country has taken the wrong 
approach to drug abuse, criminalizing substance use instead of 
preventing and treating it. I am particularly concerned about 
how our past failed policy has disproportionately impacted 
communities of color. For instance, in the 1980s, Congress 
adopted harsh mandatory minimum sentences for crack cocaine 
offenses, subjecting thousands of individuals to needlessly 
lengthy terms of imprisonment, even during the era of Just Say 
No. That didn't apply across the board evenly, and there were 
those who tried to say no, but could not because of their 
sickness. That approach was wrong and continues to be wrong, 
disparately impacting African American communities while 
fueling mass incarceration.
    The data is compelling. According to Sentencing Commission 
statistics, from 2019, 75 percent of the people sentenced for 
federal drug laws were people of color. Half of the people 
incarcerated in federal prisons right now, 68,000 people were 
convicted of drug offenses; 56 percent were convicted of a drug 
offense, carrying a mandatory minimum sentence.
    In the past and now, we know that many of these cases 
involves people with a minor role in the offense. Federal 
prosecutions are not targeting the most serious offenders at 
the top of the chain. I believe it is important for us to see 
and remember the impact of our failed past approaches during 
the so-called war on drugs.
    Now I want to make sure that we have not lost our Members. 
Okay. I want to put that on the record. We have not lost our 
Members, but we are getting ready for a video.
    At this time, I would like to play an impactful video 
demonstrating its effects. I would like to pause for the staff 
to get the video. Thank you.
    [Video played]
    Ms. Jackson Lee. Thank you. As the video narrated by Jay-Z 
illustrates so well, we need to acknowledge the failures of the 
drug war and the pain of over incarceration and we must then 
commit ourselves to reform. I am reminded of the proceedings 
that we had when we were overwhelmed by opioids and I, in this 
process of writing legislation, insisted to our then-Chair that 
we must include crack cocaine or crack in the legislation as it 
related to the idea that it should be treated the same way that 
opioids, as it was raging across the nation, was treated in 
terms of sickness, addiction, and trying to provide support on 
treatment for those who are addicted to crack.
    In recent years, we have taken a more comprehensive 
approach to at least some types of drug use, including the 
opioid crisis, as I said. Yet, we unwisely have kept in place 
mandatory minimum penalties related to these substances. At 
least there has been a greater focus on the need for treatment, 
as illustrated by the enactment of the Comprehensive Addiction 
and Recovery Act, directed at those substances five years ago 
right out of this committee. We must learn from our mistakes.
    One of the concerns that we will discuss today is our 
policy concerning the penalties for crime involving fentanyl 
and fentanyl analogue. In 2018, DEA used temporary authority to 
prosecute cases involving fentanyl-related substances not 
listed in the Controlled Substances Act. A year ago, the 
Congress extended DEA's temporary authority to group all 
fentanyl-related substances under a class-wide ban. I oppose 
this measure and continue to object to this excessive approach 
that expands the application of mandatory minimum sentences, 
particularly when there are other mechanisms available for the 
federal prosecution in appropriate cases.
    I do not deny the deadly aspect of fentanyl. That would be 
foolish. I do believe that we have a way and a pathway of 
addressing this question, saving lives, prosecuting as 
necessary, but not doing the broad sweep and continue to mount 
individuals from neighborhoods into incarceration for life.
    We need to listen to experts and the data to determine the 
right approaches to our evidence-based and data-driven. It is 
time to turn the page and to create a new drug policy for 
America, including offering alternatives to incarceration and 
increasing access to treatment, enacting the MORE Act to 
decriminalize marijuana and treating drug abuse as a public 
health issue instead of a driver of mass incarceration. We have 
seen that with meth and then we have seen that with the 
extensive opioid use.
    At the same time, we need to address the harm to 
communities and families torn apart by the war on drugs. There 
is a better way.
    I look forward to hearing from our witnesses today as we 
move forward in a better direction for our communities and for 
our country.
    It is now my pleasure to recognize the Ranking Member of 
this committee, my co-leader on this committee, and that is the 
gentleman from Arizona, Mr. Biggs, for his opening statement.
    Mr. Biggs. I thank the chair and appreciate the opportunity 
to speak this morning and I also apologize for my tardiness due 
to the floor vote, Madam Chair. So, thank you, Madam Chair.
    This morning's hearing should be called Biden's border 
crisis is fueling drug smuggling which in turn will fuel drug 
addiction, death by drug overdose, and economic and societal 
distress.
    This Subcommittee should be focusing on the impacts of the 
border crisis which has been created by President Biden's 
policies and the impact of those policies on drug trafficking.
    Additionally, how can we have a serious hearing on federal 
policies if we don't have a single witness from the Federal 
Government? No one from the Department of Justice, no one from 
the Drug Enforcement Administration, no one from the Department 
of Health and Human Services, no one from the Department of 
Homeland Security, and here we are. I think that if we want to 
have serious dialogue about issues that all of us agree we are 
facing, we should have folks and representatives from all sides 
here.
    I think there should be agreement that federal drug policy 
must include border security and an enforcement approach that 
is balanced with other critical public health and safety 
initiatives. Such an approach is critical to enforce drug laws 
and help combat the current drug crisis in America that has 
reached unprecedented levels even during the coronavirus 
pandemic.
    According to recent provisional data from the Centers for 
Disease Control and Prevention between June 2019 and the first 
half of 2020, more than 81,000 died from drug overdoses 
signifying the highest number of overdose deaths ever recorded 
in a 12-month period. The Centers for Disease Control and 
Prevention reported that synesthetic opioids, predominantly 
illicitly manufactured fentanyl, commonly laced with other 
poisonous drugs like heroin and cocaine appear to be the main 
driver of the dramatic increase in overdose deaths in the 
United States.
    Similarly, the Drug Enforcement Administration, which is 
the primary federal agency responsible for enforcing federal 
drug law recently reported that illicit fentanyl is one of the 
key drugs fueling the on-going opioid crisis in the United 
States. Other poisonous drugs like heroin, methamphetamine, and 
cocaine also remain difficult challenges to public health and 
law enforcement. How do these poisonous drugs pour into 
American communities and cities? Well, primarily through drug 
traffickers and cartels who smuggle them in between--at and 
between our southern border's ports of entry.
    Just this month, the Drug Enforcement Administration's 
latest national drug threat assessment underscored that the 
production and supply of fentanyl to the United States is being 
driven by Mexican drug trafficking organizations while China 
remains the main source of supply for precursor chemicals.
    The Biden Administration's immigration policies are exactly 
the wrong type of action we need to fight drug abuse in this 
country. We have all seen the news reports. There is a surge of 
people down at the border because of President Biden's magnet 
policies. Whether the Biden Administration or our Democrat 
colleagues want to admit it, there is a crisis on the border. 
The porous southern border and the Biden Administration's 
inaction to secure it is a recipe for chaos and disorder. The 
Biden border crisis is also an opportunity for dangerous drug 
and human traffickers to exploit non-existent or ineffective 
border controls which is becoming a real problem given that the 
Biden Administration has an open border policy and lacks 
enforcement.
    The crisis here today that we are discussing is frankly 
more than just about drugs coming across the border. Drugs, 
people, and other contraband are now able to flow across the 
border because CBP has focused on caring for aliens flooding 
the borders and therefore is less focused on enforcement 
activities.
    In a recent conversation, I learned that right now 80 
percent of CBP's activities is used to processing paperwork and 
processing individuals and only 20 percent for enforcing the 
border. We must not turn a blind eye to what is happening at 
our southern border. The Trump Administration worked hard to 
secure our southern border, and now the current Administration, 
right out of the gate, and just 50 days in office is reversing 
all of the progress that was made in the past in the past four 
years. For example, the Biden Administration stopped 
construction on the border wall, even in dangerous, drug 
smuggling corridors that were in the process of being sealed. 
As the co-chair of the Board of Security Caucus earlier this 
year, I led a tour of the United States-Mexico border in 
southern Arizona with a number of Members of Congress. The 
situation at the border is a crisis and drug traffickers are 
exploiting the chaos to conduct illegal activities.
    On February 9th, I along with over 50 Republican Members of 
Congress wrote to President Biden about the rising crisis at 
our southern border which must be taken seriously if we are 
going to address the use and abuse of fentanyl and other 
dangerous drugs in our communities. We must not treat this as a 
political game. We must not allow drug traffickers to be 
empowered by soft border policies that overlook enforcement of 
our laws.
    I hope this Subcommittee will examine how our border's 
insecurity contributes to the opioid epidemic in this country.
    Madam Chair, I thank you again, and I yield back.
    Ms. Jackson Lee. I thank the gentleman for his statement 
and his views. I now am pleased to recognize Chair Nadler for 
his opening statement.
    Chair Nadler. Well, thank you very much for holding this 
important hearing today. Drug addiction is a serious problem in 
our communities. The current pandemic has further worsened the 
tragic impact of overdoses as so many Americans continue to 
struggle through this isolating and stressful crisis.
    It is time for us to Act quickly to advance smart, 
effective solutions at the federal, state, and local level. 
This Congress, we need to continue our committee's work to take 
steps to right the wrongs from the failed drug war. As we have 
all seen, that failure has been both exorbitantly expensive and 
frequently counterproductive producing staggering incarceration 
rates for drug offenses and immeasurable harm to families, 
especially those coming from low-income communities and 
communities of color.
    As our witnesses will highlight today, too many people are 
serving unjustly lengthy prison sentences as a result of laws 
that were enacted decades ago imposing mandatory minimum 
sentences. That approach was wrong then and it continues to be 
wrong. It is badly impacting minority communities while fueling 
mass incarceration. Mandatory minimum penalties are unwise, 
unjust, and unfair. The status quo is unacceptable and we need 
to take a hard look at reforming these penalties.
    We can tackle these problems and set a new course. For 
example, I was pleased to work with my colleagues in passing 
the Marijuana Opportunity Reinvestment and Expungement Act or 
MORE Act at the last--at the end of the last Congress on a 
bipartisan basis. For far too long, we have treated marijuana 
as a criminal justice problem instead of as a matter of 
personal choice and public health. Whatever one's views are on 
marijuana for recreational and medicinal use, the use of 
arrest, prosecution, and incarceration at the federal level has 
been both costly and biased.
    I have long believed that the criminalization of marijuana 
has been a mistake and the racially disparate enforcement of 
marijuana laws has only compounded this mistake with serious 
consequences, particularly for minority communities. Thousands 
of individuals, overwhelmingly people of color, have been 
subjected by the Federal Government to unjust and lengthy 
sentences for marijuana offenses, especially because of 
mandatory minimum sentences that give the judges no discretion. 
This needs to stop. That is why I will be reintroducing the 
MORE Act to remove marijuana from the Controlled Substances Act 
and to provide restorative justice of communities that have 
been disproportionately impacted by the war on drugs.
    We know that the war on drugs, we now know that the war on 
drugs was a deliberate attack on racial minorities for 
political purposes executed by President Nixon. It is time we 
stopped.
    We also need to learn lessons from programs and 
alternatives that have been successfully pursued at the State 
and local level, not just with marijuana, but with other drugs 
as well. For instance, the Law Enforcement Assisted Diversion 
program, known as LEAD, allows law enforcement to divert 
appropriate arrestees from criminal court, instead to provide 
treatment and other services that address addiction and reduce 
recidivism. Developed and initially implemented in Seattle, the 
LEAD approach is now being used with success in other cities, 
in other areas. We should support these efforts, as well as 
other innovative approaches, at the local level such as 
medication-assisted treatment, supervised injection facilities, 
expanding the availability of overdose reversal drugs and 
better education of doctors and the public about the proper 
prescription and use of opioids as pain medication.
    We will not able to arrest and incarcerate our way out of 
the drug abuse crisis that has many causes. Instead, we must 
support the development and implementation of a variety of 
solutions as we consider our contribution to addressing this 
crisis.
    Additional reform is long overdue, especially now that we 
know from the testimony of Mr. Haldeman, who was one of Mr. 
Nixon's assistants, of the deliberately racially biased 
intention of the war on drugs from which we are still 
suffering.
    I look forward to hearing from our witnesses today and I 
hope that we can continue to find bicameral and bipartisan 
support to our legislative proposals.
    Thank you and I yield back the balance of my time.
    Ms. Jackson Lee. The gentleman yields back the balance of 
his time and now it is my pleasure to yield to the 
distinguished Ranking Member of the Full Committee, the 
gentleman from Ohio, Mr. Jordan for his opening statement.
    Mr. Jordan. Thank you, Madam Chair. The chairman of the 
full Committee talked about smart, effective action to deal 
with the drug crisis. Smart, effective action would be to get 
control of our border as the Ranking Member, Mr. Biggs, 
highlighted in his opening statement. That would be just common 
sense, but that is not what is happening right now with this 
Administration.
    In fact, it is so bad, they are now putting migrant 
children in NASA facilities. So if we are going to deal with 
this drug crisis and this drug issue and I look forward to 
hearing from our witness, Mr. Maltz, here in a few minutes, if 
we are going to do that, we need to get control of the border. 
Frankly, it is about time that the full Committee have a 
hearing on something.
    I would suggest the border crisis would be a great issue to 
have a hearing on. Maybe the cancel culture, which is denying 
people their First amendment of free speech rights, would be a 
good issue to have a full Committee hearing on. There are lots 
of things we can be discussing, but we have yet now two months 
into the Congress had a full Judiciary Committee hearing, the 
busiest Committee typically in all of Congress, the Committee 
charged with protecting people's liberties. We have got a 
crisis on our border. We have got a crisis with people 
attacking the First amendment free speech rights of Americans 
and we have yet to have a hearing.
    Maybe we should be doing that at some point here, but I 
think, obviously, right now, the border crisis is front and 
center and this is something that we need to get a handle if we 
are going to ever have a chance to deal with the drug issues 
that confront so many of our communities around the country. 
With that, I yield back.
    Ms. Jackson Lee. The gentleman yields back. I am sure we 
welcome the gentleman's very pointed suggestions and if I 
might, as a resident of a border state, having gone to the 
border many, many times and have seen the influx of 
unaccompanied children in the last decade, I know that this 
Administration is working extremely hard not to put children in 
cages, but I thank the gentleman for his comments and welcome 
them all the time.
    We now welcome all our distinguished witnesses and we thank 
them for their participation. I will begin by swearing in our 
witnesses. I ask our witnesses testifying in person to rise and 
I ask our witnesses testifying remotely to turn on their audio 
and make sure I can see your face and your raised right hand 
while I administer the oath. Please be unmuted at this time.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief so help you God?
    [Witnesses sworn.]
    Thank you. Let the record show that the witnesses answered 
in the affirmative. Thank you and please be seated.
    We will now proceed with this introduction. Nicole Austin-
Hillery is Executive Director of U.S. programs for Human Rights 
Watch. Ms. Austin-Hillery leads Human Rights Watch efforts to 
end violations in abusive systems within the United States. Her 
work is focused on addressing and combating systemic racism, as 
well as tackling problems within the criminal justice system. 
Human Rights Watch, under her leadership, has become an 
expanded and outstanding organization as a true watch dog of 
human rights in America and around the world, welcome.
    Dr. Howard Henderson is the Director of the Center for 
Justice Research at Texas Southern University. He is a Senior 
Fellow in Governance Studies at Brookings Institution and 
founding Director of the Center for Justice Research. He is an 
expert on culturally responsive criminal justice research, has 
provided approaches to reducing disparity in the criminal 
justice system, a multitude of articles, and a great deal of 
passion. Dr. Henderson, we welcome you.
    Derek Maltz spent 28 years in public service with the Drug 
Enforcement Administration, including 10 years as a special 
agent in charge for the Special Operations Division of the 
Department of Justice. He now serves as Executive Director for 
Government Relations at Pen-Link.
    Mr. Maltz, we thank you for your service to this country, 
welcome.
    Dr. Katharine Neil Harris is the Alfred C. Glassell, III, 
Fellow in Drug Policy at Rice University Baker Institute for 
Public Policy, a drug policy expert. Her current research 
focuses on the availability of drug treatment for all at-risk 
populations, the opioid epidemic, and the legalization of 
medical and adult use cannabis.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in five minutes. To help you 
stay within that time for our witnesses testifying in person, 
there is a timing light on your table. When the light switches 
from green to yellow, you have one minute to conclude your 
testimony. When the light turns red, it signals your five 
minutes have expired. For our witnesses testifying remotely, 
there is a timer in the WebEx view that should be visible on 
your screen.
    Dr. Henderson, you may begin, welcome.

                 TESTIMONY OF HOWARD HENDERSON

    Mr. Henderson. Thank you. And allow me to begin my 
testimony by expressing my humble appreciation for the 
opportunity to testify on the impact of federal drug policies 
on the criminalization of people of color.
    As a Professor of Justice Administration and the Director 
for the Center for Justice Research and the Barbara Jordan-
Mickey Leland School of Public Affairs at Texas Southern 
University in Houston, Texas, I would like to take this time to 
thank Chair Nadler, the Subcommittee Chair; my representative, 
Sheila Jackson Lee; Ranking Chair Andy Biggs; Subcommittee Vice 
Chair Cori Bush and the remaining Members of the U.S. House 
Committee on the Judiciary Subcommittee on Crime, Chair of 
Homeland Security.
    I must express my gratitude and appreciation to 
Congresswoman Sheila Jackson Lee for her unwavering support of 
our university, students, faculty, staff. Her expectation of 
evidence-support research and decision making has served as 
continued motivation for all of us at Texas Southern University 
in Houston, one of the largest historically Black colleges and 
universities in the country. Help supporting our efforts does 
not go unappreciated.
    I present this statement for the record with respect to the 
congressional hearing on controlled substances, federal 
policies, and enforcement on this day, March 11, 2021. The 
testimony will provide a brief overview of the evolutionary 
impact of drug policies on the Black community. As suggested, I 
would present an equity-based framework or re-frame the federal 
drug policy that will serve as a basis of my conclusion.
    In this testimony, I offer a structural and historical 
overview of the differential impact of the federal drug 
policies enforcement tradition. It must be understood that the 
inequality caused by federal drug policy is but a continuation 
of the historical process of cultural, institutional, and 
structural repression. Federal drug policy actually has a deep 
historical and institutional root that predate the 1960s.
    In the current testimony, I posit that the contemporary 
American federal drug policy and its relationship to racial 
inequality is only the latest chapter in an unremitting 
narrative in which the drug legislation constitutes the middle 
ground of a race and class stratified social order. In other 
words, this inequality has emerged from the dialect of the 
production and reproduction of racist logics as part of the 
broader culture of control.
    The objective of my testimony is not to say the situation 
has remained unchanged from America of old, but our current 
racialized social order is not totally divorced from the past. 
The crux of today's matters of federal drug policy is really 
another step in the long arc of history representing an old 
southern order that directly serves the spirit of White 
supremacy and absolutely refuses to accept the reality that 
they actually lost the Civil War.
    In this spirit, I posit that racist logic did not disappear 
with the culmination of the civil rights movement, rather 
racism in our criminal justice system has transformed over time 
with many strategies for stratifying and subjugating 
marginalized racial populations persisting in one form or 
another.
    American criminal justice, particularly federal drug 
policy, has often been on the front line in the form of such 
tactics. As African Americans, we are disproportionately 
displaced in urban ghettos, a connected form in the public mind 
between ghetto residents and crime which inexplicably links 
perception of danger through skin color and other forms of 
expression present among ghetto residents. Ghettos were 
increasingly becoming places not just for crime, but Black 
crime. Criminal justice became the intervention of choice, an 
intervention that involves the direct and indirect control of 
urban denizens but did little to address the root structural 
causes of the misery that spawns this crime.
    In fact, the impact of federal drug policy in these spaces 
have only exacerbated the problems confronting African American 
in urban ghettos. When contemporary African American ghettos 
were fully established in the 1980s, President Reagan declared 
the war on drugs. The essential concern of the Reagan 
Administration and others was the offenses of crack cocaine as 
the next big drug epidemic. Crack was cast as a societal 
defense at the hands of crack babies and super predators. 
Federal drug policy in the United States continues to 
perpetuate systems of inequality and domination and that many 
ways mirror forms of control and ultimately violate basic human 
rights.
    As a line between drug legislation and plantation-style 
justice has become increasingly blurred in recent decades, 
federal drug policies have helped create and recreate and 
manage a racialized problem population or a dangerous class 
that has twisted the margins of labor markets and political 
priority. In essence, these policies have helped to maintain 
the color line. Thank you.
    [The statement of Mr. Henderson follows:]

                 STATEMENT OF HOWARD HENDERSON

                            Overview

    I am appreciative of the opportunity to testify on the 
impact of federal drug policies and their criminalization of 
people of color and poverty. As a professor of justice 
Administration and the director of the Center for Justice 
Research in the Barbara Jordan--Mickey Leland School of Public 
Affairs, I present this statement for the record with respect 
to the Congressional hearing on ``Controlled Substances: 
Federal Policies and Enforcement'' on March 11, 2021. My 
testimony will provide a brief overview of the evolutionary 
impact of federal drug policies on Black communities. A 
suggested equity-based framework for the reframing of federal 
drug policies will serve as the basis of this testimony's 
conclusion.
    In this testimony I offer a structural and historical 
overview of the differential impact of the federal drug policy 
enforcement tradition. Rather than viewing unequal treatment in 
drug policy as a result of racism per se, it should be 
understood that such inequality is in part a continuation of 
the historical process of cultural, institutional and 
structural oppression. Similar to Gottschalk's (2006) argument 
that ``contemporary penal policy actually has deep historical 
and institutional roots that predate the 1960s'' (p. 4), in the 
current testimony I posit that contemporary American federal 
drug policy, and its relationship to racial inequality, is only 
the latest chapter in an unremitting narrative in which the 
drug legislation constitutes the middle ground of a race and 
class-stratified social order. In other words, this inequality 
has emerged from the dialectical production and reproduction of 
racists logics as part of the broader culture of control 
(Garland, 2001).
    The objective of this testimony is not to say that the 
situation remains unchanged from the America of old. Our 
current racialized social order, however, is not wholly 
divorced from the past either. Instead, contemporary society is 
merely another step in the long arch of history. In this 
spirit, I posit that racist logics did not disappear with the 
culmination of the Civil Rights Movement (indeed, many racist 
policies continue--see Michelle Alexander's The New Jim Crow). 
Rather, racism in our criminal justice system has transformed 
over time, with many strategies for stratifying and subjugating 
marginalized racial populations persisting in one form or 
another. American criminal justice, particularly federal drug 
policy, has often been on the front line in the deployment of 
such tactics.

                  Staging Federal Drug Policy

    As African Americans were disproportionately displaced into 
urban ghettos, a connection formed in the public mind between 
ghetto residents and crime, which inextricably linked 
perceptions of danger to skin color other forms of expression 
present among ghetto residents (e.g., clothing, dance, music, 
graffiti art) (Weaver 2007). Ghettos were increasingly becoming 
places of not just crime but Black crime. Criminal justice 
became the intervention of choice--an intervention that 
involves the direct and indirect control of urban denizens but 
does little to address the root structural causes of the misery 
that spawns crime. In fact, the impact of federal drug policies 
in these spaces have only exacerbated the problems confronting 
African Americans in urban ghettos (Alexander 2010; Murakawa 
2014). When contemporary African American ghettos were fully 
established in the 1980s, President Reagan declared the War on 
Drugs. The central concern for the Reagan Administration and 
others was the ascendance of crack cocaine as the next big drug 
``epidemic.'' Crack was cast as an antecedent to many current 
and future problems in America. Experts prophesied about an 
impending societal descent at the hands of crack babies and 
superpredators (Murakawa 2014).
    The War on Drugs drastically increased police presence and 
power in disenfran-chised communities. The policy mandated 
drastic increases in police presence throughout many urban 
areas. Although the heavy policing of these districts was 
billed as a response to upticks in urban crime (Lea and Young 
1984; Miller 2015; Weaver 2007), much of the legitimacy of this 
campaign was propelled by unsubstantiated moral panics (Becker 
1963; Cohen 1972; Kappeler and Potter 2005). Ghetto spaces were 
constructed as terrifying abodes of Black urban decay. Crime 
and victimization were said to run rampant. In addition, 
paternalistic rhetoric and imagery were deployed that cast poor 
urban denizens as incapable of resolving the problems wrought 
by crack cocaine. Criminal justice intervention was thus deemed 
necessary.
    Notions of disrepair, broken communities, and moral 
deprivation through the crack cocaine epidemic were powerful 
messages that, for many politicians and Members of the general 
public, justified and even necessitated intervention in the 
ghetto. In the process, urban ghettos have become synonymous 
with war zones in the public imagination. The police are viewed 
as soldiers on the front line against disorder, becoming 
increasingly militarized as a result of the War on Drugs, the 
expansion of criminal justice following the Crime Omnibus Act 
of 1990, and the changes to American policing in the wake of 
the events of 9/11 (Kappeler and Kraska 2015; Kraska 2001; 
Kraska and Kappeler 1997; Murakawa 2014). Many departments 
began to deploy more aggressive tactics and adopt military 
equipment and technology (Kraska 2007; Kraska and Kappeler 
1997). In the next section I will detail policies and practices 
that manage urban ghettos utilizing drug enforcement as the 
modus operandi.
    The aggressive and militarized policing of drug activity 
provides an exploitive funding stream for municipal governments 
and police departments. The Institute of Justice reports the 
U.S. Treasury and the Justice Department forfeited more than $5 
billion largely through narcotic warrants and arrests 
(Carpenter et al. 2015). Narcotic seizures and forfeitures are 
just one form whereby police departments exploit the 
underclasses, especially minorities, through monetary 
dispossession, resulting from federal drug policy. Federal drug 
legislation set the stage for `Zero Tolerance' policing models, 
which have been shown to lead to the exacerbation of fines and 
outstanding warrants that contribute to local government 
coffers. In Ferguson, Missouri, the municipal court issued 
32,975 arrest warrants in 2013, despite the city's population 
of only 21,000 residents (U.S. Department of Justice, Civil 
Rights Division 2015). 90-two percent of these warrants were 
issued to African Americans, who were 68 percent less likely 
than others to have their court cases dismissed. The City of 
Ferguson (2014) accumulated $2.4 million in revenue from court 
fees and fines in 2013. The practice of accumulating revenue 
through fines and fees is related to the carceral State 
expanding by enforcing civil and administrative laws (Beckett 
and Murakawa 2012). Revenue generation through seizures, 
forfeitures, fines, and warrants exploits the economically 
vulnerable and especially harms African American populations 
(Alexander 2010; Beckett and Murakawa 2012; Goffman 2009; 
Murakawa 2014). Districts affected by such practices are 
essentially subjected to resource extraction, a prototypical 
objective of federal legislation, as codified through the War 
on Drugs, mandated by Federal Drug Policy.

                           Conclusion

    As I have attempted to articulate in this testimony, 
federal drug policy in the United States continues to 
perpetuate systems of inequality and domination that, in many 
ways, mirror Jim Crow-like forms of control and ultimately 
violations of basic human rights. As the line between drug 
legislation and plantation style justice has become 
increasingly blurred in recent decades, federal drug policies 
have helped create, recreate, and manage a racialized ``problem 
population'' or ``dangerous class'' pushed to the margins of 
the labor market and political priority--or, as Brucato (2014) 
explained, they maintain the ``color line'' (Shelden 2008; 
Spitzer 1975).
    The testimony offered here is undoubtedly incomplete. 
Addressing failed federal drug policy is an expansive and 
pervasive process. There are, therefore, a multitude of 
dynamics left unexplored in this single testimony. It is 
critical for this Committee to recognize the contemporary and 
historical linkages between race, class and federal drug 
policy, as well as the structures and processes of its 
institutionalization. The crises in America's failed drug 
policy are not new developments. They are the products of long-
running contradictions in American society--contradictions and 
attunement to policies disproportionately and unnecessarily 
impacting historically marginalized communities.

                      Suggested References

Agozino, Biko. 2003. Counter-colonial Criminology. Sterling, VA: Pluto.
Agozino, Biko. 2004. ``Imperialism, Crime and Criminology.'' Crime, Law 
    & Social Change 41(4): 343-58.
Alexander, Michelle. 2010. The New Jim Crow. New York: New Press.
Allen, Robert L. 1969. Black Awakening in Capitalist America. New York: 
    Doubleday.
Allen, Robert L. 2005. ``Reassessing the Internal (Neo) Colonialism 
    Theory.'' Black Scholar 35(1):2-11.
Alpert, Geoffrey P., Michael R. Smith, and Roger G. Dunham. 2004. 
    ``Toward a Better Benchmark.'' Justice Research and Policy 6(1):44-
    69.
Alpert, Geoffrey P., John M. MacDonald, and Roger G. Dunham. 2005. 
    ``Police Suspicion and Discretionary Decision Making during Citizen 
    Stops.'' Criminology v43(2):407-34.
Angwin, Julia, Jeff Larson, Surya Mattu, and LaurenKirchner. 2016. 
    ``Machine Bias.'' Retrieved May 23, 2016 (https://
    www.propublica.org/article/machine-bias-risk-assessments-in-
    criminal-sentencing).
Bass, Sandra. 2001. ``Policing Space, Policing Race: Social Control 
    Imperatives and Police Discretionary Decisions.'' Social Justice 
    128(1):156-76.
Becker, Howard S. 1963. Outsiders. New York: Free Press.
Beckett, Katherine, and Naomi Murakawa. 2012. ``Mapping the Shadow 
    Carceral State.'' Theoretical Criminology 16(2):221-44.
Beckett, Katherine, Kris Nyrop, and Lori Pfingst. 2006. ``Race, Drugs, 
    and Policing.'' Criminology 44(1):105-37.
Bergesen, Albert, and Max Herman. 1998. ``Immigration, Race, and 
    Riot.'' American Sociological Review 63(1):39-54.
Blauner, Robert. 1969. ``Internal Colonialism and Ghetto Revolt.'' 
    Social Problems 16(4):393-408.
Blomley, Nicholas K. 1994. Law, Space, and Geographies of Power. New 
    York: Guilford.
Bogazianos, Dimitri A. 2011. 5 Grams. New York: NYU Press.
Bonilla-Silva, Eduardo. 2006. Racism Without Racists. 2nd ed. Lanham, 
    MD: Rowman & Littlefield.
Bratton, William W., and Peter Knobler. 1998. Turnaround. New York, NY: 
    Random House.
Brown, Liyah K. 2005. ``Officer or Overseer?'' NYU Review of Law & 
    Social Change 29:757-95.
Brucato, Ben. 2014. ``Fabricating the Color Line in a White 
    Democracy.'' Theoria 141(1):30-54.
Brunson, Rod K., and Jody Miller. 2006. ``Young Black Men and Urban 
    Policing in the United States.'' British Journal of Criminology 
    46(4):613-40.
Carroll, Leo, and M. Lilliana Gonzalez. 2014. ``Out of Place.'' Journal 
    of Research in Crime and Delinquency 51(5):559-84.
Carpenter, Dick M., Lisa Knepper, Angela C. Erickson, and Jennifer 
    McDonald. 2015. Policing for Profit. 2nd ed. Arlington, VA: 
    Institute for Justice.
Cicero, Theodore J., Matthew S. Ellis, Hilary L. Surratt, and Steven P. 
    Kurtz. 2014. ``The Changing Face of Heroin Use in the United 
    States.'' JAMA Psychiatry 71(7):821-26.
City of Ferguson. 2014. ``Annual Operating Budget: Fiscal Year 2014-
    2015.'' Retrieved August 13, 2016 (http://www.fergusoncity.com/
    documentcenter/View/1701).
Clear, Todd R. 2007. Imprisoning Communities. NewYork: Oxford 
    University Press.
Cohen, Stanley. 1972. Folk Devils and Moral Panics. London: MacGibbon 
    and Kee.
Correll, Joshua, Bernadette Park, Charles M. Judd, and Bernd 
    Wittenbrink. 2002. ``The Police Officer's Dilemma.'' Journal of 
    Personality and Social Psychology 83(6):1314-29.
Dahlke, H. Otto. 1952. ``Race and Minority Riots--A Study in the 
    Typology of Violence.'' Social Forces 30(4):419-25. Davis, Angela 
    Y. 2003. Are Prisons Obsolete? New York: Seven Stories.
Dreier, Peter, John Mollenkopf, and Todd Swanstrom. 2001. Place 
    Matters: Metropolitics for the 21st Century. Lawrence: University 
    Press of Kansas.
Du Bois, W.E.B. 1915. ``The African Roots of War.'' Atlantic Monthly 
    115(5):707-14.
Duran, Robert J. 2013. Gang Life in Two Cities: An Insider's Journey. 
    New York: Columbia University Press.
Engel, Robin S., and Jennifer M. Calnon. 2004. ``Examining the 
    Influence of Drivers' Characteristics during Traffic Stops with 
    Police: Results from aNational Survey.'' Justice Quarterly 
    21(1):49-90.
Epps, Charles, Steven Maynard-Moody, and Donald Haider-Markel. 2014. 
    Pulled Over. Chicago: University of Chicago Press. Fanon,
Ferguson, Andrew G. 2012. ``Predictive Policing andReasonable 
    Suspicion.'' Emory Law Journal 62:259-325.
Fernandez-Kelly, Patricia, and Douglas Massey. 2007. ``Borders for 
    Whom? The Role of NAFTA in Mexico-U.S. Migration.'' Annals of the 
    American Academy of Political and Social Science 610(1):98-118.
Ferrell, Jeff. 1993. Crimes of Style. Boston: Northeastern University 
    Press.
Franz. [1961] 2004. The Wretched of the Earth. New York: Grove.
French, Laurence A. 2016. Policing American Indians. Boca Raton, FL: 
    CRC Press.
Gabrielson, Ryan, Ryann G. Jones, and Eric Sagara. 2014.``Deadly Force, 
    in Black and White.'' ProPublica. Retrieved August 13, 2016 (http:/
    /www.propublica.org/article/deadly-force-in-black-and-white).
Gans, Herbert J. 2005. ``Race as Class.'' Contexts 4(4):17-21.
Garland, David. 2001. Culture of Control. Chicago: University of 
    Chicago Press.
Garriott, William. 2010. ``Targeting the Local.'' Canadian Journal of 
    Law and Society 25(1):1-19.
Glenn, Evelyn N. 2015. ``Settler Colonialism as Structure.'' Sociology 
    of Race and Ethnicity 1(1):52-72.
Goffman, Alice. 2009. ``On the Run.'' American Sociological Review 
    74(3):339-57.
Goode, Erich. 2002. ``Drug Arrests at the Millennium.'' Social Science 
    and Public Policy 39(1):41-45.
Gottschalk, Marie. 2006. The Prison and the Gallows. New York: 
    Cambridge University Press.
Gramsci, Antonio. 1971. Selections from the prison note-books. 
    Translated by Quintin Hoare and Geoffrey Nowell Smith. New York: 
    International Publishers.
Harcourt, Bernard E. 2001. Illusion of Order. Cambridge,MA: Harvard 
    University Press.
Harcourt, Bernard E. 2015. ``Risk as a Proxy for Race.'' Federal 
    Sentencing Reporter 27(4):237-43.
Harring, Sidney L. 1983. Policing a Class Society. New Brunswick, NJ: 
    Rutgers University Press.
Herbert, Steve. 1998. ``Police Subculture Reconsidered.'' Criminology 
    36(2):343-69.
Herbert, Steve. 2001. ``Policing the Contemporary City.'' Theoretical 
    Criminology 5(4):445-66.
Herbert, Steve, and Elizabeth Brown. 2006. ``Conceptions of Space and 
    Crime in the Punitive Neoliberal City.'' Antipode 38(4):755-77.
Hindelang, Michael J. 1978. ``Race and Involvement in Common-law 
    Personal Crimes.'' American Sociological Review 43(1):93-109.
Irwin, K., J. Davidson, and A. Hall-Sanchez. 2013. ``The Race to Punish 
    in American Schools.'' Critical Criminology 21(1):47-71.
Jacques, Scott, and Richard Wright. 2015. Code of the Suburb. Chicago: 
    University of Chicago Press.
Kappeler, Victor E., and Peter B. Kraska. 2015. ``Normalising Police 
    Militarization, Living in Denial.'' Policing and Society 25(3):268-
    75.
Kappeler, Victor E., and Gary W. Potter. 2005. The Mythology of Crime 
    and Criminal Justice. 4th ed. Long Grove, IL: Waveland.
Kappeler, Victor E., Richard D. Sluder, and Geoffrey P. Alpert. 1998. 
    Forces of Deviance. 2nd ed. Long Grove, IL: Waveland.
Kelling, George L., and James Q. Wilson. 1982. ``BrokenWindows.'' 
    Atlantic Monthly, March:29-38.
Kienscherf, Markus. 2014. ``Beyond Militarization andRepression: 
    Liberal Social Control as Pacification.'' Critical Sociology. 
    doi:10.1177/0896920514565485.
Kiros, Teodros. 1985. Towards the construction of atheory of political 
    action. Lanham, MD: University Press of America.
Klein, Malcolm W. 2004. Gang Cop. Walnut Creek, CA: AltaMira.
Klinger, David A. 1997. ``Negotiating Order in Patrol Work.'' 
    Criminology 35(2):277-306.
Kraska, Peter B. 2001. Militarizing the American Criminal Justice 
    System. Boston: Northeastern University Press.
Kraska, Peter B. 2007. ``Militarization and Policing--Its Relevance to 
    21st Century Police.'' Policing 1(4):501-13.
Kraska, Peter B., and Victor E. Kappeler. 1997. ``Militarizing American 
    Police.'' Social Problems 44(1):1-18.
KRS-One. 1993. ``Sound of da Police.'' Return of the Boom Bap. CD. New 
    York: Jive Records.
Kupchik, Aaron, and Geoff Ward. 2014. ``Race, Poverty, and Exclusionary 
    School Security.'' Youth Violence and Juvenile Justice 12(4):332-
    54.
Lea, John, and Jock Young. 1984. What Is To Be Done about Law and 
    Order? New York: Penguin.
Lenin, Vladimir I. 1939. Imperialism. New York: International 
    Publishers.
Linnemann, Travis, and Tyler Wall. 2013. ``This Is Your Face on Meth.'' 
    Theoretical Criminology 17(3):315-34.
Losurdo, Domenico. 2014. Liberalism. New York: Verso.
Manning, Peter K. 1980. The Narcs' Game. Cambridge, MA: MIT Press.
Massey, Douglas S., and Nancy A. Denton. 1993. American Apartheid. 
    Cambridge, MA: Harvard University Press.
Mastrofski, Stephen D., Michael D. Reisig, and John D. McCluskey. 2002. 
    ``Police Disrespect toward the Public.'' Criminology 40(3):515-51.
Mauer, Marc. 2009. The Changing Racial Dynamics of the War on Drugs. 
    Washington, DC: The Sentencing Project.
Mauer, Marc. 2011. ``Addressing Racial Disparities in Incarceration.'' 
    Prison Journal 91(3):875-1015.
Meares, Tracey. 2015. ``Broken Windows, Neighborhoods,and the 
    Legitimacy of Law Enforcement or Why I Fell In and Out of Love with 
    Zimbardo.'' Journal of Research in Crime and Delinquency 52(4):609-
    25.
Miller, Lisa L. 2015. ``What's Violence Got to Do with It?'' Punishment 
    & Society 17(2):184-210.
Mitchell, Don. 2003. Right to the City. New York: Guilford.
Mitchell, Ojmarrh, and Michael S. Caudy. 2015. ``Examining Racial 
    Disparities in Drug Arrests.'' Justice Quarterly 32(2):288-313.
Muniz, Ana. 2015. Police, Power, and the Production of Racial 
    Boundaries. New Brunswick, NJ: Rutgers University Press.
Murakawa, Naomi. 2014. The First Civil Right. New York: Oxford 
    University Press.
Neocleous, Mark. 2000. The Fabrication of Social Order. Sterling, VA: 
    Pluto.
Newburn, Tim, and Trevor Jones. 2007. ``Symbolizing Crime Control: 
    Reflections on Zero Tolerance.'' Theoretical Criminology 
    111(2):221-43.
Office of the New York State Attorney General. 1999. ``The New York 
    City Police Department's `Stop and Frisk' Practices: A Report to 
    the People of the State of New York From the Office of the Attorney 
    General, Civil Rights Bureau.'' Albany: Office of the New York 
    State Attorney General.
Olzak, Susan, Suzanne Shanahan, and Elizabeth McEneaney. 1996. 
    ``Poverty, Segregation, and Race Riots.'' American Sociological 
    Review 61(4):590-613.
Pager, Devah. 2010. ``The Mark of a Criminal Record.'' American Journal 
    of Sociology 108(5):937-75.
Pinderhughes, Charles. 2010. ``How Black Awakening in Capitalist 
    America Laid the Foundation Fora New Internal Colonialism Theory.'' 
    Black Scholar 40(2):
    71-78.
Pinderhughes, Charles. 2011. ``Toward a New Theoryof Internal 
    Colonialism.'' Socialism & Democracy 25(1):235-56.
Piquero, Alex R., and Robert W. Brame. 2008. ``Assessing the Race-crime 
    and Ethnicity-crime Relationship in a Sample of Serious Adolescent 
    Delinquents.'' Crime and Delinquency 54(3):390-422.
Platt, Tony, Jon Frappier, Gerda Ray, Richard Schauffler, Larry 
    Trujillo, Lynn Cooper, Elliot Currie, and Sidney Harring. 1977. The 
    Iron Fist and the Velvet Glove. 3rd ed. San Francisco, CA: Crime 
    and Social Justice Associates.
Rojek, Jeff, Richard Rosenfeld, and Scott Decker. 2012. ``Policing 
    Race.'' Criminology 50(4):993-1024.
Saleh-Hanna, Viviane. 2008. Colonial Systems of Control. Ottawa, ON, 
    Canada: University of OttawaPress.
Sampson, Robert J., and Stephen W. Raudenbush. 2004. ``Seeing 
    Disorder.'' Social Psychology Quarterly 67:319-42. I11Schaefer, 
    Brian P., and Peter B. Kraska. 2012. ``Felon Disenfranchisement.'' 
    Race & Justice 2(4):304-21.
Scott, James C. 1985. Weapons of the Weak. New Haven,CT: Yale 
    University Press.
Sentencing Project. 2013. ``Report of The Sentencing Project to the 
    United Nations Human Rights Committee Regarding Racial Disparities 
    in the United States Criminal Justice System.'' Retrieved August 
    13, 2016 (http://sentencingproject .org/doc/publications/
    rd_ICCPR%20Race%20and%20Justice%20Shadow%20
    Report.pdf).
Shelden, Randall G. 2008. Controlling the Dangerous Classes. 2nd ed. 
    Boston: Pearson Education.
Smith, Neil. 1996. The New Urban Frontier. New York, NY: Routledge.
Smith, Neil. 2001. ``Global Social Cleansing.'' Social Justice 28:68-
    74.
Smith, Douglas A., and Jody R. Klein. 1984. ``Police Control of 
    Interpersonal Disputes.'' Social Problems 31:468-81.
Spitzer, Steven. 1975. ``Toward a Marxian Theory of Deviance.'' Social 
    Problems 22(5):638-51.
Spohn, Cassia. 2000. ``30 Years of Sentencing Reform.'' Pp. 427-501 in 
    Criminal Justice, edited by Julie Horney. Washington, DC: U.S. 
    Department of Justice.
Stewart, Gary. 1998. ``Black Codes and Broken Windows.'' Yale Law 
    Journal 107(7):2249-79.
Tatum, Becky. 1994. ``The Colonial Model as a Theoretical Explanation 
    of Crime and Delinquency.'' Pp. 33-52 in African American 
    Perspectives on Crime Causation, Criminal Justice Administration 
    and Prevention, edited by Anne T. Sulton. Englewood, CO: Sulton.
Tatum, Becky. 2000. ``Toward a Neocolonial Model of Adolescent Crime 
    and Violence.'' Journal of Contemporary Criminal Justice 16(2):157-
    70.
Tonry, Michael. 2011. Punishing Race. New York: Oxford University 
    Press.
U.S. Department of Justice, Civil Rights Division. 2015. 
    ``Investigation of the Ferguson Police Department.'' Washington, 
    DC: U.S. Department of Justice.
Weaver, Vesla. 2007. ``Frontlash.'' Studies in American Political 
    Development 21(2):230-65. Websdale, Neil. 2001. Policing the Poor. 
    Boston: Northeastern University Press.
Weitzer, Ronald. 2002. ``Incidents of Police Misconduct and Public 
    Opinion.'' Journal of Criminal Justice 30(5):397-408.
Ziltener, Patrick, and Daniel Kunzler. 2013. ``Impactsof Colonialism--A 
    Research Survey.'' Journal of World-Systems Research 19(2):290-311.
Zinn, Howard. 2005. A People's History of the United States. New York: 
    Harper Perennial Modern Classics.

             About the Center for Justice Research

    The Center for Justice Research is devoted to data-driven 
solutions for an equitable criminal justice system. Our primary 
focus is to produce innovative solutions to criminal justice 
reform efforts by utilizing an experienced group of researchers 
working to understand and address the current challenges of the 
criminal justice system.
    The Center for Justice Research can be reached at 713-313-
6843 or visit centerforjusticeresearch.org.

    Ms. Jackson Lee. Thank you for your testimony and thank you 
for the time in which you pleted your testimony and how it's a 
pleasure for Dr. Neil Harris, if you would give your testimony 
at this time.

              TESTIMONY OF KATHARINE NEILL HARRIS

    Ms. Harris. Good morning.
    I would like to thank Chair Nadler, Subcommittee Chair 
Sheila Jackson Lee, Ranking Chair Andy Biggs, and Subcommittee 
Vice-Chair Cori Bush and all Members of the Committee for this 
opportunity to testify for this hearing today.
    My name is Katharine Neill Harris and I am the Alfred C. 
Glassell III Fellow in Drug Policy at Rice University's Baker 
Institute for Public Policy.
    I want to start by clarifying that the war on drugs is, 
first and foremost, a war on people. Four hundred and fifty 
thousand people are incarcerated for nonviolent drug offenses 
on any given day.
    Black people are overrepresented in every aspect of the 
drug war, despite using and selling drugs at similar rates as 
White people. Since 2013, the presence of fentanyl in the 
illicit drug supply has intensified the overdose epidemic.
    It is overly simplistic to assume that opioids alone 
explain the current crisis. Instead, this epidemic is a sign of 
a more persistent drug use problem, one that federal policy has 
not only failed to address but has made worse through its 
harmful approach.
    We are now at an inflection point. The tragedies of the 
overdose crisis have forced a reckoning with tough on drugs 
thinking, albeit one made possible only because the epidemic's 
early victims were mostly white.
    Still, any departure from the drug war mentality is a 
welcome development. Support is building for reforms that are 
centered on racial justice and harm reduction.
    Bad policies are hard to dismantle. Drug bans continue to 
play a central role demonstrating a failure to learn from the 
drug war's mistakes and a misunderstanding of the root of the 
current overdose epidemic.
    While recent reforms have reduced mandatory minimums for 
some drug offenses, this problematic sentencing structure 
continues.
    I will now briefly discuss each of these policies. Given 
the overdose-related risks of fentanyl and its analogs, the 
urge to institute broad bans and harsh punishments is 
understandable, but it is also misguided.
    DEA argues that its emergency class-wide ban on all 
fentanyl-related substances is critical to aiding prosecution 
of people selling these drugs. An analysis by the U.S. 
Sentencing Commission found no evidence that the ban was needed 
for these prosecutions, and more importantly, the class-wide 
ban doesn't work.
    Fentanyl-related overdoses continue to rise even if those 
involving other opioids have levelled off or declined. Recent 
analysis also shows that law enforcement seizures of fentanyl 
are actually associated with an increase in overdose deaths.
    The ease of distribution of fentanyl and its analogs make 
any efforts to diminish supply an uphill battle, and in the 
unlikely event that federal authorities do make a significant 
dent in the fentanyl supply, markets will adapt by finding an 
equally or more lethal drug alternative.
    We know this from experience. Government efforts to crack 
down on the supply of prescription opioids in the early 2000s 
led to the spikes in heroin and fentanyl deaths that we see 
today.
    So, while it might seem like the right thing to do, a 
class-wide fentanyl ban is not benign. It makes illicit drug 
use more dangerous to the person using.
    This kind of ban also expands the reach of an agency whose 
mission is to make drug arrests regardless of the harms and 
ineffectiveness of this approach.
    DEA tactics widen the net of people who encounter the 
justice system and are arrested, convicted, sentenced, and 
continuously monitored by it. Like drug bans, mandatory minimum 
sentences have not reduced drug supply, demand, or deaths. They 
do not work.
    Supporters of these sentences claim that they target drug 
sellers, not drug users. But there's often no clear distinction 
between these groups, and many people who sell drugs have 
substance use disorders.
    Also, the amounts of drugs that trigger mandatory penalties 
are a poor indicator of a person's role in a drug-selling 
operation, and to this point, most people charged with drug 
trafficking offenses are at the bottom of the distribution 
chain. Any vacancies created by these arrests are quickly 
filled and drugs remain available.
    Law enforcement has wide discretion to decide who to pursue 
with mandatory minimums. This increases the likelihood that 
people who have substance use disorders or who are Members of 
minority communities already subject to government surveillance 
will become targets for harmful interventions.
    Mandatory minimums impose long prison sentences and are 
disproportionately levied against people of color. We don't 
need more data about how these policies are harmful and 
ineffective.
    We need action, and there are several immediate steps that 
Congress can take to promote less harmful, more effective 
policy.
    First, Congress should not extend the class-wide ban on 
fentanyl analogues. It should repeal mandatory minimum 
sentences. It should remove financial incentives for law 
enforcement to pursue drug offenses, and it should expand 
access to medication-assisted treatment and fund interventions 
that reduce the harms of drug use, not just for opioids.
    It should also remove cannabis from Schedule I and 
implement measures to alleviate the damages of prohibition such 
as those included in the original MORE Act.
    My time is up so I will end here but I look forward your 
questions and thank you.
    [The statement of Ms. Harris follows:]

              STATEMENT OF KATHARINE NEILL HARRIS

    Members of the Committee:
    Thank you for the opportunity to submit testimony regarding 
federal policies for controlled substances. On behalf of the 
drug policy program at Rice University's Baker Institute for 
Public Policy, this statement is submitted for the record for 
the hearing on ``Controlled Substances: Federal Policies and 
Enforcement'' on March 11, 2021. The following section provides 
a brief overview of current trends in drug use and drug policy. 
This is followed by a discussion of two specific policies, the 
class-wide fentanyl ban and mandatory minimum sentences. This 
testimony concludes with policy recommendations for Congress.

                          Introduction

    The 40-year War on Drugs is a policy failure. It is unable 
to stop the steady flow of drugs into communities across the 
U.S.; it ignores the complex causes of drug use and fails to 
provide effective treatment for addiction; it contributes to 
mass incarceration and violence on our Southern border; it is 
exceedingly expensive; and it inflicts immeasurable harm on 
people who use drugs and on minority communities writ large.\1\ 
The overdose crisis, which has occurred alongside the drug war 
for the last two decades, is the clearest indictment so far of 
the failure of prohibition to curb drug use. COVID-19 has 
worsened the overdose epidemic, and 2020 was another record-
breaking year for drug-related deaths.\2\
---------------------------------------------------------------------------
    \1\ See William Martin and Katharine Neill Harris, 2021, Drug 
policy priority issues for the Biden Administration, Issue Brief, Rice 
University's Baker Institute for Public Policy, https://
www.bakerinstitute.org/research/drug-policy-priority-issues-biden-
Administration/.
    \2\ Joan Stephenson, 2021, CDC warns of surge in drug overdose 
deaths during COVID-19, JAMA Network, January 5, https://
jamanetwork.com/channels/health-forum/fullarticle/2774898.
---------------------------------------------------------------------------
    The War on Drugs is first and foremost a war on people. 
More people are arrested for drug possession than for any other 
offense in the U.S. Of more than 1.5 million drug arrests in 
2019, about 90% were for possession. Roughly 450,000 people are 
incarcerated for nonviolent drug offenses on any given day. 
Nearly half (46%) of the federal prison population consists of 
people convicted of drug offenses. National survey data 
consistently show that Black people account for about 12% of 
people who use drugs, proportionate to their population size, 
but they make up 29% of drug arrests. 40-three percent of 
people in federal prison for drug offenses are Black and 
approximately 60% of people in State prisons for drug offenses 
are people of color.\3\ The Federal Government has undeniably 
led the charge in the War on Drugs; harsh policies at the 
federal level have contributed to punitive, ineffective, and 
unequal drug policy at all levels of government.\4\
---------------------------------------------------------------------------
    \3\ E. Ann Carson, 2020, Prisoners in 2019, U.S. Department of 
Justice, Bureau of Justice Statistics, https://www.bjs.gov/content/pub/
pdf/p19.pdf.
    \4\ For example, when Congress passed the Anti-Drug Abuse Acts of 
1986 and 1988, ratcheting up penalties for crack cocaine, states 
followed suit. After Congress passed the Fair Sentencing Act in 2010, 
raising the amount of crack that triggers the mandatory sentences and 
thereby reducing the sentencing disparity for crack and cocaine from a 
ratio of 100 to 1 to 18 to 1, many states did the same.
---------------------------------------------------------------------------
    Arrest and incarceration statistics show only one facet of 
the harms the War on Drugs has caused. It has infiltrated 
nearly every aspect of the lives it entangles. Involvement in 
the criminal justice system increases the likelihood of future 
law enforcement encounters and negatively impacts multiple 
areas of one's life, including education and employment 
prospects, parental rights, immigration status, and access to 
housing and health care.
    Children whose parents have been arrested and incarcerated 
for drug offenses incur greater risk for these same negative 
outcomes in their adolescence and adulthood.
    Increasingly, public health experts are recognizing the 
micro- and macro-level adverse physical and mental health 
effects caused by encounters with the justice system.\5\
---------------------------------------------------------------------------
    \5\ For a more detailed discussion of the health impacts of 
carceral systems, see the January 2020 special issue of American 
Journal of Public Health, https://ajph.aphapublications.org/toc/ajph/
110/S1.
---------------------------------------------------------------------------
    Drug use can also cause harm, and since 2013, the presence 
of fentanyl in the illicit drug supply has exacerbated the 
overdose epidemic. The number of overdoses involving synthetic 
opioids other than methadone, a category dominated by fentanyl, 
doubled from 2015 to 2016.\6\ It is overly simplistic, however, 
to assume that opioids alone explain the current overdose 
crisis. Analysis of overdose fatalities over time suggests that 
such deaths have been increasing exponentially as far back as 
1979.\7\ Overdoses involving cocaine and methamphetamine have 
been increasing since 2010, and the majority of overdose deaths 
involve two or more drugs.\8\ Taken together, these trends 
suggest that the recent sharp increases in overdoses may be a 
particularly intense manifestation of a more persistent 
substance use problem, one that U.S. drug policy has done 
little to address.\9\
---------------------------------------------------------------------------
    \6\ National Center for Health Statistics, Data Brief 294, Drug 
overdose deaths in the United States, 1999-2016.
    \7\ Hawre Jalal et al., 2018, Changing dynamics of the drug 
overdose epidemic in the United States from 1979 through 2016, Science, 
September 21, https://science.sciencemag.org/content/361/6408/eaau1184.
    \8\ Holly Hedegaard et al., 2018, Drugs most frequently involved in 
drug overdose deaths: United States, 2011- 2016, National Vital 
Statistics Report, 67 (9), December 12..
    \9\ Katharine Neill Harris, 2018, The drug overdose epidemic: not 
just about opioids, Issue Brief, Rice University's Baker Institute for 
Public Policy, https://www.bakerinstitute.org/
research/overdose-epidemic/
---------------------------------------------------------------------------
    Despite this grim overview, there is hope that we are 
moving toward a more evidence- based approach. The tragedies of 
the overdose epidemic have forced a reckoning with tough-on-
drugs thinking, albeit one made possible only because the 
epidemic's early victims were predominantly White.\10\ Still, 
any departure from the drug-war mentality is a welcome 
development. We now find ourselves at an inflection point, 
where demands for reforms centered on racial justice and harm 
reduction are up against entrenched prohibitionist policies.
---------------------------------------------------------------------------
    \10\ William Martin and Katharine Neill Harris, 2016, Drugs by the 
Numbers, Issue Brief, Rice University's Baker Institute for Public 
Policy, https://www.bakerinstitute.org/research/drugs-by-numbers/.
---------------------------------------------------------------------------
    Recent reforms such as the First Step Act and federal 
funding for expanded access to medication-assisted treatment 
for opioid use disorder are important steps toward developing 
more evidence-based drug policy. Other trends, however, are 
concerning. Drug bans, such as those for fentanyl analogues, 
continue to play a central role in U.S. drug policy, 
demonstrating a failure to internalize the lessons of past drug 
war battles and a misunderstanding of the roots of the current 
overdose epidemic. Furthermore, while the First Step Act 
reduced mandatory minimum sentences for people convicted of 
certain drug offenses, this problematic sentencing structure 
continues. The next sections address each of these policies.

             Limitations of Drug-Specific Measures

    Given the overdose-related risks of fentanyl and its 
analogues, the urge to ban these substances and harshly punish 
anyone who sells them is understandable, but it is also 
misguided.
    DEA argues that its emergency class-wide ban on all 
fentanyl-related substances, authorized by Congress in 2018 and 
set to expire on May 6, 2021, is critical to aiding prosecution 
of people selling fentanyl who try to skirt federal prohibition 
by making small tweaks to the drug's chemical structure. But it 
is not clear that this ban and the additional authority it 
grants to DEA are actually necessary. An analysis by the U.S. 
Sentencing Commission found that in fiscal year (FY) 2019 only 
two cases regarding fentanyl analogues involved substances not 
already listed in the Controlled Substances Act, and in neither 
case did the courts appear to rely on DEA's 2018 emergency 
scheduling order to issue rulings.\11\
---------------------------------------------------------------------------
    \11\ Kristin M. Tennyson et al., 2021, Fentanyl and fentanyl 
analogues, U.S. Sentencing Commission, January, https://bit.ly/3rrZZ9A.
---------------------------------------------------------------------------
    Law enforcement agencies often point to the number of drug 
seizures and prosecutions as indicators of prohibition's 
importance and effectiveness. By this logic, prosecution of 
fentanyl trafficking is working when more cases of fentanyl 
trafficking are being prosecuted. This rationale is used to 
justify ever-increasing resources and authority to law 
enforcement for drug-related interventions, without providing 
evidence of the efficacy of such policies for reducing drug 
supply or demand. A 2018 GAO report found that federal law 
enforcement agencies lacked metrics for assessing the 
effectiveness of their efforts, concluding that ``without 
specific outcome-oriented performance measures, federal 
agencies will not be able to truly assess whether their 
respective investments and efforts are helping them to limit 
the availability of and better respond to the synthetic opioid 
threat.'' \12\ If we evaluate fentanyl-related law enforcement 
efforts using fentanyl-related overdoses as a metric, they are 
hardly a success; these overdoses continue to increase even as 
overdoses involving prescription opioids and heroin have 
leveled off or slightly declined.\13\ Recent empirical research 
has also found that law enforcement seizures of fentanyl are 
associated with an increase in overdose deaths.\14\
---------------------------------------------------------------------------
    \12\ Government Accountability Office, 2018, While greater 
attention given to combating synthetic opioids, agencies need to better 
assess their efforts, https://www.gao.gov/assets/gao-18-205.pdf.
    \13\ Centers for Disease Control and Prevention, 2021, Opioid data 
analysis and resources, https://www.cdc.gov/drugoverdose/data/
analysis.html.
    \14\ Jon E. Zibbell, et al., 2019, Association of law enforcement 
seizures of heroin, fentanyl, and carfentanil with opioid overdose 
deaths in Ohio, 2014-2017, JAMA Network, November 8, https://
jamanetwork.com/journals/jamanetworkopen/fullarticle/2754249.
---------------------------------------------------------------------------
    The ease and diversity of distribution for fentanyl and its 
analogues make any efforts to diminish its supply an uphill 
battle. In the unlikely event that federal authorities do make 
significant dents in fentanyl access and supply, people 
involved in manufacturing and trafficking will adapt by finding 
a drug alternative that is just as lethal, if not more so. To 
confirm the high likelihood of this scenario, we need look no 
further than our current predicament. The spike in overdose 
deaths, first from heroin in 2010 and then from fentanyl in 
2013, are a direct consequence of prohibition generally and can 
be tied specifically to government efforts to reduce the supply 
of prescription opioids in the early 2000s.\15\
---------------------------------------------------------------------------
    \15\ Neill Harris, The drug overdose epidemic, note 9.
---------------------------------------------------------------------------
    Extending DEA authority to issue class-wide fentanyl bans, 
then, is not benign. Not only might such bans have the 
unintended consequence of further increasing the risks related 
to illicit opioid use, but this practice also increases the 
authority of an agency whose mission is the pursuit of drug 
arrests without regard for the evidence of the harms and 
ineffectiveness of this approach. Zealous pursuit of drug 
offenses, along with policies that incentivize this behavior 
such as civil asset forfeiture laws, widens the net of people 
who encounter the justice system and are subsequently arrested, 
convicted, sentenced, and continuously monitored by it.
    There is also abundant evidence that aggressive law 
enforcement tactics are used disproportionately against 
minorities. One particularly egregious example is DEA's reverse 
sting operations, in which the agency invents nonexistent drug 
stash houses, purported to have drugs and money, in order to 
tempt individuals to rob them. DEA then arrests these 
individuals for crimes related to the attempted robbery. 
Between 2009 and 2019, all but two of 179 people arrested in 
DEA reverse sting operations in New York City were Black or 
Latino. Analysis of data from anti-drug operations using fake 
stash houses in other major cities show that stark racial 
disparities are a common feature of this practice.\16\
---------------------------------------------------------------------------
    \16\ Shayna Jacobs, 2019, 10 years. 179 arrests. No White 
defendants. DEA tactics face scrutiny in New York. The Washington Post, 
December 14, https://wapo.st/3t2BYX1.
---------------------------------------------------------------------------

          The Futility and Harms of Mandatory Minimums

    Like other federal drug policies, mandatory minimum 
sentences have not been accountable to performance measures. 
Steady trends in drug availability and use, and increases in 
overdoses, indicate they have not curbed drug supply or demand. 
They have, however, been remarkably successful at imposing long 
prison sentences. In FY 2016 individuals convicted of drug 
offenses carrying mandatory minimum penalties received an 
average sentence of 94 months.\17\ These laws have been 
especially efficient at incarcerating Black people. Nearly 65% 
of Black people convicted of offenses carrying mandatory 
minimums received the mandatory minimum sentence compared to 
51% of White people convicted of such offenses in FY 2016, a 
disparity that is actually an improvement since FY 2010, when 
the gap in mandatory minimum sentences across racial groups was 
significantly higher.\18\
---------------------------------------------------------------------------
    \17\ U.S. Sentencing Commission, 2018, Federal drug mandatory 
minimum penalties, Report-at-a-glance, p.1, https://www.ussc.gov/sites/
default/files/pdf/research-and-publications/back
grounders/RG-drug-mm.pdf.
    \18\ Id. In FY 2010, 59.5% of Black people eligible for mandatory 
minimum drug sentences received them, compared to 39.3% of White 
people.
---------------------------------------------------------------------------
    A general Rule of thumb for effective deterrence is that 
the swiftness and certainty of punishment are more important 
than severity.\19\ Mandatory minimum sentences do the reverse, 
levying severe punishments that are highly uncertain and 
unevenly enforced. Furthermore, while mandatory minimums may be 
meant to focus on ``drug traffickers'' rather than ``drug 
users,'' these distinctions often are not possible. Many people 
who use drugs also sell them and an analysis using data from 
the National Survey on Drug Use and Health found that 43% of 
people who said they sold drugs in the previous year also met 
criteria for a substance use disorder.\20\
---------------------------------------------------------------------------
    \19\ National Institute of Justice, 2016, Five things about 
deterrence, U.S. Department of Justice https://www.ojp.gov/pdffiles1/
nij/247350.pdf.
    \20\ Evan Stanforth, et al., 2016, Correlates of engaging in drug 
distribution in a national sample, Psychol. Addict. Behav., 30(1), 
https://pubmed.ncbi.nlm.nih.gov/26502336/.
---------------------------------------------------------------------------
    The amounts of drugs that trigger mandatory minimum 
penalties are also a poor indicator of a person's role in a 
drug selling operation.\21\ The arbitrariness of mandatory 
minimum trigger amounts and the wide discretion law enforcement 
has over how to determine that a person is selling drugs, 
increase the ease of prosecuting people for drug sales and the 
likelihood that individuals who have substance use disorders or 
who are Members of minority communities already subject to 
government surveillance will become ensnared in this 
process.\22\ The mandatory minimum sentence of five years for 
anyone convicted of possession of the relatively low amount of 
five grams of crack cocaine, established by the Anti-Drug Abuse 
Act of 1986 and enhanced by legislation of the same name two 
years later, is a prime example of uninformed policymaking with 
disastrous consequences that disproportionately affect Black 
communities.\23\
---------------------------------------------------------------------------
    \21\ Lindsey Lawson Battaglia, 2015, Will the U.S. Senate finally 
reform harsh mandatory minimum sentences for drugs? Drug Policy 
Alliance, March 15, https://bit.ly/3t1fvts.
    \22\ Drug Policy Alliance, 2019, Rethinking the ``drug dealer,'' 
https://bit.ly/3bvQPna.
    \23\ The mandatory minimum trigger amount for powder cocaine, more 
commonly associated with White drug users, remained unchanged, at 500 
grams. For fuller discussion of race and the drug war see Doris Marie 
Provine, 2011, Race and inequality in the War on Drugs, Ann. Rev. Law 
Soc. Sci., 7, 41-60.
---------------------------------------------------------------------------
    Despite ample evidence that mandatory minimum penalties are 
unrelated to drug supply, demand, and overdose deaths, support 
for them lingers, and they are routinely imposed, despite 
increased deviation in recent years. In FY 2019, more than 50% 
of people convicted of fentanyl and fentanyl analogue offenses 
received mandatory minimums and 66% of people convicted of 
other drug offenses received such penalties. Forty-five percent 
of people convicted of drug offenses that year (excluding 
fentanyl and analogues) had little to no prior criminal 
history, calling into question the narrative that the people 
convicted under these laws are long-term ``career criminals.'' 
\24\
---------------------------------------------------------------------------
    \24\ U.S. Sentencing Commission, see note 11.
---------------------------------------------------------------------------
    The data also contradict law enforcement claims that long 
sentences are essential to keeping ``violent traffickers'' off 
the street. Sixty-seven percent of people charged with offenses 
relating to drug trafficking for fentanyl and its analogues in 
FY 2019 were at the level of a street dealer or below.\25\ Any 
vacancies in these positions in an organized drug selling 
operation will be quickly filled. While harsh penalties and 
zealous enforcement are unable to eradicate drugs or people who 
sell them, they may disrupt street-level supply just enough to 
increase the risks associated with drug use, since removal of a 
trusted source of drugs will force people who use drugs to turn 
to unfamiliar sources for their supply.\26\
---------------------------------------------------------------------------
    \25\ Id.
    \26\ Blythe Rhodes, et al., 2019, Urban, individuals of color are 
impacted by fentanyl-contaminated heroin, International Journal of Drug 
Policy, 73, https://www.sciencedirect.com/science/article/abs/pii/
S0955395919301860; Jennifer J. Carroll, et al., 2020, The protective 
effect of trusted dealers against opioid overdose in the U.S., 
International Journal of Drug Policy, https://pubmed.ncbi.nlm.nih.gov/
32143185/; Also see DPA, note 22.
---------------------------------------------------------------------------

                     Policy Recommendations

I. Enact Reforms That Reduce Law Enforcement Interventions and 
      Other Punitive Measures Towards People Who Use Drugs

    National drug law reform is essential for reducing the 
federal prison population and for providing states with a 
blueprint for effective policy change. The most comprehensive 
measure Congress could take would be to decriminalize 
possession of all drugs for personal use. This would 
effectively remove penalties for drug use and possession and 
free up resources to devote to more productive initiatives that 
reduce drug-related harms.
    Given the political hurdles that may delay this proposal, 
Congress can take several more immediate steps to reduce 
harmful and ineffective drug policies:

          1. Repeal or significantly reduce mandatory minimum sentences 
        for drug offenses and repeal the crack/powder cocaine 
        sentencing disparity. Restore judicial discretion in sentencing 
        decisions and consider making factors other than drug quantity 
        the primary metrics in sentencing decisions.\27\
---------------------------------------------------------------------------
    \27\ Ram Subramanian et al., 2020, A federal agenda for criminal 
justice reform, The Brennan Center for Justice, December 9, https://
bit.ly/2OgeAXl; Criminal Justice Policy Foundation, Mandatory minimums 
and sentencing reform, https://www.cjpf.org/mandatory-minimums.
---------------------------------------------------------------------------
          2. Restructure grants to law enforcement agencies so that 
        funds are not based on arrest volume, but instead incentivize 
        development of arrest alternatives, such as pre-arrest 
        diversion programs like LEAD and crisis intervention response 
        teams.\28\
---------------------------------------------------------------------------
    \28\ For discussion of pre-arrest diversion and the need for 
federal funding, see Jay Jenkins and Katharine Neill Harris, ``Leading 
the way to sensible policy on drug use,'' The Houston Chronicle, Aug. 
19, https://bit.ly/3t4qTVC. For discussion on alternative models of 
policing, see Stuart Butler and Nehath Sheriff, 2020, Innovative 
solutions to address the mental health crisis: Shifting away from 
police as first responders, Brookings Institution, November 23, https:/
/www.brookings.edu/research/innovative-solutions-to-address-the-mental-
health-crisis-shifting-away-from-police-as-first-responders/.
---------------------------------------------------------------------------
          3. Bar discrimination and denial of benefits in areas 
        including but not limited to employment, healthcare, housing, 
        immigration, and education based on prior convictions for low-
        level drug possession. Amend the Drug-Free Workplace Act so 
        that it applies only to people whose work involves hazards to 
        physical safety.
          4. Amend or repeal provisions of the Child Abuse Prevention 
        Treatment Act and the Adoption and Safe Families Act that 
        require and incentivize states to remove children from their 
        homes and terminate parental rights on the basis of substance 
        use alone. Redirect funds to community-based treatment and 
        family services.\29\
---------------------------------------------------------------------------
    \29\ For a comprehensive review of the relationship between the 
drug war and the foster care system, see Lisa Sangoi, 2020, How the 
foster system has become ground zero for the U.S. drug war, Movement 
for Family Power, https://www.movementforfamilypower.org/ground-zero.
---------------------------------------------------------------------------
          5. Improve nationwide data collection on race and ethnicity 
        of people involved in stops, arrests, and use of force 
        incidents related to drug use and possession.

 II. Facilitate Expansion of Harm Reduction and Evidence-Based 
                       Treatment Services

    National survey data consistently show that not all drug 
use is abuse, and that most people who get into trouble with 
any substance recover from it, many on their own without 
treatment.\30\ The recent preference for treatment over 
incarceration for people who use drugs is encouraging, but not 
all people arrested for drug offenses need treatment; assuming 
they do or mandating participation wastes scarce resources and 
threatens to widen the net of people under government 
surveillance for using drugs.
---------------------------------------------------------------------------
    \30\ Substance dependence recovery rates: With and without 
treatment, 2016, The Clean Slate Addiction Site, https://bit.ly/
3ceoIrz.
---------------------------------------------------------------------------
    For people who do have substance use disorders, resources 
must be available to reduce use-related harms. The Federal 
Government can take several measures to facilitate evidence-
based practices:

          1. Remove the federal funding ban on syringe service programs 
        and authorize localities to establish safe consumption 
        sites.\31\
---------------------------------------------------------------------------
    \31\ For more information on syringe service programs, see William 
Martin, 2017, Syringe Exchange: Sound Science, Proven Policy, Baker 
Institute for Public Policy, Issue Brief 03.09.17, https://
www.bakerinstitute.org/media/files/files/3f4e6675/BI-Brief-030917-
DRUG_SyringeExch.pdf.
---------------------------------------------------------------------------
          2. Encourage states and localities to provide comprehensive 
        harm reduction services that include supportive housing, safe 
        consumption sites, and syringe and drug testing services by 
        providing grants for these purposes.\32\
---------------------------------------------------------------------------
    \32\ Housing is a key component of curbing harmful drug use; in 
November 2020 Oregon voters approved a measure that will use tax 
dollars from legal cannabis sales to fund comprehensive treatment and 
harm reduction services, including supportive housing, see Oregon 
Measure 110, Estimate of Financial Impact, https://bit.ly/2WcUSvP. 
British Columbia, which opened the first safe consumption site in North 
American, has started to offer residents safer alternatives to street 
drugs to help reduce overdoses, see https://www.theguardian.com/world/
2020/sep/16/british-columbia-opioids-safer-supply-drugs-canada. For 
information on efficacy of safe consumption sites, see Jennifer Ng et 
al., 2017, ``Does evidence support supervised injection sites?'' Can 
Fam Physician, https://www.ncbi.nlm.nih.gov/pmc/articles/PMC5685449/. 
For information on efficacy of drug testing services, see Nicholas 
Peiper, ``Fentanyl test strips as overdose prevention strategy,'' 
International Journal of Drug Policy, https://www.sciencedirect.com/
science/article/pii/S0955395918302135.
---------------------------------------------------------------------------
          3. Rather than focus reduction efforts exclusively on 
        opioids, authorize funding to treat substance use more broadly, 
        including harm reduction services for people who use alcohol 
        and stimulants.\33\
---------------------------------------------------------------------------
    \33\ Substance Abuse and Mental Health Services Administration, 
2016, State targeted response to the opioid crisis grants, December 14, 
https://www.samhsa.gov/grants/grant-announcements/ti-17-014; Puja Seth 
et al., 2018, Overdose deaths involving opioids, cocaine, and 
psychostimulants--United States, 2015-2016, Morbidity and Mortality 
Weekly Report 67(12), 349-359, https://www.cdc.gov/mmwr/volumes/67/wr/
mm6712a1.htm.
---------------------------------------------------------------------------
          4. Make permanent the lower barriers to medication-assisted 
        treatment (MAT) access that are in place temporarily due to the 
        COVID-19 pandemic.\34\
---------------------------------------------------------------------------
    \34\ DEA and SAMHSA relaxed rules regulating prescribing methadone 
and buprenorphine in response to the COVID-19 pandemic; these changes 
have the added benefit of increasing treatment access for people who 
live in rural locations or are without transportation. See https://
www.samhsa.gov/sites/default/files/faqs-for-oud-prescribing-and-
dispensing.pdf.
---------------------------------------------------------------------------
          5. Provide funding for MAT to State prisons and local jails 
        to include all three FDA-approved medications.\35\
---------------------------------------------------------------------------
    \35\ The Department of Justice funds MAT for prisons, but there is 
a strong preference for the opioid antagonist Vivitrol over methadone 
and buprenorphine, the other two FDA-approved medications to treat OUD. 
Best practices recommend that all three be made available to fit 
patients' individualized needs. Rhode Island was the first State to 
offer all three MATs in its correctional system; for an evaluation of 
that program see Traci Green et al., 2018, ``Post-incarceration fatal 
overdoses after implementing medications for addiction treatment in a 
statewide correctional system,'' JAMA Psychiatry, https://
pubmed.ncbi.nlm.nih.gov/29450443/.
---------------------------------------------------------------------------
          6. Authorize pilot programs for heroin-assisted 
        treatment.\36\
---------------------------------------------------------------------------
    \36\ Several high-quality studies have shown that heroin-assisted 
treatment for chronic opioid uses who do not respond well to other 
forms of MAT can result in higher rates of treatment retention, reduced 
spread of blood borne viruses, reduced criminal activity, and lower 
risk of incarceration. See M. Ferri et al., 2011, Heroin maintenance 
for chronic heroin-dependent individuals, Cochrane Database of 
Systematic Reviews, https://www.cochranelibrary.com/cdsr/doi/10.1002/
14651858.CD003410.pub4/full and Jens Reimer et al., 2011, Physical and 
mental health in severe opioid-dependent patients within a randomized 
controlled maintenance treatment trial, Addiction, https://
pubmed.ncbi.nlm.nih.gov/21489005/.
---------------------------------------------------------------------------
          7. Enforce parity laws requiring insurers to provide equal 
        coverage for mental health and substance use disorder 
        treatment.

    III. Remove Cannabis From Schedule I of the Controlled 
 Substance Act and Implement Measures To Alleviate the Damages 
                    of Cannabis Prohibition

    Even though the majority of Americans now live in a State 
where cannabis is legal for some purposes, it remains a 
Schedule I substance in the Controlled Substances Act, and DEA 
continues to insist that it has ``a high potential for abuse'' 
and ``no currently accepted medical use in treatment in the 
United States.'' The first assertion is exaggerated; the second 
is simply false. Removing cannabis from Schedule I is necessary 
both to facilitate sorely needed medical research and to 
decriminalize cannabis possession.
    The Federal Government has allowed State experimentation 
with cannabis policy reform, and many states have now 
decriminalized possession or legalized sales. These efforts 
often do not consider racial equity. Nationally, Black people 
are still 3.64 times more likely to be arrested for possession, 
a disparity that has remained constant since 2010 despite 
several states' loosening restrictions since then.\37\ There 
were over 500,000 arrests for cannabis in 2019, mostly for 
possession, indicating that the war on marijuana continues. 
Burgeoning State cannabis industries are dominated by White 
men, excluding minorities from the benefits of 
legalization.\38\
---------------------------------------------------------------------------
    \37\ Disparities have increased in 31 states between 2010 and 2018. 
ACLU.
    \38\ Katharine Neill Harris and William Martin, 2021, Persistent 
inequities in cannabis policy, Judges' Journal, https://
www.bakerinstitute.org/research/persistent-inequities-cannabis-policy/.
---------------------------------------------------------------------------
    Cannabis reform ultimately requires national leadership. 
The Federal Government is the only entity that can remove 
cannabis from the list of Schedule I controlled substances, 
allow more scientific research, and give banks legal cover to 
provide cannabis-related business loans. Measures such as those 
contained in the MORE Act, including establishing a process for 
expungement of past cannabis convictions, prohibiting the 
denial of public benefits and immigration protections on the 
basis of cannabis-related activity, establishing grant programs 
to fund services and assistance in communities impacted by the 
drug war, and improving data collection on the cannabis 
industry and enforcement of current cannabis laws, are all 
critical to improving racial and social equity.\39\ 
Congressional action on these issues is important for federal 
policy reform, and it will also have a powerful impact on 
state-level policy decisions.
---------------------------------------------------------------------------
    \39\ https://www.congress.gov/bill/116th-congress/house-bill/3884.
---------------------------------------------------------------------------

                      Concluding Comments

    One of the many collateral consequences of the War on Drugs 
is that a large segment of the American public distrusts the 
intent of U.S. drug policy and the information on drug use that 
the government provides. In this way the government's drug war 
has likely impeded its own efforts to reduce demand for drugs 
through education and prevention programs. Substantive policy 
reforms like those discussed above thus are crucial to 
restoring public faith in government and to developing long-
term strategies to reduce drug demand.
    Policies intended to reduce problematic patterns of drug 
use must address systemic issues underlying these problems, 
such as the loss of jobs that provide a livable income, the 
lack of adequate health care coverage for all ailments and for 
mental health in particular, and the increasing sense of 
isolation from community and civic life felt by so many 
people.\40\
---------------------------------------------------------------------------
    \40\ Michael J. Zoorob and Jason L. Salemi, 2017, ``Bowling alone, 
dying together: The role of social capital in mitigating the drug 
overdose epidemic in the United States,'' Drug and Alcohol Dependence 
173, (1), 1-9, https://www.ncbi.nlm.nih.gov/pubmed/28182980.
---------------------------------------------------------------------------
    The COVID-19 pandemic adds another layer of complexity to 
drug-related problems and societal ills by reducing access to 
drug treatment and intensifying the conditions which contribute 
to drug addiction--increased unemployment, strained health-
delivery systems, limited support services, intensified 
distrust of government, and frayed social connections. The 
negative effects of these problems, felt most acutely at 
society's margins, significantly impacts public health and 
quality of life for all Americans.
    Government policies cannot solve all of the problems that 
may drive a person's desire to escape an unpleasant reality 
through drug use, but they can improve current conditions. 
Doing so will require increasing social and economic 
opportunities that make heavy drug use less appealing. This 
involves a significant investment, but one that is necessary to 
reduce drug-related deaths and addiction in the future.

    Ms. Jackson Lee. Thank you very much, Dr. Neill Harris, for 
your testimony.
    Now we will yield to Mr. Maltz for five minutes.

                  TESTIMONY OF DEREK S. MALTZ

    Mr. Maltz. Chair Nadler, Chair Jackson Lee, Ranking Members 
Biggs and Jordan, thank you very much for having me here today 
to speak to you on this ongoing drug crisis in America.
    I was fortunate to be the agent in charge of DEA's Special 
Operations Division for 10 years. I retired in 2014. The 
operation had representatives from 30 agencies. We worked very 
hard to synchronize the efforts to go after transnational 
criminals around the world.
    Prior to that, I was the chief of the country's oldest and 
largest drug task force in New York City. I had the honor to 
work with the most dedicated American heroes who sacrificed 
daily to keep Americans safe.
    As a DEA special agent for 28 years, I was paid to enforce 
the laws of the country enacted by Congress and to protect 
Americans. I am not here representing DEA.
    I'm a private citizen who cares deeply about American 
people, the public safety, and national security of the 
country. I'm here to share information about the growing drug 
crisis and how it's impacting communities all over the country.
    After my DEA career, I continued to engage with law 
enforcement daily to stay current on the trends. I've always 
been a huge advocate of working together as a team and applying 
a true unity of effort. However, right now, we need more of a 
whole of government approach, or rather, a whole of American 
approach, as drug prices impacts all citizens and all 
communities.
    Too many young Americans are dying from this poison. 
According to the recent data from CDC, in a 12-month period 
ending July of 2020, 83,000 Americans died from drug overdoses. 
That's 227 a day.
    This represents the largest number of drug overdoses ever. 
I lost my brother, Michael, in the U.S. Air Force pararescue 
during Operation Enduring Freedom. So, I know what it's like to 
bury a loved one.
    However, there's nothing sadder than when you watch family 
Members of these kids that have promising futures. We cannot 
expect to end the drug crisis with law enforcement alone. We 
need robust education, treatment, rehabilitation, combined with 
law enforcement to curtail this emerging crisis.
    Addicted people do need help. However, we cannot treat 
somebody in the morgue that already died from fentanyl 
poisoning. We need smart Americans from private sector in many 
industries to help provide solutions. We cannot sit back and 
watch these precious lives be lost.
    As law enforcement works to shut down the chemicals flowing 
from China into Mexico, and billions of dollars to the ruthless 
greedy transnational crime networks in Mexico, we need 
addiction specialists, teachers, medical professionals, mental 
health professionals, and others to step up with solutions.
    There must be a true team coordinated effort with Congress 
and all these great Americans that care about the country. The 
killing of Americans at record levels must stop. Government 
officials leading this effort must be held accountable for 
results. Not just papers and statistics but results.
    These American transnational criminal organizations are not 
just engaging in drug trafficking. They're involved in arms 
trafficking, human smuggling, extortion, kidnapping, child 
molesting, child exploitation, and other crimes to maximize 
profit.
    They use the latest and greatest technology, taking 
advantage of our antiquated laws and weaknesses. Hezbollah 
terrorists are working with the Mexican cartels, moving 
millions and millions of dollars around the world and tons of 
cocaine.
    What keeps me up at night, though, is listening to the 
families who lost their loved ones from fentanyl poisoning. 
Many of these citizens took a pill and had no idea the pill 
contained pure fentanyl, and it came from labs in Mexico or 
chemical companies in China.
    The Chinese criminals have stepped up their game and 
they're big-time involved with the drug business and now 
they're involved with taking over the money-laundering services 
business for the cartels. They also provide the dangerous 
chemicals and start to dominate in other areas of the drug 
trade.
    Without the money and chemicals, the cartels can't produce 
the deadly drugs. There's no quality control of these chemicals 
in the pills and remember, one kilogram--2.2 pounds--can kill 
500,000 people, according to the experts.
    To be clear, counterfeit pills with fentanyl and fentanyl 
mixed with other drugs is what's causing the alarming crisis 
right now with drugs.
    DEA Phoenix seized 6 million Mexi-oxy pills last year, 
counterfeit pills with fentanyl. That means that DEA and their 
partners potentially saved over a million people's lives 
because those pills kill instantly.
    As we sit here today, we're dealing with a full-blown 
national security and public health emergency as well as a huge 
humanitarian crisis on the border. Our brave men and women at 
CBP are transitioning from border to security to migrant care. 
That's no good.
    The Mexican transnational criminal organizations are taking 
full advantage of that and they're flooding the zone. They're 
flooding the country with drugs and people. They can easily 
send special agent aliens into the country with dangerous drugs 
as they import guns and cash into Mexico.
    We need Congress to support law enforcement, provide the 
tools and resources to battle these dangerous adversaries and 
very complex criminals.
    The country is very vulnerable if the good guys don't have 
the tools, and right now they're losing the tools in their 
toolbox.
    Thank you for the opportunity to appear today on this 
important topic, and I'm happy to answer any questions.
    Thank you.
    [The statement of Mr. Maltz follows:]

                  STATEMENT OF DEREK S. MALTZ

                          Introduction

    Chair Jerrold Nadler, Ranking Member Jim Jordan, Chair 
Sheila Jackson Lee, Ranking Member Andy Biggs and distinguished 
Members of the committee, I would like to thank you for this 
opportunity to speak with you today about America's devastating 
drug epidemic and impact to all citizens. I am grateful for the 
opportunity to share my experience and thoughts as America 
faces complex challenges and an unprecedented drug crisis. I 
had a long rewarding 28-year career as a Special Agent in the 
Drug Enforcement Administration (DEA) enforcing the Federal 
Controlled Substances Act, title 21 United States Code. I 
retired from the DEA in July 2014 but remain actively involved 
in the private sector supporting law enforcement agencies 
around the world as they aggressively target Transnational 
Criminal Organizations (TCO) causing death and destruction in 
communities throughout the country.
    During the last 10 years of my career, I was the Agent in 
Charge of the DEA's Special Operations Division (SOD) in 
Northern Virginia. In that capacity, I ran the SOD operational 
coordination center with 30 participating agencies, to include 
representatives from Canada, Australia and the United Kingdom. 
SOD's primary mission is to support and synchronize the 
investigative efforts of federal, state, local and 
international law enforcement agencies. Since the Mexican 
cartels are one of the biggest TCO threats to the United 
States, SOD focused substantial resources on the Mexican TCO's. 
SOD was instrumental in supporting the Mexican government and 
the U.S. agencies to capture the leader of the Sinaloa cartel, 
El Chapo Guzman, on two occasions, and coordinating the 
worldwide investigations against the cartel. (CBS 60 Minutes, 
2018). SOD also has a long history of coordinating the efforts 
of agencies around the world disrupting and dismantling major 
criminal networks.
    Unfortunately, I watched the threat of the Mexican TCO's 
grow over the years as they took control of the importation and 
distribution of heroin, cocaine, methamphetamines, marijuana 
and now fentanyl. I remain committed to work with Congress, my 
colleagues in the government agencies and fellow citizens who 
have lost their loved ones to the drug epidemic to help develop 
recommendations and solutions to build more effective 
approaches to eliminate the crisis. Too many Americans are 
dying from drug overdoses and citizens all over the United 
States are impacted by the Mexican TCO's. It is time to work 
together using all the expertise to save lives. Law enforcement 
has the important responsibility to enforce the laws of America 
to keep our citizens safe and needs the full support of 
congress.
    According to the recent provisional overdose data published 
by the Centers for Disease Control and Prevention's (CDC) 
National Center for Health Statistics (NCHS) reflects that 
approximately 83,000 drug overdose deaths occurred in the 
United States in the 12-months ending in July 2020 which 
represents a worsening of the drug overdose epidemic in the 
United States and is the largest number of drug overdoses for a 
12-month period ever recorded. These disturbing numbers 
represent a significant increase from 2019 with over 70,000 
people who died from overdoses. (Network, 2020)
    Over the last few years, I participated in the production 
of several films and media segments to help educate the public 
and bring needed awareness to the dangerous and evolving drug 
crisis. As a patriotic American who lost his brother Michael, 
fighting for America during Operation Enduring Freedom in the 
U.S. Air Force, I am familiar with the pain and suffering of 
losing a loved one. However, nothing is more difficult in life 
than losing a child and I remain committed to this fight. I 
will continue to engage with families who lost children to this 
crisis as well as participate in national news media to push 
the important trends and messages to the public.
    In addition to the troubling news on the drug overdoses, 
there are also dangerous connections between the criminal 
activity of the Mexican TCO's and terrorist groups like 
Hezbollah. The threats posed by the TCO's is global and is 
growing as they make billions of dollars. The topic of narco-
terrorism has been a priority of mine for many years, and the 
United States Government must use all tools of national power 
to combat and decimate these complex threats.
    As the former Special Agent in Charge of SOD in Virginia, 
the Chief of the New York Drug Enforcement Task Force in New 
York City and DEA Special Agent working investigations around 
the globe, I had the privilege of collaborating with numerous 
local, state, federal and international law enforcement 
agencies. I have witnessed the incredible results and positive 
impact to communities when law enforcement works together in a 
professional manner enforcing the controlled substances Act of 
the United States.
    To be clear, the drug crisis can't be solved with law 
enforcement alone. This complex and emerging problem requires 
more than a ``whole of government approach'', but rather a 
``whole of America approach.'' The U.S. needs more focus and 
resources on drug education, treatment and rehabilitation in 
addition to law enforcement. This is an unprecedented public 
health, national security and community safety matter that also 
has huge mental health ramifications for the addicted as well 
as their families. There are many great American patriots 
working in the medical, education, addiction, science, 
technology, financial, and other private sector industries that 
can help develop comprehensive strategies and plans to deal 
with this matter. The status quo is an unacceptable option as 
too many lives are on the line.

                            Overview

    Over the last 34 years, I have been honored to be an active 
participant of the DEA and now in the private sector to work 
with some of the best and brightest investigators around the 
globe. I have always been committed to DEA's mission focusing 
enforcement efforts on the entire criminal organization. I 
remain very concerned that our collective efforts have some 
significant challenges as the Mexican TCO's have expanded their 
product line and have formed a lethal partnership with Chinese 
organized crime networks. They use the latest and greatest 
technology and innovation as well take advantage of antiquated 
laws and policies in the U.S. to thwart law enforcement 
efforts. Sadly, this has resulted in increased violence and 
more overdose deaths.
    Based on the current opioid epidemic, drug crisis and the 
related death and destruction caused by the Mexican TCO's, I am 
pleased to be here today to discuss the growing threats in the 
United States related to the Mexican TCO's, their illicit drug 
trade and the ongoing southwest border crisis. The Mexican 
groups are a tremendous threat to public health, safety and 
national security. In my view based on experience, the Mexican 
cartel syndicates are one of the greatest criminal threats to 
America. I'm thankful for the brave men and women of law 
enforcement who continue to dedicate themselves to fighting 
these very dangerous threats.
    The DEA released its 2020 National Drug Threat Assessment 
(NDTA) and highlighted several drug trends and critical 
information to the public. Christopher Evans, Acting DEA 
Administrator said, ``this year's report shows the harsh 
reality of drug threats facing communities across the United 
States.'' He went on further to say, ``While the COVID-19 
pandemic plagues this nation, so, too, do transnational 
criminal organizations and violent street gangs, adjusting to 
pandemic restrictions to flood our communities with dangerous 
drugs. DEA and our local, State and federal partners continue 
to adapt to the ever changing landscape, remained focused on 
current threats and looking to the horizon for emerging 
threats. We will always defend the American people against 
illicit substances that ruin lives, devastate families and 
destroy communities. (Drug Enforcement Administration, 2021)
    The DEA listed the following significant findings from in 
their annual NDTA report:

    <bullet>  Mexican Transnational Criminal Organizations 
(TCOs) remain the greatest criminal drug threat in the United 
States.
    <bullet>  Illicit fentanyl is one of the primary drugs 
fueling the epidemic of overdose deaths in the United States, 
while heroin and prescription opioids remain significant 
challenges to public health and law enforcement.
    <bullet>  Mexican cartels are increasingly responsible for 
producing and supplying fentanyl to the U.S. market. China 
remains a key source of supply for the precursor chemicals that 
Mexican cartels use to produce the large amounts of fentanyl 
they are smuggling into the United States.
    <bullet>  Drug-poisoning deaths and seizures involving 
methamphetamine have risen sharply as Mexican TCOs increase the 
drug's availability and expand the domestic market.

    The Mexican cartels and the dangerous drugs impact the 
safety and security of all Americans. Despite the overwhelming 
issues related to the drug crisis, DEA along with many other 
law enforcement partners, remain engaged and will continue to 
enforce the controlled substance act. Those who push the 
poisonous drugs to the communities of America and violate the 
laws of this great Nation will be held accountable. During 
Project Python and Operation Crystal Shield, DEA working 
closely with their partners, produced substantial results as 
highlighted in the assessment for 2020 with the seizure of 
28,000 pounds of methamphetamines, millions of counterfeit 
pills containing fentanyl and hundreds of firearms. They also 
arrested over 2600 targets for violating the laws.
    Law enforcement agencies have also worked together on 
several substantial drug seizures that highlights the dangerous 
trends in America. During fiscal year 2020, U.S. Customs and 
Border Protection, (CBP), Office of Field Operations and Border 
Patrol, reported the total drug seizures (U.S. Customs and 
Border Protection, 2020):

    <bullet>  Cocaine: 62,005 lbs.
    <bullet>  Heroin: 5,768 lbs.
    <bullet>  Marijuana: 582,413 lbs.
    <bullet>  Methamphetamine: 177,696 lbs.
    <bullet>  Fentanyl: 4776 lbs.

    In October 2020, DEA Acting Administrator Timothy J. Shea 
and Los Angeles Field Division Special Agent in Charge Bill 
Bodner announced the seizure of 893 pounds of cocaine, 13 
pounds of heroin, and 2,224 pounds of crystal methamphetamine, 
which is the largest domestic seizure of crystal 
methamphetamine in DEA history. (Drug Enforcement 
Administration, 2020)
    Also, in October 2020, U.S. Customs and Border Protection 
officers at the Otay Mesa commercial facility Friday seized 
more than 3,100 pounds of methamphetamine, fentanyl powder, 
fentanyl pills and heroin as part of the second largest 
methamphetamine bust along the southwest border in the history 
of the agency, based on information developed by DEA, working 
jointly with HSI. (U.S. Customs and Border Protection, 2020)
    In January 2021, DEA Dallas Division reported the largest 
seizure of methamphetamine and heroin in the division's 
history. DEA working with partners seized 1,950 pounds of 
methamphetamine valued at $45 million during a traffic stop 
involving a refrigerated tractor- trailer in Denton County on 
Oct. 8, 2020. The drugs were contained inside a secret 
compartment of the truck. The enormous seizure was split into 
633 packages, and DEA determined the drugs would have been 
repackaged for distribution in Texas, Chicago, St. Louis and 
Atlanta. (Jimenez, 2021)
    These tremendous law enforcement successes highlight the 
magnitude of the growing crisis involving the Mexican TCO's as 
the agencies are making record level seizures of these 
dangerous drugs in America. The Mexican TCO's are producing 
record amounts of drugs as they have a vast supply of pre-
cursor chemicals coming into Mexico from China. This dangerous 
trend involving pre-cursor chemicals can be further understood 
when you look at the 2007 seizure of $207 million, U.S 
currency, in Mexico City, Mexico from a Chinese national who 
owned a pharmaceutical wholesale business based in Mexico and 
was importing massive methamphetamine pre-cursor chemicals. 
``With the arrest of Zhenli Ye Gon, we've apprehended not only 
the man behind the money, but the man behind the meth. He may 
never have touched the drugs, but he made it all possible, 
facilitating the massive meth trade by brokering chemicals to 
kingpins,'' said DEA Administrator Karen P. Tandy. (Drug 
Enforcement Administration, 2007)
    Mexican drug cartels dominate the drug business in the 
United Sates and are operating in over 50 countries around the 
world and most cities in the United States. They operate like a 
fortune 500 company in many ways but employ devastating 
violence as well. They have major hubs in Southern California, 
Arizona, Chicago, Texas, New York and Atlanta. The cartels have 
expanded business around the U.S. as they developed a huge 
customer market with their high purity products that are 
killing Americans at an unprecedented level. As an example, 
Franklin County, Ohio coroner Doctor Anahi Ortiz reported that 
fatal overdoses jumped 73% in the first half of 2020, with 437 
deaths. She further reported that 85% of overdoses involved 
fentanyl alone or combined with other drugs and that 
methamphetamine related fatalities increased in 2020. (Holm, 
2020)
    In my view, the major cartels that seem to have the most 
substantial impact in America are the Sinaloa and the Jalisco 
New Generation Cartel. Even though Chapo Guzman was convicted 
on all counts after outstanding law enforcement and prosecution 
efforts, and will spend his life in U.S. prison, the Sinaloa 
and Jalisco cartels remain a huge threat and seem to be growing 
daily as many migrants are walking across the porous border 
establishing business with the cartels in U.S. cities.
    The TCO's are taking full advantage of the antiquated U.S. 
laws and latest technology. They also take advantage of the 
vulnerabilities at the border as the brave CBP officials 
unfortunately must transition their responsibilities from a 
border security role to migrant care due to the massive influx 
of migrants. The TCO's recognize the lack of CBP manpower to 
patrol areas of the border so they capitalize and move drugs 
north into the U.S. and money and weapons south into Mexico.
    When you review the CBP's fiscal year southwest land border 
encounters by month, you can see the very disturbing trend. In 
fiscal year 2021, there is a growing amount of encounters every 
month. There is an indication from CBP that in February 2021, 
the number of encounters is around 101,535. When you further 
compare the first 4 months of the fiscal years 2019, 242,361 
encounters, and 2021, 296,259, there was a 22% increase. (U.S. 
Customs and Border Protection, 2021)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Due to the increasing threats around America, the 
Department of Justice (DOJ) previously initiated multi-agency 
task force groups focusing on the top TCO threats to America. 
The Sinaloa Cartel, the Cartel Jalisco New Generation, Lebanese 
Hezbollah, MS-13 and Clan del Golfo were designated as the most 
significant crime threats to the United States. The Attorney 
General's TOC Task Force is composed of experienced prosecutors 
and investigators. DOJ formed subcommittees for each of the 
target groups and has had several successes. (Department of 
Justice, October)
    Most recently, the DOJ led task force had an unprecedented 
success charging 14 of the world's highest-ranking MS-13 
leaders who directed MS-13's violence and criminal activity 
around the world for almost two decades. This exceptional 
effort is an example of what can be accomplished when law 
enforcement and prosecutors work side by side to protect the 
America public. The groundbreaking indictment charges the 
defendants with conspiracy to provide and conceal material 
support to terrorists, conspiracy to commit acts of terrorism 
transcending national boundaries, conspiracy to finance 
terrorism and narco-terrorism conspiracy in connection with the 
defendants' leadership of the transnational criminal 
organization over the past two decades from El Salvador, the 
United States, Mexico and elsewhere. Keep in mind the motto of 
MS-13 is ``Kill, Rape, Control'' (Department of Justice, 2021)
    The current opioid crisis has a disturbing history, and the 
Washington Post did several outstanding investigative reports 
documenting the evolving opioid crisis in America as the ``Big 
Pharma'' industry distributed 100 billion opioids into America 
from 2006-2014. The Washington Post reporters analyzed the 
information from a data analytics company working on behalf of 
the plaintiff's lawyers in a massive lawsuit against the opioid 
industry. ``In excess of 100 billion pills is simply jaw-
dropping,'' said a lawyer for the plaintiffs from Pensacola, 
FL. ``The data demonstrates that every community in the country 
has been negatively impacted.'' The data released traces the 
path of pills from manufacturers and distributors to pharmacies 
across the country. (Steven Rich, 2020)
    Unfortunately, as many Americans got addicted to the 
powerful pharmaceutical opioids, the Mexican TCO's took 
advantage of this greater business opportunity with a larger 
customer base throughout America. The Mexican TCO's first 
started to distribute very high-quality White heroin to areas 
of America with significant opioid addiction issues. Building 
on their opportunities to make huge amounts of money, the 
Mexican TCO's then engaged with companies in China to acquire 
very pure fentanyl and pre-cursor chemicals to make fentanyl in 
large scale operations in Mexico. The Mexican TCO's realized 
the tremendous demand in America and started to produce 
counterfeit oxycontin pills like ``Mexi 30 blue pills'' 
containing fentanyl. At first, the cartels would buy kilogram 
quantities of fentanyl for around $3-5000 which would yield 
profits up to $1.5-2 million per kilogram. As a result of this 
``Perfect Storm'' of addiction and the Mexican TCO's, America 
now has a very complex crisis with multiple facets to deal 
with.
    Another important factor with the Mexican TCO's impacting 
America's national security is the level of violence they 
engage in daily. Murders in Mexico edged up to a new record 
high in the first half of 2020. Mexico has seen increased gang 
violence for many years, with successive governments failing to 
tackle the problem. According to the latest data available, 
more than 34,600 murders were registered last year, a record. 
(Reuters, 2020)
    The murder rates in Mexico are very misleading due to the 
number of disappearances every year.
    There are disappearances at record numbers in Mexico as the 
ruthless cartels employ criminals like the ``Stew Maker.'' 
(Ley, 2017). Based on the unprecedented violence, deaths to 
Americans and criminal activities, a sound case can be made to 
designate the Mexican cartels as foreign terrorist 
organizations pursuant to the U.S Department of State criteria. 
The Mexican cartels have left a trail of blood using 
intimidation and terrorist acts of ruthless violence. The 
cartels engage in beheadings, car bombings, dissolving humans 
in acid, mass murders, torture, bombings and political 
assassinations. Their actions are consistent with the behaviors 
of traditional terrorists and they have infiltrated the highest 
levels of the Mexican government with bribes and corruption. 
Despite these trends, people refer to the Mexican cartels as 
only transnational organized criminals even though they operate 
like terrorists and wreak havoc all over their country, United 
States and Canada.
    The cartels routinely conduct beheadings, in which corpses 
and heads are hung on public display. They are known for 
kidnapping, torturing and dismembering their targets. They 
conduct killings of innocent people and cartel rivals for 
satanic sacrifices. Innocent women and children are not 
impervious to cartel violence, as they kill have killed 
indiscriminately to scare the general population into 
submission and subservience.
    Similar to terrorists' organizations like ISIL and Al 
Qaeda, Mexican drug cartels also utilize social media sites to 
install fear into the general public by posting videos, and 
photographs of individuals being decapitated and tortured. 
(Hastings, 2013) They have also routinely killed politicians 
who oppose cartel violence or who publicly announced their 
dissent.
    The United States Government currently mistakenly views the 
Mexican drug cartels as only TCO organizations and its current 
strategy and policies are insufficient to end the Mexican drug 
cartels chaos and deaths to Americans. Look at the massive 
amounts of overdoses and addiction to cocaine, methamphetamines 
and heroin by our citizens. The production is on the rise and 
the supply of these poisonous drugs are vast. The United States 
must accept and come to the realization that the cartels are 
terrorist organizations. The government leaders must also 
understand the culture and mindset of the cartels.
    The Mexican drug cartel ideology is influenced by their 
culture and religious beliefs which provide moral justification 
for their actions. Some Mexican drug cartels have utilized 
techniques which focus on mind manipulation and behavioral 
modification commonly utilized by organizations such as Al-
Qaeda. As an example, The La Familia Cartel's indoctrination 
process is described as a 6-8-week program which incorporates 
texts and videos to assist with brainwashing, periodic vows of 
silence and days without talking to enhance spiritual 
concentration, solidarity and loyalty to the Cartels 
leadership.
    Another aspect of indoctrination utilized by the Mexican 
drug cartels, consist of enlisting young recruits into training 
camps where they are under the guidance and tutelage of hit men 
or ``Sicario's.'' Child soldiers are desensitized through 
vigorous training in which recruits are taught and ordered to 
kill and dismember their victim, while conduct kidnappings, 
assassinations and carry out car bombings. The operatives are 
taught how to utilize and operate both basic and advanced 
weapon systems and devices such as assault weapons, pistols and 
at times even explosives. Upon the completion of training, 
recruits are sent on domestic and international missions to 
establish cells of Sicario's where they are subsequently called 
upon to carry out acts of violence on behalf of the cartels. 
(Most, 2015)
    The Mexican cartels are not typical crime groups as they 
conduct acts of terrorism not solely in furtherance of drug 
trafficking but for the purpose of instilling fear in the 
public and influencing the policy of government. They are 
responsible for utilizing terror tactics to silence, torture 
and kill civilians, government officials and advocacy groups 
such as Catholic priests, who publicly speak out against the 
violence inflicted by the Mexican drug cartels. The Mexican 
cartels have become Mexico's insurgency's and have utilized 
terror tactics. They have corrupted and radicalized religion to 
undermine the Mexican government and the Rule of law. The 
Mexican drug cartels have recruited hundreds of trained law 
enforcement and military personnel who now carry out executions 
and assassinations on behalf of the cartels. Paramilitary 
organizations such as the Los Zetas Cartel, who were previously 
trained by the U.S. military and have become one the most 
feared and violent terrorist organizations society has ever 
seen.
    The cartels are fearless and operate with a sense of 
impunity. For example, in May 2015, the Jalisco Nuevo 
Generacion cartel (CJNG), blocked more than 30 roads with 
smoldering tankers, set ATMs and banks on fire then proceeded 
to shoot down a military helicopter with a rocket propelled 
grenade (RPG); killing several Mexican military soldiers. 
(Cordoba, 2015)
    In 2011, Immigration and Customs Enforcement (ICE) Special 
Agent's Jaime Zapata and Victor Avila were traveling in a 
bullet proof vehicle containing Diplomatic license plates on 
Highway 57 in San Luis Potosi, MX, when a group of armed men 
from the Los Zetas Cartel forced their vehicle to the side of 
the road. After identifying themselves as U.S. Diplomats and 
refusing to exit the vehicle, the group of armed men forcibly 
opened the vehicle door and opened fire into the vehicle 
killing SA Zapata and wounding SA Avila. (Hsu, 2017)
    The Mexican drug cartels have proven that they will kill 
discriminately and indiscriminately in order to expand and 
their influence throughout the country. In May of 2011, 
representatives from the Department of Homeland Security (DHS) 
and the Department of Justice (DOJ) declined a proposal by 
several U.S. Congressmen including U.S. Rep Michael McCaul, to 
classify several Mexican drug cartels as terrorist 
organizations. (McCaul Seeks to Classify Mexican Drug Cartels 
as Terrorists, 2011)
    They stated the mechanisms and laws already in place in the 
U.S. to deal with drug trafficking are enough and the proposed 
terrorist classification wouldn't be unnecessary. The U.S. and 
Mexico efforts and strategy against the Mexican drug cartels 
have been proven to be ineffective in its ability to curtail 
and significantly reduce the level of drug trafficking and 
violence inflicted by the cartels. Look at the statistics 
alone. The purpose of reclassifying Mexican drug cartels as 
terrorist organizations is to not only address the problem of 
drug trafficking, but to ultimately confront the level violence 
and terror carried out by the cartels.
    A designation would also provide the U.S. government with 
additional options when combating the Mexican TCO's that would 
not be limited to the capabilities of law enforcement. Instead, 
it would help bridge the gap between the law enforcement, 
military and intelligence community, thus providing more 
resources and capabilities to combat the Mexican drug cartels. 
The cartels utilize and have been found to be in possession of 
weapons such as assault rifles, pistols, grenades, RPG rocket 
launchers, claymore anti-personnel mines and man portable air 
defense systems (MANPADS). (Bunker, 2016)
    The Mexican cartels have taken control of Mexico through 
active means of terrorism. They have consistently killed Mexico 
mayors who have opposed the illegal activities and violence 
inflicted by the cartels. They have corrupted thousands of 
government officials, police officers and military personal 
through financial means or through intimidation by means of 
death to them and their loved ones. They have also posed a 
threat to Mexico's oil infrastructure. Siphoning incidents on 
pipeline networks have become the norm and drug cartels have 
continuously threatened to kidnap and extort employees involved 
in oil operations. (Woody, 2018)
    During ``Project Cassandra'', SOD's focused attack on major 
drug cartels and Hezbollah's role in a very large-scale terror 
finance operation. Hezbollah was identified as a top threat by 
the DOJ led inter-agency group pursuant to the President's TCO 
strategy. SOD's Counter Narco Terrorism Operations Center 
(CNTOC), initiated a project with multiple agencies to 
investigate the connectivity between Hezbollah and the drug 
cartels.
    As the Director of SOD for several years, I witnessed 
unprecedented results as the CNTOC Task Force and exposed 
elements of the terrorist group Hezbollah, who were being 
funded by worldwide cocaine sales. During 2008, the U.S. 
cooperative investigation with Colombia culminated with over 
130 arrests, to include many of the senior-level operatives, 
and $23 million was seized. (ROTELL, 2008) This case identified 
the scope and the alliance between South American drug 
traffickers to money laundering operations in Hong Kong, 
Central America, Mexico, Africa and Canada, and a connection to 
several Lebanese criminals associated with a global organized 
crime network.
    Based on the substantial information developed during this 
phase of Cassandra and very alarming and emerging trends 
exposed, CNTOC with representatives from numerous agencies, 
spearheaded a focused investigation with the field offices on 
the Middle Eastern money launderers working with the drug 
traffickers who were shipping multi-ton quantities of cocaine 
into West Africa for distribution around the world. During this 
initiative, DEA identified the leader of this sophisticated 
network who coordinated multi-ton shipments of cocaine from 
Colombia to Los Zeta's Mexican drug cartel and was laundering 
hundreds of millions of dollars in drug proceeds back to 
Colombia. The main operative also established a very 
sophisticated network in West Africa to move currency via 
couriers back to Lebanon.
    In February 2011, The Department of Treasury with DEA 
announced the identification of the Lebanese Canadian Bank 
(LCB) as a financial institution of primary money-laundering 
concern under section 311 of the USA Patriot Act. This was the 
first time ever the 311 Action was used in a drug case. The 
organized crime network was moving large shipments of drugs 
from South America, Central America and Mexico to Europe and 
the Middle East via West Africa and laundering hundreds of 
millions of dollars to accounts held at LCB as well as through 
trade base money-laundering involving consumer goods throughout 
the world, including used car dealerships in the U.S. LCB was 
helping Hezbollah through the Joumaa network. (U.S. Treasury, 
2011)
    Subsequently in December 2011, there was a complaint filed 
in the Southern District of New York exposing this Lebanese 
money-laundering scheme which investigators documented over 
$300 million into United States for the purchase and shipment 
of used cars to West Africa. The complaint alleged that the 
assets of LCB, Hassan Ayash Exchange and Elissa Holding, along 
with the assets of approximately 30 U.S. car buyers and a U.S. 
shipping company and related entities that facilitate the 
scheme, are forfeitable as the proceeds of violations of the 
International Emergency Economic Powers Act (IEEPA).
    Through this investigation, the task force of agencies 
exposed the LCB as money-laundering for Hezbollah through a 
very aggressive financial attack against the network. The 
federal complaint was seeking penalties totaling $483 million. 
During the December 2011, the Eastern District of Virginia 
announced the indictment of Ayman Joumaa for coordinating the 
shipment of tens of thousands of kilograms of cocaine from 
Colombia to Los Zetas Drug Cartel for distribution into the 
United States over an eight-year period. Joumaa was also 
charged with laundering millions of dollars in drug proceeds 
for the organization. It was estimated that the terror scheme 
was moving $200 million per month. Joumaa's organization was 
further exposed through the OFAC sanction. (U.S. Charges 
Alleged Lebanese Drug Kingpin with Laundering Drug Proceeds for 
Mexican and Colombian Drug Cartels, 2011)
    In August 2012, the Southern District of New York (SDNY) 
filed a 981K action against five corresponding banks in the 
United States that were doing business with Banque Labano 
Francais. This Lebanese bank received $150 million from the 
Lebanese Canadian bank after they were exposed with their 
international money-laundering business. As a result of this 
very successful 981K action, the United States settled a civil 
forfeiture action against the Lebanese Canadian bank and the 
settlement required LCB to forfeit $102 million to the United 
States. This was an unprecedented action targeting Hezbollah 
and their worldwide illicit activities. The settlement also 
identified to the world that international money-launderers for 
terrorists and narco-traffickers will face serious consequences 
even when the activity is outside the U.S. (Justice, 2012) 
(York, 2013). (Manhattan U.S. Attorney Announces $102 Million 
Settlement of Civil Forfeiture and Money Laundering Claims 
Against Lebanese Canadian Bank, 2013)
    The DEA continues to investigate the dangerous nexus 
between terrorist groups and the Mexican TCO's. Project 
Cassandra has resulted in numerous other U.S. government high 
level arrests, seizures, extraditions, prosecutions and U.S. 
Treasury actions.

                           Conclusion

    Mexican TCO's currently operate throughout the U.S. and are 
the primary cause for the heroin/fentanyl/opioid and 
methamphetamine crisis we are combating today. The country is 
inundated with crime, drugs and violence fueled by the Mexican 
TCO's. The TCO's are taking advantage of the massive addiction 
and the demand for opioids and methamphetamines all over the 
United States.
    Terrorists will continue to tap into the incredible amounts 
of money generated from drug trafficking and many other 
criminal activities such as human trafficking, counterfeiting, 
weapons sales and sex trafficking so it's imperative that our 
hard-working law enforcement and other U.S. government 
personnel get the resources and support to enforce the laws and 
keep Americans safe. We need the leadership of the Attorney 
General, the Secretary of the Department of Homeland Security 
(DHS), Executives from the Department of Defense (DOD) and the 
Intelligence Community (IC) to unite and battle these growing 
adversaries. We also need to work closely with our State and 
local counterparts who are under resourced trying to deal with 
this crisis on the front lines. We must also stop the unfair 
treatment of law enforcement professionals around America. The 
vast majority of law enforcement personnel wake up in the 
morning and go to work with the goal to protect all citizens. 
They respond to ``911'' calls and proactively investigate 
TCO's, gangs and criminal networks trying to keep the public 
safe from these growing threats. There is going to be ``bad 
apples'' in all professions, but it's unfair to paint any 
profession with a ``broad brush'' based on the actions of a 
few. We need to unite our agencies and thank them for their 
dedicated service as the complexity of the threats continues to 
grow.
    The threats to this great country are moving at lightning 
speed and we need a sense of urgency at this point. Chinese 
organized crime and the Mexican TCO's have formed a bond that's 
growing daily. In DEA testimony of DEA's Chief of Operations, 
it's clear that fentanyl has emerged as a tremendous threat to 
America with the influence of the Chinese and cartels. (DEA, 
2019)
    Under U.S. federal law, fentanyl is a Schedule II 
controlled substance, which is lawfully produced and 
distributed in the United States by manufacturers of 
prescription drugs approved by the Food and Drug Administration 
(FDA) and is widely used in medicine. It is an extremely potent 
analgesic, used for anesthesia and for pain control in people 
with serious pain problems; in such pain control cases, it is 
generally indicated only for use in people who have a high 
opioid tolerance. Illicit fentanyl, fentanyl-related 
substances, and their immediate precursors are often produced 
in China. From China, these substances are shipped primarily 
through express consignment carriers or international mail 
directly to the United States, or, alternatively, to TCOs in 
Mexico, Canada, and the Caribbean. Once in the Western 
Hemisphere, fentanyl and fentanyl- related substances are 
prepared for mixing into the heroin supply, other non-opioid 
drugs, or pressed into a tablet form, and then moved into the 
illicit U.S. market, where demand for prescription opioids and 
heroin remain at epidemic proportions. In some instances, drug 
trafficking organizations have industrial pill presses shipped 
directly into the United States from China, which allows them 
to press fentanyl pills domestically. Mexican TCOs have seized 
upon this business opportunity because of the profit potential 
of synthetic opioids and have invested in growing their share 
of this market. Because of its low dosage range and potency, 
one kilogram of fentanyl purchased in China for $3,000-$5,000 
can generate upwards of $1.5 million in revenue on the illicit 
market. Such is the potency of fentanyl, that consumption of as 
little as 2 milligrams of fentanyl can result in a fatal 
overdose, meaning that a kilogram of fentanyl has the potential 
of causing lethal overdoses of 500,000 people.'' (Unprecedented 
Migration at the U.S. Southern Border: 2019)
    It's evident that the TCO groups like the Mexican cartels 
are moving extremely fast while our investigators and assets 
are getting ``stuck in the mud'' of politics, bureaucracy and 
antiquated laws. In my view, fentanyl is a chemical weapon and 
the narco-terrorist Mexican TCO's are destroying our country. 
We need to step up the game with a sense of urgency. Law 
enforcement will continue to do their best in enforcing the 
laws, but America needs congress to further engage on these 
growing issues. The death rates are spiking and impacting 
republicans, democrats and independents. We must come together 
and develop updated strategies to combat these threats.
    Thank you for the opportunity to speak on these important 
topics impacting our national security and public safety.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           References

(2018, May 15). Retrieved from Department of Justice, Office of Public 
    Affairs: https://www.justice.gov/opa/pr/attorney-general-sessions-
    announces-new-measures-fight-transnational-organized-crime.
Bunker, R. (2016, April 20). Small Wars Journel. Retrieved from Small 
    Wars Foundation: https://smallwarsjournal.com/index.php/jrnl/art/
    mexican-cartel-tactical-note-28-redeye-manpads-seized-from-la-
    linea-in-nuevo-casas-grandes-.
CBS 60 Minutes. (2018, Nov 14). Retrieved from Who is ``El Chapo''? A 
    look back at 60 Minutes reports: https://www.cbsnews.com/news/who-
    is-el-chapo-a-look-back-at-60-minutes-reports/.
Cordoba, J.d. (2015, May 4). Mexican Army Helicopter Was Shot Down With 
    Rocket-Propelled Grenades. Retrieved from WSJ: https://www.wsj.com/
    articles/mexican-army-helicopter-was-shot-down-with-rocket-
    propelled-grenades-1430783784.
DEA. (2019, April 9). Statement of Greg Cherundolo. Retrieved from 
    dea.gov: https://www.dea.gov/sites/default/files/2019-04/
    DEA%20Testimony%20-1%20 Mexican%20Cartels%20-%20HSGAC%20-
    %20April%202019_CLEAR.pdf.
Department of Justice. (2021, Jan 24). MS-13's Highest-Ranking Leaders 
    Charged with Terrorism Offenses in the United States. Retrieved 
    from doj.gov: https://www.justice.gov/opa/pr/ms-13-s-highest-
    ranking-leaders-charged-terrorism-offenses-united-states.
Department of Justice. (October , Oct 15). Attorney General Sessions 
    Announces New Measures to Fight Transnational Organized Crime. 
    Retrieved from DOJ.gov: https://www.justice.gov/opa/pr/attorney-
    general-sessions-announces-new-measures-fight-transnational-
    organized-crime.
Department of Justice, Office of Public Affairs (2018, May 15): https:/
    /www.justice.gov/opa/pr/attorney-general-sessions-announces-new-
    measures-fight-transnational-organized-crime.
Drug Enforcement Administration. (2007, July 24). Mexican Fugitive and 
    Co-Conspirator Arrested on U.S. Drug, Money Laundering Charges. 
    Retrieved from dea.gov: https://www.dea.gov/press-releases/2007/07/
    24/mexican-fugitive-and-co-conspirator-arrested-us-drug-money-
    laundering.
Drug Enforcement Administration. (2020, October 14). dea.gov. Retrieved 
    from DEA Acting Administrator Timothy J. Shea and local law 
    enforcement officials announce the largest domestic seizure of 
    methamphetamine in DEA history: https://www.dea.gov/press-releases/
    2020/10/14/dea-acting-administrator-timothy-j-shea-and-local-law-
    enforcement.
Drug Enforcement Administration. (2021, March 2). DEA Releases 2020 
    National Drug Assessment. Retrieved from dea.gov: https://
    www.dea.gov/press-releases/2021/03/02/dea-releases-2020-national-
    drug-threat-assessment.
Foreign Terrorist Organizations. (n.d.). Retrieved from U.S. Department 
    of State: https://www.state.gov/foreign-terrorist-organizations/.
Hastings, D. (2013, Dec 16). Mexican cartels use social media to post 
    gruesome victim photos. Retrieved from Daily News: https://
    www.nydailynews.com/news/world/mexican-drug-cartel-thugs-post-
    atrocities-social-media-article-1.1515860.
Holm, A. (2020, Oct 14). County Drug Overdose Deaths Up 73% In First 
    Half Of 2020. Retrieved from wcbe.org: https://www.wcbe.org/post/
    county-drug-overdose-deaths-73-first-half-2020.
Hsu, S. (2017, July 25). ``We are shot! We are shot!'' An ICE agent's 
    final moments resound in U.S. court. Retrieved from Washington 
    Post: https://www .washingtonpost.com/local/public-safety/we-are-
    shot-we-are-shot-ice-agents-final-moments-resound-in-us-court/2017/
    07/24/5e24f5ca-672b-11e7-a1d7-9a32c91c6f40 
    _story.html?utm_term=.efb1194f5f72.
Jimenez, J. (2021, January 28). DEA's Dallas Office Announces Seizure 
    of $45 Million in Meth, Heroin--its Largest Bust Ever. Retrieved 
    from nbcdfw.com: https://www.nbcdfw.com/news/local/deas-dallas-
    office-announces-seizure-of-45-million-in-meth-heroin-its-largest-
    bust-ever/2536594/.
Ley, L.S. (2017, Dec 7). One Man Dissolved Dozens of Bodies and Dumped 
    Them in This Mass Grave in Mexico. Retrieved from Vice: https://
    www.vice.com/en_ us/article/ne35zg/one-man-dissolved-dozens-of-
    bodies-and-dumped-them-in-this-mass-grave-in-mexico.
McCaul Seeks to Classify Mexican Drug Cartels as Terrorists. (2011, May 
    30). Retrieved from Congressman McCaul: May of 2011, 
    representatives from the Department of Homeland Security (DHS) and 
    the Department of Justice (DOJ) declined a proposal by several U.S. 
    Congressmen including U.S. Rep Michael McCaul, to classify several 
    Mexican drug cartels as terrorist organization.
Meixler, E. (2019, Jan 22). Time. Retrieved from Cartel-Ravaged Mexico 
    Sets a New Record for Murders: http://time.com/5509216/mexico-
    murder-rate-sets-record-2018/.
Most, I.G. (2015, Oct 26). Sicarios: The Story Behind the Cartel 
    Killers. Retrieved from Time: http://time.com/4084337/sicarios-the-
    story-behind-the-cartel-killers/.
Network, C.H. (2020, December 17). Increase in Fatal Drug Overdoses 
    Across the United States Driven by Synthetic Opioids Before and 
    During the COVID-19 Pandemic. Retrieved from CDC.gov: https://
    emergency.cdc.gov/han/2020/han00438 .asp.
Reuters. (2020, July 20). Mexican murders hit new high in first half of 
    2020. Retrieved from reuters.com: https://www.reuters.com/article/
    us-mexico-violence/mexican-murders-hit-new-high-in-first-half-of-
    2020-idUSKCN24L1XL.
Steven Rich, S.H. (2020, Jan 14). More than 100 billion pain pills 
    saturated the Nation over nine years. Retrieved from 
    washingtonpost.com: https://www .washingtonpost.com/investigations/
    more-than-100-billion-pain-pills-saturated-the-nation-over-nine-
    years/2020/01/14/fde320ba-db13-11e9-a688-303693fb4b0b _story.html.
U.S. Customs and Border Protection. (2020, Dec 31). CBP Enforcement 
    Statistics Fiscal Year 2020. Retrieved from cbp.gov: https://
    www.cbp.gov/newsroom/stats/cbp-enforcement-statistics-fy2020.
U.S. Customs and Border Protection. (2020, Oct 11). cbp.gov. Retrieved 
    from Second Largest Border Meth Bust in History: https://
    www.cbp.gov/newsroom/local-media-release/second-largest-border-
    meth-bust-history.
U.S. Customs and Border Protection. (2021, March 09). Southwest Land 
    Border Encounters. Retrieved from cbp.gov: https://www.cbp.gov/
    newsroom/stats/southwest-land-border-encounters.
Unprecedented Migration at the U.S. Southern Border. (2019, April 9). 
    Retrieved from DOJ-DEA: https://www.dea.gov/sites/default/files/
    2019-04/DEA%20 Testimony%20-%20Mexican%20Cartels%20-%20HSGAC%20-
    %20April %202019_CLEAR.pdf.
U.S. Treasury. (2011, Feb 10). Retrieved from Treasury Identifies 
    Lebanese Canadian Bank Sal as a ``Primary Money Laundering 
    Concern'': https://www.treasury .gov/press-center/press-releases/
    pages/tg1057.aspx.
Woody, C. (2018, Feb 1). Mexican drug cartels are preying on a 
    multibillion-dollar industry and taking a deadly toll on the 
    workers who run it. Retrieved from Business Insider: https://
    www.businessinsider.com/mexico-drug-cartels-preying-on-oil-
    industry-workers-2018-2.

    Ms. Jackson Lee. The gentleman's time has expired.
    I now recognize, and thank you for your testimony, Ms. 
Austin-Hillery, recognized for five minutes.

             TESTIMONY OF NICOLE M. AUSTIN-HILLERY

    Ms. Austin-Hillery. Ms. Jackson Lee.
    Madam Chairwoman, are you able to hear me?
    Ms. Jackson Lee. Yes, I can. Thank you.
    Ms. Austin-Hillery. Thank you so much, Madam Chair Jackson 
Lee. I appreciate the opportunity that you, Chair Nadler, and 
Ranking Member Biggs have provided to me this morning to talk 
with you about this very important issue.
    In 2016, Human Rights Watch and the American Civil 
Liberties Union issued a joint report entitled, ``Every 25 
Seconds: The Human Toll of Criminalizing Drug Use in the United 
States.''
    Our research found that at the time, every 25 seconds in 
the United States someone is arrested for the simple Act of 
possessing drugs for their personal use. The numbers have only 
worsened in recent years.
    We are way overdue for identifying and implementing more 
sound, effective, and rights-respecting policies to address 
this problem. To do so, we have to have honest, direct, and 
fact-based discussions on exactly what the cost of these 
policies has been and equally honest discussion about what real 
reform looks like.
    First, we need to discuss racial disparities. Communities 
of color and low-income people are disproportionately impacted 
by drug arrests and the unintended consequences of those 
arrests.
    The criminalization of drug possession has served as an 
excuse over the last several decades for authorities to 
significantly increase the presence of police in these 
communities and enforce laws on simple drug possession in 
racially discriminatory ways.
    Second, it is imperative that we look at the collateral 
consequences resulting from our current drug policies. A drug 
conviction keeps many people from getting a job, renting a 
home, and accessing benefits and other programs they may need 
to support themselves and their families.
    Federal law allows states to knock people out of welfare 
assistance and public housing for years, and sometimes even for 
life, based on a drug conviction.
    People convicted of a simple drug possession may no longer 
qualify for educational student loans. They may lose their 
driver's license. They may be banned from juries and may face 
deportation if they are not U.S. citizens, and in many 
instances, some will lose the precious right to vote.
    These limitations amount to nothing more than labelling 
these individuals as second-class citizens. Laws criminalizing 
the possession of drugs for personal use are inconsistent with 
the respect for human autonomy and has yielded few, if any, 
benefits.
    Criminalization, simply put, is not an effective public 
safety policy. It is counterproductive to public health 
strategies and often people recycle in and out of jails or 
prisons with little to no access to voluntary treatment.
    Several countries, like Portugal, are experimenting with 
models of decriminalization. Several states in the U.S. are 
examining the same, with Oregon being the most prominent, 
having recently passed a ballot measure banning arrest for low-
level drug possession.
    The work of nations like Portugal and states like Oregon 
can serve as a template for what is possible in the United 
States.
    Now, let me be clear in saying this. Ending the 
criminalization of simple drug possession does not mean turning 
a blind eye to the misery that substance use disorder can cause 
in the lives of individuals and their families.
    On the contrary, it requires a more direct focus on 
effective measures to reduce the harms associated with 
problematic drug use. Congress has this opportunity today. 
Criminal law does not achieve these important ends but, rather, 
causes additional harm and loss. The war on drugs was a flawed 
program and it simply didn't work. Federal implementation of 
mandatory minimums along with harsh sentencing guidelines has 
severely lengthened sentences and contributed to an over 500 
percent increase in the current prison population since 1980.
    Congress now has the means and the tools at its disposal to 
ensure that criminal laws permit judges to impose proportionate 
sentences, ensure a class-wide ban on fentanyl-related 
substances, pass the Justice Safety Valve Act of 2019, pass the 
Mandatory Minimum Reform Act of 2020.
    Avoid delay in passing legislation making sentencing 
reforms from the First Steps Act of 2018 retroactive. Pass the 
Second Look Act and the MORE Act.
    Congress can make transformative changes to drug policies, 
finally providing equitable, compassionate, sound solution to 
addressing these numerous concerns. That is what real reform 
looks like.
    Thank you.
    [The statement of Ms. Austin-Hillery follows:]

             STATEMENT OF NICOLE M. AUSTIN-HILLERY

    On behalf of Human Rights Watch, I wish to thank Chair 
Nadler, Subcommittee Chair, Sheila Jackson Lee, Ranking Chair, 
Andy Biggs, Subcommittee Vice-Chair, Cori Bush and all Members 
of the U.S. House Committee on the Judiciary's Subcommittee on 
Crime, Terrorism and Homeland Security, for the opportunity and 
privilege to submit this statement for its hearing to address 
Controlled Substances: Federal Policies and Enforcement. My 
name is Nicole Austin-Hillery and I am the Executive Director 
of the U.S. Program at Human Rights Watch. Human Rights Watch 
is an international organization with staff in more than 40 
countries which works to defend the rights of people worldwide. 
We investigate abuses, expose the facts related to those abuses 
and pressure those with power to respect rights and secure 
justice.
    I have worked as both a civil and human rights attorney and 
advocate on criminal justice issues for over a decade, 
including the interconnected issues of reform, drug policy and 
racial justice as they relate to the criminal justice system. I 
have served in leadership roles in national organizations where 
I oversaw work focused on how to improve our justice system to 
provide fair and racially equitable policies regarding drug 
enforcement and treatment. I am honored to have this 
opportunity to address the Committee regarding ways to 
effectively, and fairly, approach drug policy in the United 
States.

          Reforming and Creating Sensible Drug Policy

    In 2016, Human Rights Watch and the American Civil 
Liberties Union (ACLU) issued a joint report entitled ``Every 
25 Seconds: The Human Toll of Criminalizing Drug Use in the 
United States.'' Our research found that, at the time, every 25 
seconds in the United States, someone is arrested for the 
simple Act of possessing drugs for their personal use.\1\ The 
numbers have only worsened in recent years.\2\ Then and now, 
police in the United States make far more arrests for simple 
drug possession than for any other crime.\3\ More than one of 
every seven arrests by State law enforcement is for simple drug 
possession.\4\ \5\ Each day, tens of thousands more are 
convicted for that possession, cycle through jails and prisons, 
and spend extended periods on probation and parole, often 
burdened with crippling debt from court-imposed fees and 
fines.\6\ Drug possession arrests remain significant 
contributors to mass incarceration in the United States.
---------------------------------------------------------------------------
    \1\ Human Rights Watch and the American Civil Liberties Union, 
Every 25 Seconds: The Human Toll of Criminalizing Drug Use in the 
United States (New York: Human Rights Watch, 2016), https://
www.hrw.org/report/2016/10/12/every-25-seconds/human-toll-
criminalizing-drug-use-united-states 2016, p. 2.
    \2\ In 2019, there were 1.35 million arrests for drug possession in 
the U.S., up from 1.25 million in 2015, the number upon which Human 
Rights Watch relied in its Every 25 Seconds report. See U.S. Department 
of Justice, Criminal Justice Information Services Division, Federal 
Bureau of Investigation, 2019, Table 29 https://ucr.fbi.gov/crime-in-
the-u.s/2019/crime-in-the-u.s.-2019/topic-pages/persons-arrested and 
``Persons Arrested'' data showing that 86.7 percent of arrests for 
``drug abuse violations'' in 2019 were for possession https://
ucr.fbi.gov/crime-in-the-u.s/2019/crime-in-the-u.s.-2019/topic-pages/
persons-arrested (accessed March 9, 2021); see also Human Rights Watch, 
Every 25 Seconds, p. 37.
    \3\ United States Department of Justice, Federal Bureau of 
Investigation, ``Crime in the United States, 2019,'' September 28, 
2020, https://www.fbi.gov/news/pressrel/press-releases/fbi-
releases-2019-crime-statistics (accessed March 8, 2021).
    \4\ United States Department of Justice, Federal Bureau of 
Investigation, ``Crime in the United States, 2019,'' September 28, 
2020, https://www.fbi.gov/news/pressrel/press-releases/fbi-
releases-2019-crime-statistics (accessed March 8, 2021).
    \5\ Human Rights Watch, Every 25 Seconds, p. 2.
    \6\ Human Rights Watch, Every 25 Seconds, p. 2.
---------------------------------------------------------------------------
    The cost of these arrests and incarcerations, however, 
extend far beyond individual experiences in the formal criminal 
justice system. The cost to the incarcerated individuals, their 
families, and communities, is devastating.\7\ A criminal record 
locks these individuals out of jobs, housing, education, 
welfare assistance, voting and much more. It also subjects them 
to discrimination and stigma.\8\ What these numbers tell us is 
that there is a human cost to criminalizing personal drug use 
and possession in the United States.\9\ Criminalizing simple 
drug possession has caused dramatic and unnecessary harms 
around the country, both for individuals and for communities 
that are subject to discriminatory enforcement.\10\ There are 
injustices and corresponding harms at every stage of the 
criminal process, harms that are all the more apparent when, as 
often happens, police, prosecutors, or judges respond to drug 
use as aggressively as the law allows.\11\
---------------------------------------------------------------------------
    \7\ Ibid., p. 2.
    \8\ Ibid., p. 2.
    \9\ Ibid., p. 2.
    \10\ Ibid., p. 2.
    \11\ Ibid., p. 2.
---------------------------------------------------------------------------
    Families, friends, and neighbors understandably want 
government to take actions to prevent the potential harms of 
substance use disorder.\12\ Yet, the model that has been used 
for far too long in the U.S. does little to help people whose 
drug use has become problematic.\13\ Voluntary treatment for 
those who need and want it is often unavailable, and 
criminalization tends to drive people who use drugs 
underground, making it less likely they will access care and 
more likely they will engage in unsafe practices that make them 
vulnerable to disease and overdose.\14\ Indeed, the last decade 
has seen a dramatic rise in overdose deaths, hitting over 
81,000--the highest number ever recorded by the Centers for 
Disease Control and Prevention--in the year that ended in 2020, 
despite widespread criminalization of simple drug 
possession.\15\
---------------------------------------------------------------------------
    \12\ Ibid., p. 2.
    \13\ Ibid., p. 3.
    \14\ Ibid., p .3.
    \15\ United States Centers for Disease Control and Prevention, 
``Overdose Deaths Accelerating During COVID-19'': ``Expanded Prevention 
Efforts Needed,'' CDC press release, December 17, 2020, https://
www.cdc.gov/media/releases/2020/p1218-overdose-deaths-covid-19.html 
(accessed March 9, 2021).
---------------------------------------------------------------------------
    Governments and communities have a legitimate interest in 
preventing problematic substance use.\16\ The criminal legal 
system is not the solution to this problem and has led to 
dramatically harmful consequences. The criminalization of drug 
possession for personal use is also inherently problematic 
because it represents a restriction on individual rights that 
is neither necessary nor proportionate to the goals it seeks to 
accomplish.\17\ It punishes an activity that does not directly 
harm others.\18\
---------------------------------------------------------------------------
    \16\ Human Rights Watch, Every 25 Seconds, p. 3.
    \17\ Ibid., p. 3.
    \18\ Ibid., p. 3.
---------------------------------------------------------------------------
    More broadly, the ``war on drugs'' has contributed 
significantly to the problem of mass incarceration in the 
United States. In addition to the vast numbers of people 
arrested for simple drug possession, many other people end up 
behind bars and serving extremely harsh sentences, often for 
low-level drug sales, crimes generally committed to support 
drug use or to alleviate poverty. Nearly one in five people in 
State prisons and jails are there for drug offenses.\19\
---------------------------------------------------------------------------
    \19\ The American criminal justice system holds almost 2.3 million 
people in 1,833 State prisons, 110 federal prisons, 1,772 juvenile 
correctional facilities, 3,134 local jails, 218 immigration detention 
facilities, and 80 Indian Country jails as well as in military prisons, 
civil commitment centers, State psychiatric hospitals, and prisons in 
U.S. territories.'' Prison Policy Initiative, ``Mass Incarceration: The 
Whole Pie 2020,'' March 24, 2020, https://www.prisonpolicy.org/reports/
pie2020.html (accessed March 9, 2021), p. 1.
---------------------------------------------------------------------------
    After decades of ``tough on crime'' policies, there is 
growing recognition in the U.S. that governments need to 
undertake meaningful criminal justice reform and that the ``war 
on drugs'' has failed.\20\ There has been a national effort to 
take on parts of the problem--addressing police abuse, long 
sentences, and reclassification of certain drugs.\21\ Each of 
these steps is critical and I will address some of them further 
herein. However, these steps are simply not enough--it is time 
to have a real, honest and critical discussion about the 
criminalization of drug use and what steps must be taken to 
rethink reform.\22\ What is needed, particularly in this 
historic moment where we have come face to face with issues of 
racial and economic disparities, is a comprehensive approach to 
ending the failed policies of the war on drugs and addressing 
the economic, social, and health needs of communities, 
disproportionately impacted by them, largely Black and brown.
---------------------------------------------------------------------------
    \20\ Human Rights Watch, Every 25 Seconds, p. 4.
    \21\ Ibid., p. 4.
    \22\ Ibid., p. 4.
---------------------------------------------------------------------------

       Racial Disparities in Drug Arrests and Sentencing

    Communities of color and low-income people are 
disproportionately impacted by drug arrests and the unintended 
consequences of those arrests.\23\ The criminalization of drug 
possession has served as an excuse over the last several 
decades for authorities to significantly increase the presence 
of police in these communities and enforce laws on simple drug 
possession in racially discriminatory ways.\24\
---------------------------------------------------------------------------
    \23\ Human Rights Watch, Decades of Disparity: Drug Arrests and 
Race in the United States (New York: Human Rights Watch, 2009), https:/
/www.hrw.org/report/2009/03/02/decades-
disparity/drug-arrests-and-race-united-states, pp. 1-2.
    \24\ Human Rights Watch, Every 25 Seconds, p. 4.
---------------------------------------------------------------------------
    Data analyzed by Human Rights Watch shows that, over the 
course of their lives, White people are more likely than Black 
people to use illicit drugs in general, as well as marijuana, 
cocaine, heroin, methamphetamines, and prescription drugs (for 
non-medical purposes) specifically.\25\ Data has consistently 
shown that Black and White adults use illicit drugs and 
marijuana at similar rates.\26\ Yet, in the U.S., Black adults 
are three times as likely as White adults to be arrested for 
simple drug possession.\27\ Human Rights Watch also found stark 
racial disparities in arrest rates for drug possession even in 
the same State or city.\28\ In Manhattan, for example, we found 
that Black people were eleven times as likely as White people 
to be arrested for simple drug possession.\29\ The sheer 
magnitude of drug possession arrests means that they are a 
defining feature of the way certain communities experience and 
interact with police in the United States.\30\
---------------------------------------------------------------------------
    \25\ Ibid., p. 5.
    \26\ United States Centers for Disease Control and Prevention, 
National Center for Health Statistics, ``Use of selected substances in 
the past month among persons aged 12 years and over, by age, sex, and 
race and Hispanic origin: United States, selected years 2002-2018,'' 
https://www.cdc.gov/nchs/data/hus/2019/020-508.pdf (accessed March 8, 
2021).
    \27\ Drug Policy Alliance, ``2020 Annual Report,'' February 17, 
2021, https://drugpolicy.org/
resource/drug-policy-alliance-annual-report (accessed March 9, 2021), 
p. 11.
    \28\ Human Rights Watch, Every 25 Seconds, p. 5.
    \29\ Ibid., p. 47.
    \30\ Ibid., p. 5.
---------------------------------------------------------------------------
    More broadly, because Black communities have been the 
principal targets in the ``war on drugs,'' the burden of drug 
arrests and incarceration falls disproportionately on Black 
people, their families, and neighborhoods.\31\ It is actually 
more than just the burden of drug arrests. It is the burden of 
increased police presence and surveillance which equals not 
just more drug arrests but more arrests in total, in addition 
to the other non-quantifiable damage that comes from living 
under police scrutiny.
---------------------------------------------------------------------------
    \31\ Human Rights Watch, Decades of Disparity, p. 1.
---------------------------------------------------------------------------
    Racial disparities in drug arrests reflect a history of 
complex political, criminal justice, and socio-economic 
dynamics, each individually and cumulatively affected by racial 
concerns and tensions.\32\ A fresh and evidence-based 
rethinking of the drug war paradigm that includes moving away 
from criminalization of simple drug possession is needed.\33\ 
Any solutions should also include a focus on communities and 
the needs identified by community Members themselves and not 
simply those identified by politicians and outside 
stakeholders.
---------------------------------------------------------------------------
    \32\ Ibid., p. 1.
    \33\ Ibid., p. 1.
---------------------------------------------------------------------------

        The Collateral Consequences of Drug Convictions

    The impact of a drug conviction can, and often does, impact 
multiple facets of an individual's life beyond the experience 
of incarceration. In addition to excessive sentences, including 
lengthy probation terms, frequently with onerous 
conditions,\34\ there is massive criminal justice debt and 
restrictions that impact one's ability to function within their 
families and communities. The costs of these arrests and 
incarcerations extend far beyond individual experiences in the 
formal criminal justice system. The cost to those incarcerated, 
their families and communities, is devastating.\35\ 
Criminalizing simple drug possession has caused dramatic and 
unnecessary harms around the country, both for individuals and 
for communities that are subject to discriminatory 
enforcement.\36\
---------------------------------------------------------------------------
    \34\ Human Rights Watch, Revoked: How Probation and Parole Feed 
Mass Incarceration in the United States (New York: Human Rights Watch, 
2020), https://www.hrw.org/report/2020/07/31/revoked/how-probation-and-
parole-feed-mass-incarceration-united-states.
    \35\ Human Rights Watch, Every 25 Seconds, p. 2.
    \36\ Human Rights Watch, Every 25 Seconds, p. 2.
---------------------------------------------------------------------------
    A drug conviction also keeps many people from getting a 
job, renting a home, and accessing benefits and other programs 
they may need to support themselves and their families. Federal 
law allows states to lock people out of welfare assistance and 
public housing for years and sometimes even for life based on a 
drug conviction.\37\ People convicted of simple drug possession 
may no longer qualify for educational loans; they may be forced 
to rely on public transport because their driver's license is 
automatically suspended; they may be banned from juries and 
they may face deportation if they are not U.S. citizens, no 
matter how long they have lived in the U.S. or how many family 
Members live in the country.\38\ In addition, they bear the 
stigma associated with the labels of ``drug'' offender'' the 
State has stamped on them, subjecting them to private 
discrimination in their daily interactions with landlords, 
employers, and peers.\39\
---------------------------------------------------------------------------
    \37\ Ibid., p. 11.
    \38\ Ibid., p. 11.
    \39\ Ibid., p. 11-12.
---------------------------------------------------------------------------
    In 2021, the Nation experienced a national election with 
record-breaking numbers of voters engaged in the electoral 
process, yet ``5.2 million Americans were forbidden to vote 
because of felony disenfranchisement, or laws restricting 
voting rights for those convicted of felony-level crimes.'' 
\40\ Many of these individuals have a drug conviction that 
prevents them from enjoying full civic participation. These 
limitations amount to individuals taking on the moniker of 
``second class citizens.''
---------------------------------------------------------------------------
    \40\ The Sentencing Project, ``Locked Out 2020: Estimates of People 
Denied Voting Rights Due to a Felony Conviction,'' October 30, 2020, 
https://www.sentencingproject.org/publications/locked-out-2020-
estimates-of-people-denied-voting-rights-due-to-a-felony-conviction/ 
(accessed March 9, 2021), p. 1.
---------------------------------------------------------------------------

             Decriminalization as a Policy Solution

    Laws criminalizing the possession of drugs for personal use 
are inconsistent with respect for human autonomy, which is at 
the heart of the right to privacy, and contravene the human 
rights principle of proportionality in punishment.\41\ In 
practice, criminalizing drug use also violates the right to 
health of those who use drugs.\42\ The harms experienced by 
people who use drugs, and their families and broader 
communities, as a result of the enforcement of these laws, may 
constitute additional, separate human rights violations.\43\
---------------------------------------------------------------------------
    \41\ Human Rights Watch, Revoked, p. 12.
    \42\ Ibid., p. 12.
    \43\ Ibid., p. 12.
---------------------------------------------------------------------------
    At the time of the Human Rights Watch/ACLU report in 2016, 
all U.S. states and the Federal Government criminalized 
possession of certain categories of drugs for personal use.\44\ 
Last year, Oregon took an important step, with a majority of 
voters approving a ballot initiative that shifts the State away 
from criminalization and toward a health-centered approach to 
drug use, investing in voluntary treatment, services, and 
support for people who are struggling with problematic drug 
use. Nonetheless, other states across the country criminalize 
drug possession and enforce those laws with high numbers of 
arrests--as of 2019, more than 86 percent of drug arrests were 
for simple possession.\45\
---------------------------------------------------------------------------
    \44\ Human Rights Watch, Every 25 Seconds, p. 4.
    \45\ Ibid., p. 12; Susan Stellin, ``Is the `War on Drugs' Over? 
Arrest Statistics Say No,'' New York Times, November 5, 2019, https://
www.nytimes.com/2019/11/05/upshot/is-the-war-on-drugs-over-arrest-
statistics-say-no.html (accessed March 9, 2021).
---------------------------------------------------------------------------
    Criminalization has yielded few, if any, benefits.\46\ 
Criminalizing drugs is not an effective public safety policy. 
Human Rights Watch is not aware of any empirical evidence that 
low-level drug possession defendants would otherwise go on to 
commit violent crimes.\47\
---------------------------------------------------------------------------
    \46\ Human Rights Watch, Revoked, p. 12.
    \47\ Ibid., p. 12.
---------------------------------------------------------------------------
    Criminalization is also a counterproductive public health 
strategy.\48\ Rates of drug use across drug types in the U.S. 
have not decreased over the past decades, despite widespread 
criminalization.\49\ For people who struggle with substance use 
disorder, criminalization often means cycling in and out of 
jail or prison, with little to no access to voluntary 
treatment.\50\ Criminalization undermines the right to health, 
as fear of law enforcement can drive people who use drugs 
underground, deterring them from accessing health services and 
emergency medicine and leading to illness and sometimes fatal 
overdose.\51\
---------------------------------------------------------------------------
    \48\ Ibid., p. 12.
    \49\ Human Rights Watch, Every 25 Seconds, p. 3.
    \50\ Ibid., p. 12.
    \51\ Ibid., p. 12.
---------------------------------------------------------------------------
    It is time to rethink the criminalization paradigm. 
Although the amount cannot be quantified, the enormous 
resources spent to identify, arrest, prosecute, sentence, 
incarcerate, and supervise people whose only offense has been 
possession of drugs is hardly money well spent, and it has 
caused far more harm than good.\52\ Fortunately, there are 
alternatives to criminalization.\53\ Other countries--and now 
some states in the U.S. (in particular, Oregon) are 
experimenting with models of decriminalization that the U.S. 
can examine to help chart a path forward.\54\ \55\
---------------------------------------------------------------------------
    \52\ Ibid., p. 12.
    \53\ Ibid., p. 13.
    \54\ Ibid., p. 13.
    \55\ Drug Policy Alliance, ``2020 Annual Report,'' February 17, 
2021, https://drugpolicy.org/
resource/drug-policy-alliance-annual-report (accessed March 9, 2021), 
pp. 10-13.
---------------------------------------------------------------------------
    Ending the criminalization of simple drug possession does 
not mean turning a blind eye to the misery that substance use 
disorder can cause in the lives of those who struggle with it 
and their families.\56\ On the contrary, it requires a more 
direct focus on effective measures to reduce the harms 
associated with problematic drug use, and providing voluntary 
access to treatment and support for those who struggle with 
it.\57\ Ultimately, the criminal law does not achieve these 
important ends, and causes additional harm and loss 
instead.\58\
---------------------------------------------------------------------------
    \56\ Human Rights Watch, Every 25 Seconds, p. 13.
    \57\ Human Rights Watch, Every 25 Seconds, p. 13.
    \58\ Ibid., p. 13.
---------------------------------------------------------------------------

                   Ending Excessive Sentences

    Almost 30 years of harsh sentencing laws have left the U.S. 
with over 2.2 million people behind bars.\59\ In the 1980s 
State and federal legislators began to adopt ``tough on crime'' 
laws in response to rising crime rates, racial tensions, the 
emergence of crack cocaine, supposed threats to ``traditional 
values'' from counterculture movements, and fears of perceived 
increases in the numbers of immigrant and youth offenders.\60\ 
These attitudes were a follow-up to the Nixon Administration's 
push to wage a war against Black people--a plan that was well-
known and documented.\61\ Specifically, for most of the past 
century,\62\ Congress and State legislatures simultaneously 
adopted harsher sentencing laws, including mandatory minimums 
and habitual offender statutes.\63\
---------------------------------------------------------------------------
    \59\ Human Rights Watch, Nation Behind Bars: A Human Rights 
Solution (New York: Human Rights Watch, 2014), https://www.hrw.org/
news/2014/05/06/us-nation-behind-bars#::text=
The%2036%2Dpage%20report%2C%20%E2%80%9C, 
highest%20report%20rate%20of%20incarcer ation, p. 3.
    \60\ Ibid., p. 5.
    \61\ Tom LoBianco, ``Report: Aide says Nixon's war on drugs 
targeted blacks, hippies,'' CNN, March 24, 2016, https://www.cnn.com/
2016/03/23/politics/john-ehrlichman-richard-nixon-drug-war-blacks-
hippie/index.html (accessed March 9, 2021).
    \62\ Drug Policy Alliance, ``Dismantling the Federal Drug War: A 
Comprehensive Drug Decriminalization Framework,'' July 29, 2020, 
https://drugpolicy.org/resource/dismantling-federal-drug-war-
comprehensive-drug-decriminalization-framework-drug-policy (accessed 
March 9, 2021), p. 1.
    \63\ Human Rights Watch, Nation Behind Bars, p. 1.
---------------------------------------------------------------------------
    The plan was flawed. The Nation should not have experienced 
a ``war on drugs''--drug use is a personal choice and the 
``war'' was started as a political tool with racist intentions. 
It was an abject failure of a policy that violated human rights 
at its onset.
    Specifically, at the federal level, the implementation of 
mandatory minimums, along with harsh sentencing guidelines, has 
severely lengthened federal prison sentences and contributed to 
an over 500 percent increase in the current prison population 
since 1980.\64\ While the First Step Act, signed into law by 
the previous Administration in 2018, took some steps to address 
the issue of over-incarceration, bolder and larger steps are 
needed.
---------------------------------------------------------------------------
    \64\ Human Rights Watch, Revoked, p. 132.
---------------------------------------------------------------------------
    Lawmakers should ensure that criminal laws permit judges to 
impose proportionate sentences, that consider individualized 
circumstances and allow appropriate leniency.\65\ Reforming or 
eliminating mandatory minimum sentences is a recommendation 
that has been on the table and supported by criminal justice 
reform advocates for years, but we have yet to achieve this 
goal. These sentences are ``criminal penalties that limit 
judicial discretion and require judges to impose a specified 
minimum term of imprisonment upon conviction.'' \66\ Nearly 
two-thirds of all federal drug sentences are subject to 
mandatory minimums.\67\ The prospective sentencing reforms 
incorporated in the First Step Act, including reduced 
sentencing enhancements for prior drug offenses, clarification 
that the 25-year mandatory minimum for certain firearm offenses 
is reserved for true recidivists, and expanded safety valve 
relief for certain nonviolent drug offenses, will help to limit 
excessive sentences in the future.
---------------------------------------------------------------------------
    \65\ Human Rights Watch, Nation Behind Bars, p. 8.
    \66\ The Justice Roundtable, ``Transformative Justice: 
Recommendations for the New Administration and 117th Congress,'' 
November 2020, https://justiceroundtable.org/wp-content/uploads/2020/
11/Transformative-Justice.pdf (accessed March 9, 2021), p. 44.
    \67\ Ibid., p. 44.
---------------------------------------------------------------------------
    Unfortunately, these changes are not retroactive, and it is 
estimated at least four thousand people in federal prison today 
serving sentences under now-reformed statutes will not benefit, 
including many people who will die in prison without 
retroactivity.\68\
---------------------------------------------------------------------------
    \68\ Ibid., p. 46.
---------------------------------------------------------------------------

                   Recommendations for Reform

    Congress has an opportunity to make transformative changes 
to drug policies that finally provide an equitable, 
compassionate, and sound solution to addressing the numerous 
concerns laid out in this testimony. This is a moment to 
recognize and address the harms that harsh, disparate policies 
that have focused more on punishment than supporting healthy 
individuals, families and communities have had on the people, 
particularly those who are Black and low-income.
    Congress should follow in Oregon's footsteps by 
prioritizing an effort to end the criminalization of possession 
of drugs for personal use, and shift resources from the 
policing of drug use toward access to evidence-based treatment 
and other voluntary supports for people who struggle with 
substance use disorder.
    Additional legislative proposals that can contribute to 
reducing the excessive punishment brought on by the ``war on 
drugs,'' which Congress should undertake and pass, include:

    <bullet>  The Justice Safety Valve Act of 2019 which would 
allow courts to impose a sentence below a mandatory minimum if 
the court finds that it is necessary to do so to impose a 
sentence that is not greater than necessary to comply with the 
statutory purpose of sentencing laid out in 18 U.S.C. 
3553(a).\69\
---------------------------------------------------------------------------
    \69\ Ibid., p. 44.
---------------------------------------------------------------------------
    <bullet>  The Mandatory Minimum Reform Act of 2020 would 
eliminate mandatory minimum sentences for drug offenses.\70\
---------------------------------------------------------------------------
    \70\ Ibid., p. 45.
---------------------------------------------------------------------------
    <bullet>  Include in any sentencing reform legislation 
provisions that ensure the new law will be applied 
retroactively to individuals who have already been 
sentenced.\71\
---------------------------------------------------------------------------
    \71\ Ibid., p. 46.
---------------------------------------------------------------------------
    <bullet>  Avoid delay in passing legislation making the 
sentencing reforms enacted in the First Step Act of 2018 
retroactive.\72\
---------------------------------------------------------------------------
    \72\ The Justice Roundtable, ``Transformative Justice,'' p. 45.
---------------------------------------------------------------------------
    <bullet>  The Second Look Act would allow any individual 
who has served at least 10 years in federal prison to petition 
a court to take a ``second look'' at their sentence before a 
judge and determine whether they are eligible for a sentence 
reduction or release.\73\
---------------------------------------------------------------------------
    \73\ Ibid., p. 45.
---------------------------------------------------------------------------
    <bullet>  The MORE Act removes marijuana from the 
Controlled Substances Act and begins to repair the harm 
marijuana prohibition has caused to millions of people, 
particularly people of color, by establishing a fund for social 
equity programs to reinvest in affected communities. It also 
creates a process by which people with federal marijuana 
convictions can have their records for these convictions 
expunged, in some cases automatically, or can be 
resentenced.\74\
---------------------------------------------------------------------------
    \74\ ``US: House Votes to End Marijuana Prohibition,'' Human Rights 
Watch News release, December 4, 2020, https://www.hrw.org/news/2020/12/
04/us-house-votes-end-marijuana-prohibition.

---------------------------------------------------------------------------
    Thank you for the opportunity to submit this testimony.

    Ms. Jackson Lee. Thank you so very much, Ms. Austin-
Hillery, for that testimony and, as well, thank you for the 
divergent but also seemingly consistent view of all of our 
witnesses.
    Certainly, we do not take lightly the dangers of drug use 
or the dangers of cartels or large organizations. We know that 
we can, in essence, walk and chew gum at the same time and try 
to deal head-on with this horrible rage of addiction and the 
plague of major cartels and criminal activities. We can do that 
in the right way. So, we thank you very much.
    The time is now for questions and we will now proceed under 
the five-minute Rule with questions. I'll begin by recognizing 
myself for five minutes.
    The answers of the witnesses are so very important, but we 
ask that they are succinct so that we can get as much on the 
record of your vital information as we possibly can.
    Quickly, decades of unequal enforcement of drug laws 
against Black and brown communities have resulted from--
resulted in long-term damage to families, economic opportunity, 
mental health, wellbeing, and overall quality of life.
    Certainly, Dr. Henderson, as you've indicated, it has 
impacted communities of color. We have been under served in 
healthcare and other aspects of treating that disease and 
addiction.
    Last Congress, Chair Nadler and I worked to pass the MORE 
Act. Isn't it true that we need this--these kinds of reforms to 
bring more economic opportunities to communities most adversely 
impacted by the war on drugs, and as well, the ending of 
mandatory minimums and a different construct? Can you answer 
that question, please, Dr. Henderson?
    Mr. Henderson. Yes, it is true that we need more policies 
in that direction because we understand that a significant 
majority of individuals who are caught in this trap are doing 
it because they don't have economic opportunity in many of 
their communities.
    Ms. Jackson Lee. At the federal level, what drug policy 
priorities do you recommend that are evidence-based and data-
driven?
    What can we do to reduce these historic racial disparities 
that come about and generate mass incarceration with 
individuals, even from being prosecuted in the '80s still 
incarcerated at this time?
    Dr. Henderson?
    Mr. Henderson. Well, we can start with decriminalizing 
marijuana. We understand the significant impact of that.
    We can start with also, the whole notion behind federal 
drug legislation in terms of the way we schedule these drugs. 
We understand the impact of the schedulization in many of these 
communities.
    More importantly, we need to reframe our thinking around 
the drug problem and remove the drug situation from the 
criminal justice system and directly place it into the public 
health arena.
    Ms. Jackson Lee. Thank you very much.
    Ms. Austin-Hillery, thank you for indicating that we do not 
have to ignore the vileness of drug use or drug sales. We can 
prosecute as well as save lives.
    So, my comment to you or question is, isn't it true that 
these penalties, mandatory minimums that are unjust and unfair, 
have a disparate outcome for Black and brown communities? 
Please tell me your views on mandatory minimum sentences and 
how they can be counterproductive.
    Ms. Austin-Hillery. Thank you very much, Madam Chairwoman.
    They are absolutely counterproductive because they have a 
disparate impact on not only Black and brown communities but on 
poor communities. To ensure that we have equity across the 
board, we have to look at all of the different factors that go 
into how we apply our laws.
    If there is not a direct outcome that relates to the crime 
committed but that, rather, puts a burden on certain 
communities over others based on nothing more than racial 
intent and racial animus, then we have to do away with those 
laws.
    Mandatory minimums have done just that. Mandatory minimums 
have ensured that we have more Black and brown people in jails 
despite the fact that, based on research, Black and brown 
people do not use drugs at a higher level than white.
    Ms. Jackson Lee. Thank you for that.
    Ms. Austin-Hillery. So, we have to make that change.
    Ms. Jackson Lee. Let me also ask you, last year, Congress 
passed a bill to temporarily extend the DEA's authority for 
scheduling fentanyl--related substances. We heard from a 
coalition of advocates opposed to the bill including Human 
Rights Watch.
    What's your view on this issue now?
    Ms. Austin-Hillery. As I said in my testimony, Madam 
Chairwoman, we absolutely have to make that change. The letter 
that we sent to Congress, which we are happy to submit for the 
record, spells it out very clearly.
    This is not only something that Human Rights Watch 
believes, but it is what so many of our coalition partners 
believe. We must put a ban when it comes to fentanyl, and we 
can't go forward with real reform if we don't do that.
    Ms. Jackson Lee. Thank you so very much.
    Dr. Neill Harris, welcome again.
    Thirty-six states, the District of Columbia, and others 
have adopted laws allowing legal access to cannabis. Fifteen 
states have adopted laws legalizing cannabis for adult 
recreational use.
    Nonetheless, marijuana continues to be a key driver of mass 
incarceration. Why do you think it's important to remove 
cannabis from Schedule I of the Controlled Substances? Why is 
this action so important?
    How can Congress support these data-driven effective 
programs like the Law Enforcement Assisted Diversion program 
and how do these programs successfully demonstrate an alternate 
pathway for treatment of individuals struggling with substance 
abuse?
    I've combined two questions--two aspects of the questions. 
The time is short, but I would appreciate if you'd be able to 
answer.
    Dr. Neill Harris?
    Ms. Harris. Yes, thank you, Madam Chairwoman.
    It's very important to decriminalize marijuana for a few 
reasons. One is that it will send a message to other states 
that this is an important act. I believe that some states are 
waiting to see federal action before they go to decriminalize 
themselves.
    Second, we know that even though legalization is spreading 
across the country, racial disparities in arrests continue. 
Black people remain over three times as likely to be arrested 
for marijuana possession nationally, even though we have seen 
this large move for reform.
    The MORE Act that has been brought up in this hearing is a 
perfect example of legislation that also targets the racial 
inequities that we have seen from the drug war by reinvesting 
in communities.
    Programs like Law Enforcement Assisted Diversion we see 
work because what they do is that they catch somebody before 
arrests, and they put them in contact with treatment and with 
social services that can help with that problem and they bypass 
the entire criminal justice system so that person does not 
become ensnared in that system.
    Ms. Jackson Lee. Thank you so very much. Appreciate your 
answer. I know my time has expired.
    I now recognize the Ranking Member for his questions for 
five minutes, Mr. Biggs.
    Mr. Biggs. Thank you, Madam Chair.
    Mr. Maltz, I'm sure you've seen recent news stories about 
the growing crisis at the southern border, and you touched on 
it in your opening statement.
    My question for you is what impact does this surge of 
illegal border crossers at the border have on DEA, CBP, and 
other federal agencies' ability to conduct enforcement 
operations to deter and interdict drug trafficking?
    Mr. Maltz. Well, right now we have a situation where CBP 
has gone from border security and protecting Americans to 
migrant care workers. That's unacceptable because we have 
families all over this country, and I do this every day--I get 
pictures from families of their children that are dying from 
fentanyl. They have record level seizures of fentanyl.
    As an example, in February so far this year, there's over 
4,000 pounds of fentanyl been seized. One kilogram of fentanyl 
kills 500,000 people.
    So, we have a crisis. We have radical open border policies 
that will not work when it comes to national security and 
public health, and we have to deal with this.
    One thing I will say was an observation I made today, that 
walls and fences must work because it took me an hour and 15 
minutes to walk from the garage to get here. So, walls should 
be put up on the border and we need to keep the migrants going 
through a legal process.
    Mr. Biggs. So one of the things, Mr. Maltz, that you talked 
about flooding the zone, and a lot of people don't understand 
what flooding the zone is in border crossing, and we're talking 
between ports of entry.
    Express to us what flooding the zone means and how it 
facilitates criminal cartels using now vacated areas to smuggle 
in dangerous drugs.
    Mr. Maltz. So flooding zone is, basically, a way that these 
business operations can make lots of money. They're charging 
the migrants thousands of dollars. If it's a special interest 
alien from certain parts of the world it may be $9,000.
    So, they're making money on the migrants coming up. They 
gather the migrants together. They watch where the Border 
Patrol is. They blitz the Border Patrol agents, so they're 
totally focused on the migrants, and then they send their drugs 
and the people, many times special interest aliens, through 
these open areas.
    Then on top of that, the cash and the guns come southbound. 
So, they take advantage of the vulnerability. That's what 
criminal networks do. They take advantage of weaknesses, and 
that's a weakness in our country at the border.
    Mr. Biggs. So federal agencies put out press releases 
several times a week touting drug seizures, like what you see 
behind me. This is from Phoenix and Yuma.
    Can you estimate what percentage of drugs people and other 
contraband crossing our border are interdicted by a federal 
agency?
    Mr. Maltz. Look, I'm no expert on border interdiction 
statistics, but I've heard for many, many years in the DEA, 10 
percent is seized, right.
    So, if you look at just an example, in January there were 
1,950 pounds of meth in Dallas, 2,500 pounds in El Paso in 
December, another 1,900 pounds was seized in Texas.
    In Los Angeles, they had record seizures of meth, 2,000 
pounds, another 3,000 in San Diego. Lots of meth, fentanyl, 
cocaine, and marijuana are getting in there.
    The thing that concerns me the most are the counterfeit 
pills that are disguised as what they call Mexi-oxy 30s. 
They're the blue pills that the kids are taking, and they have 
no idea it's poison. It's pure fentanyl in many cases.
    There's no quality control. They don't have chemists that 
sit there like FDA and regulate the amount of fentanyl. They're 
just trying to make as much money as they can, and it's killing 
Americans at record levels.
    Mr. Biggs. Mr. Maltz, as we get toward the end of your 
testimony or my opportunity to ask you questions, you talk to 
the parents of the victims of overdose and drug use on a 
regular basis, daily?
    Mr. Maltz. Right, and that's why I'm here, by the way. My 
passion is for the American people and public safety. I'm not 
here getting paid. I have no agenda.
    This is Joseph Dean from Connecticut, 23-year-old. The 
mother had to put up billboards in Connecticut to get the 
attention about how bad this crisis is, the murders with 
fentanyl.
    These are all the pictures I get from families every day on 
Facebook. I don't look at the race in the background of these 
people. I'll take any photo that they send to get the word out 
there. These kids are dead and they're not going to come back. 
They don't have a future, because it is poisonous chemical 
coming from labs in Mexico.
    Mr. Biggs. Madam Chair, I'd request without objection that 
his three visual aids be admitted into the record.
    Ms. Jackson Lee. Without objection, so ordered.
    [Mr. Maltz for the record]



      

                        MR. MALTZ FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Biggs. Thank you.
    With that, I thank you, Mr. Maltz.
    Thank you, Madam Chair, and I'll yield back.
    Mr. Maltz. Thank you.
    Ms. Jackson Lee. Thank you so very much. The gentleman 
yields back.
    The gentleman from New York is recognized, chairman of the 
committee, for five minutes.
    Chair Nadler. Thank you, Madam Chair.
    Dr. Austin-Hillery, I just want to clarify. The letter to 
us you quote--you cited concerning the class-wide ban on 
fentanyl analogs opposes the extension of DEA's order.
    Isn't that the position in the letter?
    Ms. Austin-Hillery. Yes, it is, Mr. Chair.
    Chair Nadler. Okay, thank you.
    Dr. Neill Harris, please tell us more about your views on 
the class-wide ban.
    Ms. Harris. Yes, thank you, Mr. Chair.
    I would like to briefly respond to the point about the 
border and the drugs that are coming across the border and just 
remind everyone that the reason that we have so many drugs 
coming into this country is a direct result of prohibitionist 
policies, and the fact that 90 percent of drugs remain unseized 
goes to show the ineffectiveness and the fact that people are 
still getting access to these drugs.
    Chair Nadler. Thank you.
    Ms. Harris. The problem with the class--
    Chair Nadler. Go ahead.
    Ms. Harris. With respect to the class-wide ban, I was just 
going to reiterate that the bans themselves, when you ban a 
certain substance people, chemists, traffickers, people 
selling, people using will find alternatives.
    That's how we got to the point where people--where fentanyl 
is so prevalent in the heroin supply, because heroin was 
prohibited. So, people found a different way to get something 
smaller and more lethal to supply the demand that exists in 
this country.
    We have to focus on reducing the demand. If we focus on the 
supply, we will continue to see more deadly alternatives come 
to this country and continue to contribute to the overdose 
epidemic.
    Chair Nadler. Thank you.
    In 2018, the New York Times reported that in New York City, 
Black people were arrested on lower-level marijuana charges at 
eight times the rate of White non-Latino people over the past 
three years.
    In Manhattan alone, Black people were arrested at 15 times 
the rate of White people. As you know, I am the author of the 
MORE Act, a bill that would eliminate marijuana from the list 
of federally--controlled substances.
    Could you describe, please, why this is the right policy 
and why it's necessary to help communities most adversely 
affected by the war on drugs?
    Ms. Harris. The MORE Act is essential because what we have 
seen so far with decriminalization and legalization throughout 
the country is that the racial inequities continue. Even in 
states that have legalized, you continue to see racial 
disparities in arrest rates.
    The MORE Act is essential because not only does it 
decriminalize, which sends a strong message to states, but it 
also lays a blueprint for how to redress the harms of the drug 
war through actions such as barring discrimination for public 
benefits and social assistance, and all of those important 
components. It bars discrimination against people who have been 
convicted of marijuana-related offenses.
    It also lays out a process for expungement for past 
convictions and it also provides opportunities for people of 
color to get involved in the marijuana industry. What we have 
seen in states that have legalized is that that industry is 
dominated by White men, and so the communities most hurt, most 
impacted by the war on drugs have been unable to benefit from 
legalization. The MORE Act is critical to enforcing that and to 
seeing that progress.
    Chair Nadler. Thank you.
    Ms. Austin-Hillery, reverse sting operations are a 
technique in which the DEA and other law enforcement agencies 
approach people and induce them to rob fictional drug stash 
houses.
    The use of reverse stings in the Southern District of New 
York reveals a troubling pattern across the country. The 
operations overwhelmingly target people of color and lead to 
mandatory minimum sentences or other significant penalties for 
fictional crimes that do not reduce the flow of drugs.
    In federal drug cases, how do law enforcement practices and 
policies violate basic principles of equal justice, and what 
reforms are needed to address the racial disparities in drug 
cases and investigations?
    Ms. Austin-Hillery. Mr. Chair, we need to make certain that 
what other mechanisms are used by law enforcement that they are 
not pretextual and that they serve the actual purpose for which 
they were intended.
    When we have law enforcement create mechanisms that simply 
put up falsehoods and that target certain communities, even 
when statistical data and the evidence before us doesn't show 
those communities are the predominant actors in creating the 
harm that they seek to end, then we have a problem.
    We at Human Rights Watch want to make sure that whatever 
policies and mechanisms are put in place are based on real data 
and real research and not based on any kind of political wants 
and desires and needs to increase numbers so that law 
enforcement can look like they're doing their job.
    Their job is to protect communities and keep them safe, and 
frankly, what we'd really like to see is more funding go to 
ensuring that people are healthy and safe and get the kind of 
support that they need to care for themselves and their 
families so that these issues will become less prominent and 
there will be a lesser need for law enforcement interaction.
    Chair Nadler. Thank you. My time has expired.
    Ms. Jackson Lee. The gentlelady's time has expired.
    The gentleman's time has expired. It is at this time that 
I'm going to call for a recess for Members to be able to vote.
    Witnesses, if you can turn off your mics at this time and 
we will call you to order after the vote on the floor of the 
House.
    Thank you so very much. The Committee now stands in recess.
    [Recess.]
    Ms. Jackson Lee. I now call back to order the Crime 
Subcommittee hearing, House Judiciary Committee, Controlled 
Substances, Federal Policies, and Enforcement hearing today on 
Thursday, March 11, 2021.
    As we left for a vote and let me thank the Members for 
their cooperation and hope everybody voted twice, legally, of 
course, for the two votes that remain.
    So it's my pleasure to now yield to the gentleman from 
Ohio, the distinguished gentleman from Ohio, Mr. Chabot, for 
five minutes.
    Mr. Chabot. Thank you very much, Madam Chair.
    Mr. Maltz, I want to begin by thanking you for your years 
of service at the DEA, the Drug Enforcement Administration, for 
everything that you and your men and women there did to protect 
the American public and save lives. So thank you very much for 
that.
    My first question, I believe it was posited by the other 
side a while back that, essentially, if we legalized or 
decriminalized drugs we'd probably have less of that coming in 
at our southern border.
    Yet, there are quite a few states now that have legalized 
marijuana and the amounts coming in at the southern border has 
continued to be on the rise.
    So, is that your understanding?
    Mr. Maltz. Yes, of course. It's not just coming in from the 
southern border. Chinese nationals are buying real estate all 
over America and they're making these unbelievable marijuana's 
grow houses in beautiful communities and they're selling very 
high pure THC marijuana to people all over America, right now 
as we sit here today.
    Mr. Chabot. Thank you very much.
    My next question, would you agree that drug trafficking 
goes hand-in-hand with human trafficking, that we have a real 
crisis at our southern border when we turn detention centers 
into reception centers now and when we, basically, say come on 
in?
    People are coming in. They're listening and they think they 
can stay. You mentioned it took you an hour and 15 minutes, I 
think it was, to get beyond the walls and barbed wire that we 
have around this facility now here in Congress.
    Yet, construction on the wall at our southern border has 
been stopped, ceased, terminated, at least during this 
Administration.
    Again, going back to my original question, does drug 
trafficking and human trafficking go hand-in-hand?
    Mr. Maltz. Yes. I mean, the Mexican cartels are 
transnational criminal organizations. They're in the business 
to make money. They're charging these poor migrants thousands 
of dollars to be escorted up to the border. They're using them.
    They're tagging them now. They're putting wristbands on 
them so they can keep track of the money owed so if they don't 
pay the money, their families or they die.
    So, you also had that incident in January where--it's a 
2,000-mile journey from Guatemala. There were 19 migrants 
murdered and burned to a crisp because they didn't pay their 
taxes to the cartels.
    So, it's a very, very dangerous situation. It is a huge 
humanitarian crisis and it's really, really sad.
    Mr. Chabot. Thank you very much.
    I read your statement before you came, and you only get 
five minutes so you don't have a chance to get all of that in 
there.
    So one of the things you mentioned in there that I thought 
was worth bringing up here is the sicarios, which a lot of 
people may not necessarily be familiar with the term, but 
essentially, drug thugs, hit men, muscle, that are training 
young impressionable drug dealers who get across our border, 
come here, and are setting up shop in cities across the 
country, and the propensity for violence that these people are 
equipped with and willing to do, could you discuss that?
    Mr. Maltz. Yeah. I mean, the Mexican cartels are hiring 
former military and police officers, and obviously, the 
corruption is through the roof in Mexico. So, they're paying 
these people a lot more than they would get paid in the police 
jobs or military.
    Then they get trained in professional facilities. They have 
indoor ranges. They have plenty of ammunition. They recruit 
kids, these young kids that just want to make some money, and 
they go out and start killing people.
    It's very dangerous because they don't just kill people 
with guns. They chop people up. They hang people's heads from 
bridges and fence posts. They sent heads in coolers with blood 
to people to intimidate. They tie notes over people. There was 
one famous case where they roll heads on the dance floor.
    Then they are way into the country and there is some 
violence in our country. It is spillover violence in the 
country, depending on how you define that word. Some people 
define the word as deliberate attacks against U.S. people. I 
don't see too much of that.
    I see cartel violence at levels we have never seen, I could 
talk all day about the stuff I witnessed when I was the head of 
the SOD operation.
    Mr. Chabot. Before I run out of time here, you had 
mentioned when you were testifying before that you're losing 
the tools in your toolbox. Could you tell us what you mean by 
that?
    Mr. Maltz. Oh, absolutely. One of the best techniques that 
law enforcement has is infiltrating communications pursuant to 
federal court orders. Very lengthy process. You don't just flip 
a switch and listen to somebody's phone.
    Unfortunately, because our laws are so outdated, the bad 
guys are using advanced encryption technology and we can't 
infiltrate the communications. We have communications going on 
every day of the week in advanced communications, encrypted 
apps, and if we have a court order, if we have the probable 
cause and the judge signs the order, we can't get the content.
    That's a problem, and that's a problem for every American. 
It's not a problem just for DEA. It's a problem for everyone in 
this room because child molesters, robbers, murderers, rapists, 
they're all using these apps. So, law enforcement can't track 
these criminals. They're predators in the community. So, it's a 
big problem, yes.
    Mr. Chabot. Thank you very much. My time has expired, Madam 
Chair.
    Ms. Jackson Lee. The gentleman's time has expired.
    Ms. Bass?
    [No response.]
    Ms. Jackson Lee. I recognize Ms. Demings for five minutes.
    Ms. Demings. Thank you so much, Madam Chair. I'd also like 
to thank all of our witnesses for your time and your testimony.
    It is extremely important that we have this discussion, 
this hearing, and also hear your expertise and perspective.
    I want to begin my comments with this. I've witnessed the 
devastating effects of drugs in communities, devastating 
effects on families, individuals, and those communities.
    I want to quote former Police Chief David Brown when he was 
with Dallas. He said this: ``Every societal failure we put on 
the cops or the criminal justice system to solve. Not enough 
mental health funding? Give it to the police. Not enough drug 
addiction treatment funding? Let the police handle it.''
    We say in Orange County, Florida, that the Orange County 
Jail is the biggest mental health treatment facility and the 
biggest drug treatment facility in the region. Some families 
actually feel like were it not for those institutions, and this 
is really sad, that their loved one would not get any help at 
all.
    Chief Brown went on to say, ``Schools fail? Call the 
police. Let them handle it.'' He said, ``This is too much to 
ask.''
    What I believe, based on my experience as a 27-year law 
enforcement officer is that the criminal justice system is left 
to solve problems that government has failed to address.
    I believe those quality of life issues--education, housing, 
poverty, economics, wages--are directly tied to our criminal 
justice system.
    Dr. Henderson, I'd like to begin with you. If you could 
please talk about what you believe is the nexus between the 
failures of our criminal justice system and those quality of 
life issues in communities that we care about--I care about all 
of them--like poverty.
    Mr. Henderson. Thank you so much for taking that position. 
I, myself, spent a number of years working as a probation 
officer and that's where I learned the ``do no harm'' approach.
    When you look at the war on drugs and you think about every 
25 seconds someone being arrested for drug possession, when you 
think about the families that are directly impacted, we know 
all the stats. We know that.
    What we don't really think a lot about are the residual 
impacts of this reality in these communities that have 
decimated many Americans.
    Since 1971, the war on drugs has been estimated to cost 
this country over a trillion dollars. When you now look at the 
current opioid epidemic and the approach that we're taking in 
that space, when you think about the impact of interventions, 
when you think about how many jurisdictions are now reducing 
fatalities because they are made naloxone available across many 
of these communities in trying to reduce and respond to opioid 
overdoses, in states like New York when you look at syringe 
access programs, when you think about the over 60 international 
cities that now operate supervised injection facilities, when 
you think about the number of American cities that are working 
to implement approaches that are going to focus on harm 
reduction, when you think about the number of drug courts that 
we now have in this country to move us in the right direction, 
I think that we understand the harm, and now it's about time 
for us to begin to reverse that so that we can reacclimate and 
rebuild these families that have been torn apart over the last 
50 years.
    Ms. Demings. Dr. Henderson, could you or any witness 
comment on some of the alternative programs to incarceration 
like the LEAD program? If you could just comment. You mentioned 
drug courts, but if you could comment on the effectiveness of 
some of those other programs.
    Mr. Henderson. Yes, I will. I'll do that. I think the LEAD 
program, it allows officers to divert individuals to treatment 
and social services, which is where they should be because we 
know now addiction is a disease, particularly when you're 
talking about low-level drug arrests.
    The model that was pioneered in Seattle, it's yielded 
significantly positive results. Individuals who have been 
diverted to these programs are found to be almost 60 percent 
less likely to be rearrested when you compare them to 
individuals who went through traditional criminal justice 
programming.
    So, we know that works. The challenge that we have is 
getting people to begin to adopt the alternative philosophy to 
social controls.
    Ms. Demings. Thank you so much, Madam Chair. I yield back.
    Ms. Jackson Lee. The gentlelady's time has expired.
    I recognize the gentleman from Texas, Mr. Gohmert, for five 
minutes.
    Mr. Gohmert. Thank you, Madam Chair.
    Mr. Maltz, you were talking about the horrendous corruption 
in Mexico. I know you were with the DEA for a long time. Have 
you ever travelled to Mexico?
    Mr. Maltz. Yes, sir.
    Mr. Gohmert. They've got hard-working people there, right?
    Mr. Maltz. Absolutely.
    Mr. Gohmert. Of course, I think it's wonderful when the 
majority of the people have a faith in God, which is what I 
find in Hispanics and Central Americans, and also they have a 
love of family.
    It seems that the number-one problem that's keeping Mexico, 
Central America, from being some of the most vibrant economies 
in the world, one thing and you touched on it, the massive 
amount of corruption.
    Are you aware of corruption from any source in Mexico 
besides the drug cartels?
    Mr. Maltz. I mean, I'm aware of the massive corruption up 
to the top in the Mexican government. The DEA actually recently 
had a major success with the arrest of the former Defense 
Secretary, Cienfuegos. They indicted him in the Eastern 
District of New York, and he was running the country's army. 
Okay. Also, Genaro Garcia--
    Mr. Gohmert. Literally running the country--Mexico's army?
    Mr. Maltz. He was running the army but working with the 
cartels, and Genaro Garcia Luna was running their public 
safety. He was arrested and is in jail in America.
    So, the corruption is off the charts in with the cartels. 
If you paid attention to the ``Chapo'' Guzman trial in New 
York, there were allegations of the bribes they were making, 
even to the former President of Mexico. Okay.
    So, yeah, it's off the charts and they get all the money 
from America, and the money doesn't go to the people. It goes 
to the corrupt politicians.
    Mr. Gohmert. Yeah. Well, and you mentioned about people, 
and I've spent lots of nights on the border--days, but also all 
night many times, and I've been there as they go through the 
Border Patrol and they have their checklist.
    A lot of times they'll add questions like, how much did you 
pay, and the money all ends up going to the cartels. They 
sometimes pay coyotes or gang Members to get them across. Most 
of the time, they'll say, $5,000, $6,000, $7,000, or $8,000. 
When the Border Patrolman says, you don't have that kind of 
money, well, I'm going to be able to pay it when I get where 
I'm going.
    I've seen them, people standing in line waiting to be asked 
their in-processing questions, and they're passing addresses. 
Oh, I like yours better, and they're switching addresses. They 
apparently are given addresses where they're supposed to go to 
sell drugs or be involved in sex trafficking, whatever, and 
they're given the location of the city and place they're 
supposed to go.
    You've seen that, I'm sure.
    Mr. Maltz. Right, and that's what I was talking about 
before. The most recent is the wristbands. They're giving them 
wristbands, and they're finding wristbands, which is actually 
tracking them as commodities, and if they don't pay their 
families are in danger and they're in danger when they come 
back one day or if they're even in the U.S. they're in danger.
    Mr. Gohmert. Well, I have read estimates like $80 billion 
just on drug trafficking that the cartels bring in now that 
they've been in human trafficking for a while. It's amazing. 
What a business model. Your employees pay you to be indentured 
servants for the future.
    What would happen if we completely secured--not closed but 
secured our southern border? What would happen to the cartels 
in Mexico?
    Mr. Maltz. Well, the cartels are very innovative. They 
would figure out ways to get their supply to the unbelievable 
demand we have in America. It would cause a lot of stress for 
them at the border. They would start using different methods, 
tunnels, and they'd use container ships.
    Mr. Gohmert. Yeah, but we have got technology now, if we 
would use it--not just the microphones underground, like the 
old days in West Berlin, but we have some really good methods 
of detecting tunnels.
    Mr. Maltz. Absolutely.
    Mr. Gohmert. There's technology that we have now we didn't 
used to have. Wouldn't you surely agree that if we completely 
secured the border, including a very strong program just to 
find out tunnels, it would minimize the amount of money that's 
pouring into the drug cartels and severely limit the corruption 
there?
    Mr. Maltz. Absolutely. They need the people here to run 
their operations in almost every city in America. This is not 
just the big cities, New York and Chicago and Los Angeles. This 
is cities all throughout America.
    So, they need the people. So, the people here, they have 
trusted confidants to work as leaders of their cartel in our 
different cities. So, the people are so important, and that's 
what they're doing. They're taking advantage of the wide-open 
void.
    Ms. Jackson Lee. The gentleman's time has expired.
    Mr. Gohmert. Thank you for allowing me the extra 27 
seconds. I know it wasn't 56 like yours but thank you.
    Ms. Jackson Lee. Thank you so very much to the gentleman 
from Texas for his comments.
    Let the record reflect that the bulk of those who are 
crossing the border over the years and decades have not come 
for drug activities, but have come out of desperation in 
fleeing persecution that they are experiencing.
    Mr. Gohmert. I would object to that.
    Ms. Jackson Lee. I thank the gentleman for his testimony.
    Let me now yield 5 minutes to the gentlelady from Georgia, 
Ms. McBath.
    Ms. McBath. Thank you, Madam Chair.
    Thank you to our witnesses today. Thank you so much for 
coming before us to discuss how we can really keep our 
communities safe.
    I also want to thank the many researchers at the Centers 
for Disease Control and Prevention, and that is, in and also 
near my district. Their research is very critical to making 
sure that we are making informed public health decisions.
    Unfortunately, as we have mentioned, the CDC research shows 
that the opioid deaths have accelerated under the COVID-19 
pandemic, which really compounds the tragedies that we are 
facing now. I know that we have got to do more to save lives 
from drug addiction and overdoses, using the tools of public 
health and improvements to our justice system. So, I am pleased 
that we are having this discussion today because it is vitally 
critical.
    Ms. Austin-Hillery, in your testimony you mentioned the 
impact of the increased incarceration of people for drug-
related offenses on their family Members. What family resources 
should be made available right now? Are there any friendly 
family-oriented resources that need to be used for more 
support?
    Ms. Austin-Hillery. Thank you, Congresswoman, for that 
question. The answer is a resounding yes. At Human Rights 
Watch, our research takes us into communities where people are 
directly impacted. We don't just sit behind our desks and pull 
up research on the computer or go to a library. We go to 
communities and talk to the people about what they want.
    What we find from those communities is this: The families 
say they want resources, not to figure out how to continue 
tangling with law enforcement. They want resources that help 
them get better educational opportunities, better and cleaner 
housing, clean water, more infrastructure, and more jobs.
    So, if we can focus on resources, on providing those kinds 
of supports to families, that will have a trickle-down effect 
and will ensure that we will have less entanglements and less 
interactions between communities and law enforcement that are 
negative. This is what the people are telling us they want, and 
we need to hear them and heed to their desires and to their 
needs, and not use our own erudite, and sometimes very, what I 
want to say, thinking that doesn't hit the point and that 
doesn't meet their needs. We need to be talking to them and 
giving them the services that they tell us on a daily basis 
that they need. That is how we can support those families.
    Ms. McBath. Thank you very much. We should always be 
listening to our constituents.
    So, Dr. Neill Harris, your testimony mentioned several 
programs that you think can help improve how law enforcement 
interacts with those who have substance abuse programs, 
programs like the Law Enforcement Assisted Diversion, or LEAD, 
as you call it. LEAD is the pre-arrest program, am I correct? I 
believe that there are also other kinds of programs within the 
justice system as well, such as the Veterans Treatment Courts 
that focus on getting veterans the treatment that they need and 
finding better ways to rebuild accountability. So, do you think 
that Veterans Treatment Courts can have some of the same 
effects as programs as LEAD do, and I guess help to reduce 
inappropriate incarcerations?
    Ms. Neill Harris. Thank you for that question.
    I would say that I do think that there is potential for 
treatment courts such as veterans' courts and diversion courts 
to help people and connect them with different services. I 
would still suggest and recommend, however, that our primary 
diversions occur pre-arrest, because once someone gets involved 
with the court process, then that means that they are still 
entangled with the legal system in different ways. For people 
who have resources already, it is easier to comply with the 
requirements of those specialty courts. For those who do not 
have those resources, it is harder.
    So, I absolutely think that we need to be connecting people 
with services, whether it is veterans, other people with mental 
illness, people with substance use disorders. I would strongly 
urge that we do that prior to the arrest. The LEAD program is a 
good example of that because law enforcement can, essentially, 
hand off people to social workers and behavioral counselors who 
can, then, connect people with the services that they need.
    Ms. McBath. Thank you.
    Ms. Austin-Hillery, do you think that programs like these 
might help our justice system produce more equitable and just 
outcomes?
    Ms. Austin-Hillery. Absolutely. That really is the goal. 
One of the problems that we are facing as we talk about these 
drug problems is that there is a lack of equity, that we have 
disparate impact that seems at times to be immovable. We have 
to ensure that we have equity, justice, and fairness. These 
kinds of programs, as well as many others that we would be 
happy at Human Rights Watch to talk to you about beyond this 
hearing, are ones that we should be focusing our time and 
attention and resources on.
    Ms. McBath. Thank you. I think I am just about out of time.
    Ms. Jackson Lee. Thank you. Thank you.
    We now want to recognize the gentleman from Florida, Mr. 
Steube, for 5 minutes.
    Mr. Steube. Thank you, Madam Chair.
    Walls work; fences work. If walls and fences and razor wire 
didn't work, then why did Speaker Pelosi erect fencing, razor 
wire, deploy National Guard troops around the Capitol? Yet, 
President Biden is doing the complete opposite on the border, 
and it is literally killing Americans--literally.
    I have the honor of representing Florida in the 17th 
District of Florida. Florida alone had 5,268 overdoses just in 
2019. Thirty-five people died of an overdose in Florida every 
single day in 2019. Opioid deaths more than tripled in Florida 
between 2000 and 2016, according to a State government report, 
and central Florida drug overdose deaths were up as much 70 
percent during the COVID-19 pandemic.
    The amount of fentanyl that has been seized on the border 
in just the first five months of 2021 is 4,552 pounds of 
fentanyl, which will kill hundreds of thousands of Americans. 
All last year in 2020 at the southwest border, 4,544 pounds of 
fentanyl were seized. So, in the first five months of this year 
we have seized more fentanyl at the border than the entire year 
last year in 2020. It is continuing and continuing to kill 
Americans and to kill Floridians.
    Now I don't understand--the first witness talked about 
racism and White supremacy, and fentanyl doesn't know what 
color you are. In fact, just in Florida, there is 13th times 
more whites that have died than African Americans in the State 
of Florida. I personally don't think that it matters what color 
you are. We should be strong and hard on people who are killing 
Americans and dealing in dangerous drugs on our streets. 
Regardless of the color they are, they should go to prison, and 
like reforms that we have made in Florida, if you are dealing 
in opioids and fentanyl, and people die as a result of you 
dealing, you should go to prison for life. Those are a lot of 
changes that we made in Florida when I was in the State 
legislature.
    Mr. Maltz, with those facts and numbers in mind, what are 
some immediate actions that the federal law enforcement can 
take to address this problem at the Mexican border?
    Mr. Maltz. Well, first, you have to secure the border. You 
can't allow these people coming in that are carrying these 
dangerous Fentanyl pills that are killing kids immediately.
    I agree with your point 100 percent. The charts that I have 
with these family Members here, it is red, white, and blue. It 
is not red against blue. It has nothing to do with race or 
color. It has to do with just these Mexican terrorist criminal 
organizations that want to make billions of dollars.
    There is a reason Chapo Guzman was on Forbes' Most Richest 
People in the World. They make a lot of money. They take 
advantage. They destroy families. They destroy communities.
    So, we could definitely shut the border. We also have to 
get together with the different professionals, the mental 
health professionals, addiction specialists. We must have 
accountability on these programs. We can't just throw money at 
the programs and then say it is going to go away. It will only 
go away with strong leaders, and we have to hold people 
accountable.
    So that is something we could do. We have to get full 
cooperation between all of our agencies. We must have the focus 
on the people that are dying, not getting a job when you leave 
government or getting a job in private industry. It has to be 
about saving lives.
    Mr. Steube. In your written testimony, you went into detail 
about the barbaric tactics used by the Mexican drug cartels--
beheadings and torture displayed on social media, 
indoctrination camps to desensitize new recruits, including 
child soldiers, taking over huge areas of land while destroying 
roads and buildings with impunity, creating their own pseudo-
religious teachings to brainwash Members. You even compared 
them to al-Qaeda.
    From a law enforcement perspective, how important is it 
that these individuals are not allowed to cross from Mexico 
into the United States?
    Mr. Maltz. First, I was one of the advocates of declaring 
the Mexican cartels as terrorists because they are terrorists 
the way they are killing, the way they are destroying families. 
They are taking advantage of society.
    In regards to the cartel's violence, what about the Stew 
Maker, dropping people in acid. So that the murder statistics 
in Mexico is very misleading. There are so many people that 
have disappeared because they drop them in acid.
    The violence is off the charts, and these people are narco-
terrorists. That is what they are, and they need to be dealt 
with accordingly.
    Mr. Steube. The current Biden policies at the border doing 
a good job of making sure that U.S. or that Mexican drug lords 
don't get across the border?
    Mr. Maltz. Absolutely not. I mean, when you tell the world 
that coming to America everything is free, meanwhile our 
schools are closed and families are destroyed because 
businesses have been closed, it is not fair to the hardworking 
American people.
    I have to say, this is a message to the world. That is why 
they are lining up in record numbers. It is common sense. You 
don't have to be an expert.
    Ms. Jackson Lee. The gentleman's time is expired.
    Mr. Steube. Thanks for being here today.
    Mr. Maltz. Thank you.
    Ms. Jackson Lee. Let me take this moment to introduce an 
article in the record, ``Fact-checking Trump officials: Most 
drugs enter U.S. through legal ports of entry, not vast open 
border.'' In particular, according to U.S. Customs and Border 
Protection, statistics show 90 percent of heroin seized along 
the border, 88 percent of cocaine, and 87 percent of 
methamphetamine, and 80 percent of Fentanyl, in the first 11 
months of 2018 fiscal year was caught trying to be smuggled in 
at legal crossing points.
    I ask unanimous consent to place that in the record, and I 
respond to myself. So, ordered.
    [The information follows:]



      

                     MS. JACKSON LEE FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Jackson Lee. Let me now call upon Ms. Dean of 
Pennsylvania for 5 minutes.
    Ms. Dean. Thank you, Madam Chair, and thank you for 
convening this Subcommittee hearing on these important issues. 
What I am taking away is maybe there is one thing that 
everybody across the dais here can agree on, and that is that 
addiction is a disease. It is a deadly disease.
    With that in mind, I want to just start first with Ms. 
Austin-Hillery. Analysis by your group, the Human Rights Watch, 
as well as by many others, has shown that despite equal rates 
of drug abuse, black, brown, and poor Americans, as you point 
out, are more likely than White Americans to get arrested.
    I have to admit to you I know a little something about 
this. My middle son is 8 years 4 months in long-term recovery 
from opioid addiction. Yet while he was in active addition, he 
is White and he was quite young, and I think his driver's 
license revealed that he was of at least middle class means.
    My son never was arrested. He has no criminal record. So, 
while addiction didn't spare him, White privilege and 
socioeconomic status spared him from the cruelties and the 
injustices of our criminal justice system.
    Can you provide us with more detail into what the Human 
Rights Watch has learned about racial and economic disparities 
in the War on Drugs?
    Ms. Austin-Hillery. Thank you for that question, 
Congresswoman. I will give you an example to help underscore 
the point I would like to make. We have spent several years in 
Tulsa, Oklahoma. While we were in Tulsa, we were there to do 
research around policing in communities and to learn more about 
how police and communities relate. What brought us there was 
the death of Terence Crutcher, an African American man, at the 
hands of a White police officer.
    We learned so much more, and what we learned from those 
community Members is this. They experienced specific targeting 
by police. We did not only talk to community Members, we talked 
to individuals, all stakeholders, with respect to an issue. We 
talked to the police officers. We talked to the police chief.
    What we understood was that Members of the Black community 
there felt that they were being specifically targeted in ways 
that their White counterparts in wealthier parts of the town 
were not being targeted. That is what we mean when we talk 
about systemic racism.
    That is why Mr. Henderson, in his testimony earlier, talked 
about White supremacy and racism. We have to start telling the 
truth, and that is that racism underlines many of the policy 
decisions that we put forth. We have to learn and understand 
how we take that out of policymaking and focus on the end goal, 
which is protecting people and communities.
    Until we do that, Congresswoman, we will continue to see 
these kinds of disparities. We will continue to see these harms 
from systemic racism, and we will continue to see this kind of 
targeting. That is why the experience your son had is far 
different than so many of the people we represent and the 
people that we talked to in Tulsa communities.
    Ms. Dean. We are so keenly aware of it. We know that had he 
been caught up in the criminal justice system, he would be far 
behind in his career. He would be far behind in and may have 
lost his right to vote and other precious things.
    If I could go quickly to Dr. Neill Harris. With the 
American Rescue Plan, Congress just passed the most significant 
child poverty reduction policy in a generation. I am excited to 
have been a part of it. Your testimony mentions that the latest 
research shows children with parents caught up in the criminal 
justice and carceral cycle are at greater risk of negative 
outcomes in adolescents in child and adulthood. Can you speak 
to that a little more?
    Ms. Neill Harris. Yes. Thank you for that question. When 
children have parents who come into the criminal justice system 
and become incarcerated, that disrupts their home life. It 
creates uncertainty for them, and it disrupts every routine 
that they might have that might be able to provide stability 
for them. It can interfere with their schooling. It can 
interfere with their mental health. It can interfere with their 
physical health. It literally impacts every aspect of their 
life.
    If they have to go into the foster care system, then they 
have to deal with that system and the disruptions that it 
causes. I know here in Texas, we have a lot of problems with 
our foster care system that negatively impact a child's life as 
well.
    So, it is literally setting them up at the most precious 
part of their lives when their brains are still developing with 
all of these additional stressful factors to deal with that 
impede their development. Later down the line, then, it becomes 
more difficult for them to excel with education and employment 
opportunities, which creates a cycle where they can encounter 
issues with mental health.
    Ms. Jackson Lee. The gentlelady's time is expired.
    Ms. Dean. Thank you very much. I yield back. Thank you, 
Madam Chair.
    Ms. Jackson Lee. Thank you very much.
    Let me now call on the gentleman from Wisconsin for 5 
minutes, Mr. Tiffany.
    Mr. Tiffany. Thank you, Madam Chair.
    Mr. Maltz, thank you for being here, and thank you for 
serving our country for so many years and still today. I think 
the humanitarian crisis that is going on at the border is well 
documented here in this hearing, and the flooding of our 
streets with drugs, the imported violence as a result of the 
Mexican drug cartels.
    As we watched the Biden-created crisis at our southern 
border, the number of drugs that will be flooding through our 
borders is alarming. As you know, the drugs don't cross over by 
themselves.
    The effects aren't only limited to our southwestern border 
states but are as far-reaching as my home State of Wisconsin. 
It costs Wisconsin's taxpayers over $10 billion a year to fund 
health care, emergency care, and other resources for the 
victims of this crisis.
    The highest overdose rates are in economically distressed 
areas that have experienced high rates of unemployment. These 
areas seem to have a steady supply of Fentanyl and heroin, like 
coming from our southern border. Yet, the latest statistics 
from immigration and customs enforcement indicate an almost 66 
percent drop in arrests at the border in February compared to 
December of 2020. I assure you that this drastic drop isn't 
because less immigrants are coming across the border.
    Mr. Maltz, you have noted that the cartels have formed a 
partnership with Chinese organized crime networks and that they 
pose a significant threat to public safety, public health 
safety, and national security, and that they use sophisticated 
technology and take advantage of antiquated laws and policies 
in the U.S.
    First question for you. Some say interdiction at the border 
makes no difference, that the drugs will keep coming into our 
country even if interdiction goes away, or even if interdiction 
is improved. Do you agree with that?
    Mr. Maltz. Absolutely not. Interdiction saves lives every 
day.
    Mr. Tiffany. What laws or policies need updating? So, I 
have done a pretty good job of drawing that nexus of this is 
not just the Mexican cartels, there is a Chinese government 
that is involved also. What laws or policies do you think need 
to be updated for us to be more effective?
    Mr. Maltz. Well, first, it is about the terrorists as well. 
Like Hezbollah is one of the world's most capable terrorist 
organizations, and we had Project Cassandra where they were 
moving used cars out of American to support Hezbollah to fight 
and to carry out their agenda.
    So, in this country, we have to first recognize that this 
is not just, you know, drugs on the streets. It is about a 
global network of transnational criminals that want to destroy 
the country. It is a much bigger problem. We have to realize, 
like in the Chinese scenario, the chemicals are just coming in 
ton quantities into Mexico. That is why we are seeing the huge 
amounts of methamphetamine. They produce like seven tons of 
meth every 3 days.
    When I was a young agent, if you seized a kilo of meth, 
that was a huge case. Now, we are seizing 2-3,000 pounds of 
meth. So, the business operation is booming, the demand is 
booming, but it is all of these other countries that are making 
money and these groups are making money on the problem.
    Mr. Tiffany. Thank you. So, I would just like to share with 
the committee, in Wisconsin we had--when I was in the State 
legislature, I served for nearly 10 years. We created something 
called the HOPE agenda, and it was really groundbreaking in 
our--in the country. A number of other states have taken a look 
at what we did, and we did things like create drug courts, 
expand drug courts, get assistance to help those with 
addiction.
    We spent an enormous amount of time and money to create 
that agenda, do it in a smart way, to be able to help people 
with this problem. We heard from local sheriffs regularly about 
the drugs that were being pumped up from the southern border as 
well as the human trafficking that was going on in their 
communities. They were emphasizing that to us regularly, and we 
tried to implement policies to help fight back on that.
    So I guess, in conclusion, I would just say here, Madam 
Chair, it is so disappointing that the President--the first 
thing he did was cancel a pipeline that works for America, but 
then he enables a pipeline for drugs to the rest of America 
that is going to kill Americans, that he won't put a stop to 
that pipeline flowing from our southern border.
    I yield back.
    Ms. Jackson Lee. I thank the gentleman for his testimony 
and remind him of the article submitted that most of the drugs 
are coming in through the legal entries. I thank the gentleman 
again for his testimony.
    Let me yield to the Congresswoman from the great State of 
Pennsylvania, Ms. Scanlon, for 5 minutes.
    Ms. Scanlon. Thank you, Madam Chairwoman, for having this 
important hearing.
    I want to look at a particular aspect of this issue that 
doesn't get enough attention, and that would be civil 
forfeiture. In my prior career, I had some experience with this 
as the program I worked with brought--started to represent 
folks who were subject to civil forfeiture.
    It is a program that is designed to deal with the War on 
Drugs, but it has a perverse financial incentive to have law 
enforcement target people to get their assets. Let me just give 
an example of one of the cases we dealt with in Pennsylvania.
    We represented a widow, a woman whose son was arrested for 
selling a small amount of pot at the house that they shared 
while his mom, who owed the house, was in and out of the 
hospital. So, he was arrested and the police moved to seize her 
$54,000 home and her 15-year-old minivan. So, because it is 
civil forfeiture, this person, this woman who had been in the 
hospital, and did not participate in any criminal activity, was 
forced to defend possession of her home and her car.
    So, Ms. Austin-Hillery, when a State or the Federal 
Government accuses someone of a crime, the defendant has a 
right to counsel at no cost, if they can't afford them. This is 
not true in civil forfeiture cases. If my law firm hadn't 
stepped up to represent this woman, she would have been, like 
so many of the people in our community who got swept up in this 
sort of dragnet, and she wouldn't have been represented and 
could very likely have lost her house and her van.
    Can you speak to how the lack of representation impacts 
these cases and really risks the incentives for enforcement?
    Ms. Austin-Hillery. Yes. Thank you, Congresswoman Scanlon. 
In an earlier part of my career, I worked on a concept that I 
actually hope our DOJ and maybe even Congress will take up 
again, and that is the creation of what we call Civil Gideon. 
We know that, as you just stated, individuals have the right to 
counsel when it comes to criminal cases. In examples just like 
you pointed out, when we are dealing with civil asset 
forfeiture, many people without the means are left unattended 
and alone to try to deal with this.
    We know there is an economic and racial disparity with 
respect to that. People who are in lower economic communities, 
people often in Black and brown communities who don't have the 
same economic resources, cannot afford counsel to fight back 
with respect to these cases, and that is what they need. They 
need someone to fight back for them.
    So, we really need to look at what kinds of means and 
mechanisms can we put in place to give them that kind of 
protection. Civil Gideon is a way to do that.
    Aside from that, because that's a dream of mine, aside from 
that, there are things we can do right now, and that is clean 
up civil asset forfeiture and this process and how it is 
implemented. We should not be incentivizing law enforcement 
officers to make decisions based on whether it can provide them 
with more economic gain and more economic opportunity.
    We should only have systems and mechanisms in place that 
focus on how they can do their jobs in the best way possible, 
how they can treat communities fairly and equitably, and that 
is the bottom line. There should be no incentive for them to 
make additional monies off these crimes. That is where we have 
to start, and hopefully at some point we can also have a good 
discussion about Civil Gideon.
    Ms. Scanlon. You are speaking to my heart there. One of the 
things that was particularly troubling about how civil 
forfeiture was being enforced in our region was that folks like 
our client, the widow with limited means, were the folks who 
were being targeted. At the same time, we were not seeing the 
kid out in the suburbs who had done a pot deal on the side, had 
his family's $100,000 or $200,000 home seized.
    So, from your research or your work, has civil forfeiture 
proven effective at reducing harm or drug use? Or has it been 
quite a bit harmful impact on the same Black and brown 
communities that were disproportionately harmed by other flawed 
approaches?
    Ms. Austin-Hillery. There has been a lot of research done, 
and there are many organizations beyond Human Rights Watch that 
have been focusing on this, and so we need to look at the full 
body of work. Certainly, we have seen that this is targeted 
activity and that, yes, it has a disparate impact on these 
communities.
    Just like the stories that you have talked about, the 
Leadership Conference on Civil and Human Rights has done a 
great deal of work on this. They are coalition partners of 
ours, and we know that they have been focused on how we can cut 
down on this disparate impact. Again, this is about the larger 
discussion of systemic racism and what kinds of choices we are 
making and we are making choices based on race and economics.
    Ms. Jackson Lee. The gentlelady's time is expired. Thank 
you.
    Ms. Scanlon. Thank you. I would appreciate if--I saw Dr. 
Henderson nodding his head there. If he is able to respond 
offline, I would appreciate that. I yield back.
    Ms. Jackson Lee. I thank the Congresswoman for her 
indulgence, and I hope that Dr. Henderson will respond 
accordingly at a later time.
    Now, Mr. Gohmert, I believe the gentleman is not present in 
the room. You are reserving? Thank you so very much.
    It is now time to yield to the gentlelady from Missouri for 
5 minutes, Ms. Bush, our vice-chair.
    Ms. Bush. Yes. St. Louis and I thank you, Madam Chairwoman, 
again for convening this hearing. The vicious and carceral drug 
war that has prioritized punishment over treatment, violence 
over healing, and trauma over dignity has influenced all our 
lives.
    Brought up in St. Louis, I saw the crack cocaine epidemic 
rob my community of so many lives, and I am not talking about 
what I heard or read. I am not talking about what I watched on 
television. I am talking about the people who I was around all 
the time, people who I knew and was in community with, loved 
ones, I saw picked off and put into a system that was this 
revolving door.
    I lived through a malicious marijuana war that saw Black 
people arrested for possession at three times the rate of their 
White counterparts, even though usage rates are similar. As a 
nurse, I have watched Black families criminalized for heroin 
use while White families are treated for opioid use.
    Now, as a congresswoman, I am also seeing the pattern 
repeat itself with Fentanyl as the DEA presses for an expanded 
classification that would criminalize possession and use. This 
punitive approach creates more pain, increases substance use, 
and leaves millions of people to live in shame and isolation as 
they battle drug use with limited support and healing.
    If you don't know it, go into the communities and start 
sitting with people and really hearing their stories and 
finding out their struggles. Sometimes you have got to do the 
deep work.
    This is an issue that affects all communities, from my 
neighborhood in St. Louis to the edge of Lake Erie in Ohio. 
Somehow, we have criticized science and compassion in favor of 
trauma and punishment, all the while leaving people to fend for 
themselves.
    Dr. Harris, why is national drug policy reform essential 
for reducing the federal prison population and for providing 
states with a blueprint for effective policy change?
    Ms. Neill Harris. Thank you for your question and for your 
passion on this issue. Federal reform is essential for states 
to follow suit. We saw this in the 1980s when the Federal 
Government ratcheted up penalties for cocaine, for crack, and 
the disparities it created for crack and cocaine, you saw the 
states follow suit.
    So, we know that the states will do what we see the Federal 
Government do on these issues. If the Federal Government takes 
leadership, we will see more responsible policy at the State 
level.
    We also know that punishment does not work. We have been 
talking a lot about mandatory minimums here. Mandatory minimums 
levy very severe sentences, but they do not deter people from 
using drugs. The very nature of addiction suggests that people 
are going to use drugs regardless of what the consequences are, 
and so that approach will not work.
    We have been talking a lot about the demand for drugs and 
the cartels. Absolutely, cartels are dangerous--can be 
dangerous organizations and very profitable. That is because of 
the demand for drugs that we have in the United States, and we 
have not addressed that demand. We have 40 years to show that 
we have not addressed that demand, and it is time to try 
something else instead of continuing the same failed policies.
    Ms. Bush. Thank you. Because our jails were not originally 
purposed to be treatment centers and yet our jails have become 
the largest mental health institutions in America. This is 
sickening. People with a history of substance use are being 
sent to jails, and have been for a long time, that are in no 
way equipped to treat their trauma or addiction.
    This is a public health crisis. Too often drug offenses are 
borne out of poverty. If we don't want to actually address 
poverty, then this is the situation. This system allows those 
with wealth to more easily escape the trauma of police raids, 
civil asset forfeiture, and mandatory minimums, which you all 
have been talking about, because they can afford those top-
notch treatments while the rest of the country is left to hurt 
in silence.
    So, Ms. Hillery, what is your main concern about mandatory 
minimum sentencing for drug offenses and its devastating 
collateral impact on people's lives? Then, when you answer 
that, is there any reason that these types of crimes should be 
treated differently than other offenses?
    Ms. Austin-Hillery. Quickly, Congresswoman, thank you. My 
main concern is that mandatory minimums are excessive. It is 
like using a sledgehammer to put a small tack into a wall. It 
is too much, and it doesn't really do the job. That is number 
one.
    Number two, we need to look at each instance of crime, each 
type of abuse, each type of circumstance separately. We cannot 
use one method and say this is going to solve all our problems. 
There is not a panacea for how we address these issues, and 
that is what we have been talking about today.
    We need to be particularized. We need to use real evidence 
and real data.
    Ms. Bush. Thank you so much, and I yield back.
    Ms. Jackson Lee. Thank you so very much.
    The colleague on the other side continues to reserve, and 
it is my privilege now to call upon Mr. Cicilline for 5 
minutes.
    Mr. Cicilline. Thank you, Chairwoman Jackson Lee, and to 
Chair Nadler, for organizing this hearing today. Thank you to 
our witnesses for sharing their expertise on how to improve 
drug policy and work toward addressing the decades of failed 
drug policy in this country.
    The War on Drugs we know has led to the overcriminalization 
of Americans, with communities of color experiencing 
oversurveillance leading to increased arrests and 
disproportionately harsh sentences.
    Last week the House passed the George Floyd Justice in 
Policing Act, which takes a major step to holding police 
officers accountable for misconduct. Equally important is 
Congress' responsibility to examine how drug laws contribute to 
increased law enforcement interventions, unnecessary 
incarcerations, when public health alternatives are often much 
more appropriate.
    So, my first question is to Ms. Austin-Hillery. In your 
written testimony, you recommend that Congress shift resources 
from the policing of drug use toward access to evidence-based 
treatment and other voluntary supports for people who struggle 
with substance abuse disorder. Can you elaborate and really 
discuss the importance of the need to take a public health 
approach to addressing drug abuse as opposed to the approach 
that we have taken in the War on Drugs?
    Ms. Austin-Hillery. Yes. Thank you, Congressman, for that 
question. We know from the research that we have done at Human 
Rights Watch--and not only do we have the program that I 
oversee, the U.S. program, we also have experts in-house who 
deal with health issues and we know that individuals have 
issues around their medical care, around their physical being, 
addressed by medical experts.
    If you have an individual, for instance--and I spent time--
as I said, Human Rights Watch, we go to the communities. I 
spent time in Florida in a van going around with one of the 
community groups that goes around the community and deals with 
individuals who are dealing with drug issues.
    What I am seeing is that those people are saying to us that 
they are helped when they have doctors and nurses who are in 
their communities. They say they are not helped when they are 
picked up by police officers, when they are taken to court, 
where they can't afford bail, where they can't afford lawyers. 
All those things are a whole other host of questions and 
issues.
    What they are saying is they are most helped and that their 
opportunity for healing and for taking better care of 
themselves and their families is through better access to 
health care and to the medical community.
    So, again, we must give people the best opportunity to heal 
and to move themselves into a better situation. That is not 
through criminalization. That is through health care, and the 
medical science backs this up and supports this. So, let's 
start having real conversations about how we put dollars there 
instead of dollars into furthering law enforcement's ability to 
target these communities and these individuals.
    Mr. Cicilline. Thank you.
    Dr. Neill Harris, as we all know, America's opioid crisis 
is far from resolved. According to the American Medical 
Association, over 40 states have reported an increase in opioid 
overdoses since the beginning of the pandemic. In my home State 
of Rhode Island, opioid overdose remains the leading cause of 
accidental death.
    Every day we are at risk of losing more and more people to 
overdoses, with recent numbers showing that Black and Hispanic 
Rhode Islanders are disproportionately experiencing overdose-
related deaths.
    Through various research trials, evidence has shown that 
medication-assisted treatment is an effective treatment for 
opioid addiction, and we have some great leadership in Rhode 
Island from the medical community that has been really leading 
this effort, particularly at Brown University.
    So, my question is, do you think that these programs should 
receive more federal support? Are there other programs that 
also should be available? What are the most efficacious ways to 
provide the kind of treatment that will have a meaningful 
impact on this problem?
    Ms. Neill Harris. Absolutely. Thank you for that question. 
I like this in terms of short-term and long-term solutions. 
When we talk about reducing overdoses, we are talking about the 
short-term solutions to provide treatment and immediate 
intervention.
    Rhode Island has done a great job at increasing access for 
medication-assisted treatment, especially for people that are 
in the criminal justice system. I would like to see federal 
funding go to expanding the access to medication-assisted 
treatment within correctional systems in all states, and not 
just for Vivitrol, which tends to be preferred because it is an 
opioid antagonist, but also for methadone and Suboxone because 
people need the option that works best for them.
    The other thing that the Federal Government can do, in 
addition to expanding access to needle exchange programs and 
authorizing safe consumption sites, is to expand access to drug 
testing services.
    Mr. Maltz had mentioned the problem of counterfeit pills. 
Absolutely, when people unknowingly take pills that they think 
are legitimate prescriptions, and they contain Fentanyl in 
them, that is very dangerous. If we provide people with 
resources so that they can test those substances and determine 
whether there is Fentanyl in them, research shows that they 
will moderate their drug use behaviors and can use in a safer 
way. So, we need to focus on those harm reduction 
interventions.
    Mr. Cicilline. Great. Thank you so much.
    With that, Madam Chair, I yield back.
    Ms. Jackson Lee. The gentleman's time is expired.
    Now I yield 5 minutes to the gentleman from California, Mr. 
Lieu. Happy to yield now 5 minutes to the gentleman from 
California as well, Mr. Correa. The gentleman is recognized.
    Mr. Correa. Madam Chair, can you hear me okay?
    Ms. Jackson Lee. I hear you.
    Mr. Correa. Can you hear me okay?
    Ms. Jackson Lee. I hear you very well, sir.
    Mr. Correa. Thank you. Thank you very much for holding this 
very, very important hearing. I am out of Orange County, 
California. One of the things I did the last few months was to 
visit our juvenile hall where I found that most of the young 
ladies in juvenile hall are there because of prostitution--
prostitution related to trying to raise money by selling their 
souls, their bodies, to pay for drugs.
    I also have a good relationship with local police officers, 
good police officers, and it breaks my heart to know that we 
are giving them the impossible job of fixing our societal 
problems of homelessness, drug addiction, and mental health.
    When you take a deep breath and you think about the 
decades--the decades-long War on Drugs--four, maybe five 
decades of this war, I have a question for each one of our 
panelists here today. Are we winning the War on Drugs? Ms. 
Austin-Hillery, yes or no?
    Ms. Austin-Hillery. We are not winning the War on Drugs. 
The numbers show that the statistics--
    Mr. Correa. Mr. Henderson? Mr. Henderson, yes or no?
    Mr. Henderson. No. No, we are not.
    Mr. Correa. Mr. Maltz?
    Mr. Maltz. No, we are not. I am sorry. We are making a 
difference and saving lives.
    Mr. Correa. Thank you.
    Ms. Neill Harris, are we winning the War on Drugs?
    Ms. Neill Harris. No, we are not.
    Mr. Correa. Yes or no question to each one of our 
panelists. Through the incarceration of drug addicts, does that 
help them go straight, yes or no? Does jail straighten out drug 
addicts? Ms. Austin-Hillery?
    Ms. Austin-Hillery. No.
    Mr. Correa. Mr. Henderson?
    Mr. Henderson. No.
    Mr. Correa. Mr. Maltz?
    Mr. Maltz. Can't answer that question. It is too vague.
    Mr. Correa. Putting a drug addict in jail, does that 
straighten him or her out?
    Mr. Maltz. If they have a drug addiction issue, jail is not 
the answer.
    Mr. Correa. Thank you.
    Ms. Neill Harris?
    Ms. Neill Harris. No.
    Mr. Correa. Thank you very much.
    Ms. Austin-Hillery, should we study what the states are 
doing, what other nations are doing, when it comes to 
addressing drug addiction? Treatment instead of rehabilitation 
and--or I should say treatment and rehabilitation instead of 
jail. Should we address drug addiction as a medical issue 
instead of a criminal issue?
    Ms. Austin-Hillery. Absolutely, yes.
    Mr. Correa. Mr. Maltz?
    Mr. Maltz. Drug addiction must be dealt with the 
professionals.
    Mr. Correa. As a medical issue or as a medical issue? 
Excuse me. As a medical or a criminal issue?
    Mr. Maltz. Addiction is a medical issue, of course.
    Mr. Correa. Mr. Henderson?
    Mr. Henderson. Yes, we should.
    Mr. Correa. Ms. Austin-Hillery?
    Ms. Austin-Hillery. Yes, we should. Congressman--
    Mr. Correa. Mr. Maltz? Mr. Maltz, you talked about Mexican 
cartels and corruption. Is that not corruption fueled by 
American dollars, dollars from American drug users? Yes or no.
    Mr. Maltz. Well, certainly, there is millions and millions 
of dollars being generated from the demand here in America, but 
corruption is a separate issue.
    Mr. Correa. Yes or no, are those dollars--are those dollars 
fueling corruption around the world?
    Mr. Maltz. Obviously.
    Mr. Correa. Yes or no. Obviously, that is a yes, correct?
    Mr. Maltz. Yes, sir.
    Mr. Correa. Mr. Maltz, if we seal the southern border, will 
that stop Americans from using illegal drugs?
    Mr. Maltz. It will help.
    Mr. Correa. So, Chinese chemical precursors that don't come 
in through Mexico, they won't come through Canada?
    Mr. Maltz. They might. Might.
    Mr. Correa. Would you consider the Canadian border secure?
    Mr. Maltz. I don't think it is very secure because all of 
the resources are going to the southern border now.
    Mr. Correa. So, they are both insecure. Would you consider 
our Atlantic and Pacific ports secure when it comes to drug 
trade, Mr. Maltz?
    Mr. Maltz. CBP needs more resources to secure these 
borders. It is impossible to do it with what you have.
    Mr. Correa. Are they secure, yes or no?
    Mr. Maltz. They are doing a great job. Absolutely.
    Mr. Correa. So, the ports are secure from drug trade.
    Mr. Maltz. Not totally secure, but they are making a lot of 
seizures.
    Mr. Correa. Yes? Yes or no? Okay. Finally, Mr. Maltz, 
America is good when it puts its focus on a certain effort. Two 
decades ago, we essentially sealed off the Caribbean when it 
came to drug trade. We were pretty good at sealing that up, 
but--what we ended up doing was really diverting that drug 
trade inland.
    In that process, we essentially destabilized the countries 
of a whole continent--Mexico and Central America--and yet, the 
drugs kept flowing. That is why I am saying this drug trade--
this drug war, four, five, six decades, has not worked. My 
question to you, sir, do you think sealing the Mexican border 
will bring us success when it comes to the drug war?
    Mr. Maltz. One hundred percent it will help. It is not 
going to solve the problem 100 percent, but it will help for 
sure.
    Ms. Jackson Lee. The gentleman's time is expired.
    Mr. Correa. So, Americans will stop using drugs once you 
seal the Mexican border.
    Mr. Maltz. I never said that.
    Ms. Jackson Lee. The gentleman's time has expired.
    Mr. Correa. Thank you, Madam Chair.
    Ms. Jackson Lee. Thank you very much.
    Now yielding to the gentleman from Utah for 5 minutes, Mr. 
Owens.
    Mr. Owens. Well, you have 15 seconds or so to wrap up 
anything that you were trying to say during that last 
interaction, or are you okay?
    Mr. Maltz. I mean, obviously, sealing the border is not 
going to stop the addiction all over America, because it has 
been out of control for so many years. We didn't put the money 
into the education, into the treatment, into the 
rehabilitation. We ignored it. All these poor people got 
addicted, and the cartels took complete advantage of the 
addicted population to make billions of dollars.
    Securing the border is going to help keep these poisonous 
drugs out of the country, yes.
    Mr. Owens. Thank you. Thank you so much.
    I am glad we are having this conversation. It is a very 
important issue to me. I grew up in a 1960s segregated 
community where the progress into the blight middle class was 
an expectation for us. Our family unit was strong, and drugs 
simply were not a part of our everyday life.
    Over the last few decades since, I witnessed friends, NFL 
careers lost, families destroyed by drug abuse. It is a fact 
that the less control we have over our borders the more control 
Mexican drug cartels have on bringing misery to both my State 
and the Black community.
    Here are a few statistics that are really troubling to me. 
Fact: Illegal drug use among blacks is 23 percent higher than 
the general population in whites. Fact: Seventy-eight percent 
of the overdoses in Washington, DC, are African Americans. 
Fact: In DC, opioid overdose deaths among Black men between the 
ages of 40 to 69 increased 245 percent between 2014 and 2017. 
Fact: In Utah, 473 drug overdose deaths involved opioids in 
2018.
    With that in mind, Mr. Maltz, the smuggling of drugs along 
the southern/southwestern border by Mexican cartel is one of 
the greatest threats to the American dream. What is the most 
important thing the Federal Government can do today to stop the 
flow of drugs into our country?
    Mr. Maltz. Well, for one, they have to talk about the 
issues with drugs. It is not just over-prescribing. That is, 
15, 20 years ago, we never dealt with that as a country. They 
have to get people help. They have to unite all the smart 
people in America that have good ideas, but we have to shut 
down that border and we have to show the American public we 
care about the families that are being destroyed.
    We have to take this seriously. Right now, people just seem 
to think it is going to go away. It is going to get worse every 
day. More and more of these kids are going to die. By the way, 
Fentanyl doesn't care what color you are. It is going to kill 
you if you snort it, right? If you take Fentanyl, there is a 
good chance you are going to die. Sadly, most of the kids don't 
even know what they are taking. The cartels are making billions 
off this.
    Mr. Owens. Do you have any insight into the drug 
trafficking path into the inner part of our United States, for 
states like mine that are not on the border, but are still 
getting impacted by this process of drugs coming through our 
borders?
    Mr. Maltz. Well, the Sinaloa Cartel and Jalisco New 
Generation Cartel are throughout all the American cities, 
right? They have command and control set up in some of the 
biggest cities, like in Chicago, Arizona, Los Angeles, New 
York, and Atlanta. What they are doing is spreading out their 
command and control.
    With the people that are coming over the border, they are 
setting them up in these different cities, and they basically 
have the opportunity to push drugs on the streets all over. 
They are pushing their drugs to gangs, right? The Chapo Guzman 
case, if you look into that, it was the Sinaloa Cartel 
providing all of these drugs to the gangs on the west side of 
Chicago.
    So, it goes from the command and control in Mexico right to 
the command and control in these subcities and right into your 
city.
    Mr. Owens. So, in other words, ZIP code is not a protection 
against these drugs coming in our--
    Mr. Maltz. There is no boundary, sir.
    Mr. Owens. Okay. What is the connection between the border 
security and the prevalence of illegal drugs on urban America, 
those that are most at risk, those communities that I have just 
listed are being hit the hardest? What is the connection 
between our security at the border and that of impacting the 
communities that we should all be caring about at this point?
    Mr. Maltz. Well, like we have said all day so far, like 
when the border is open, these people can get in here. They 
bring the Fentanyl pills, they distribute the pills all over 
the cities, and people are dying. So, everybody is vulnerable. 
This is poison in counterfeit pills.
    If you take a pill and you think it is a legitimate 
OxyContin, but it has Fentanyl that was put in it from a lab in 
Mexico, you are going to die. So, everybody is vulnerable.
    Mr. Owens. Let me just wrap up with this. The greatest 
thing about our country is access to the American dream, the 
middle class. I think Americans need to understand this is a 
way to negate our middle class. We have death, misery, and 
addiction, and it is coming through a border where people are 
taking advantage of our good hearts.
    So, at the end of the day, we need to shut the border down. 
I totally agree. We need to take a look at what the problem is, 
and we are having another generation being addicted to drugs 
that they don't need to be, and they should not be, and we 
should be protecting them.
    With that, I yield back.
    Ms. Jackson Lee. The gentleman yields back. His time is 
expired.
    I now recognize the gentleman from California, Mr. Lieu, 
for 5 minutes. Mr. Lieu is recognized for 5 minutes.
    Mr. Lieu. Thank you.
    Mr. Lieu. Thank you, Chairwoman Jackson Lee, for holding 
this important hearing. I want to thank all the panelists for 
your time and expertise today.
    My first question is to Mr. Maltz. I believe in response to 
a question from Congressman Correa you had stated that if 
someone is addicted jail time is not the answer. Am I saying 
that accurately?
    Mr. Maltz. My opinion is if somebody is addicted, they need 
help from an addiction specialist, a medical specialist, a 
social worker. Putting them in jail is not going to help the 
problem.
    Mr. Lieu. Thank you. Appreciate that.
    So, Ms. Neill Harris, I believe earlier you had stated that 
about 90 percent of illegal drugs are in fact not stopped or 
caught or interdicted. Is that correct?
    Ms. Austin-Hillery. Yes. Mr. Maltz had said that about 10 
percent are stopped or interdicted, which would mean that 90 
percent are not.
    Mr. Lieu. So, my view is if we keep doing the same thing 
over and over again, and expect a different result, that does 
come close to the definition of insanity. We have been at this 
War on Drugs for many decades. It does not appear to have 
gotten better; it actually appears to have gotten worse.
    So it seems to me we should now look at other ways to try 
to reduce people using drugs, particularly if they are addicted 
because if they are addicted it seems to me that is a medical 
issue, and what we actually would need is treatment.
    So, I would like to ask about opioids. Ms. Neill Harris, I 
will ask you this. So, it seems like part of the reason there 
is an opioid epidemic is because people would get prescription 
opioids because they got into a car injury or some other sort 
of surgery or something where they wanted to relieve pain, the 
doctor prescribed it, and then all of a sudden, 2 months later 
they realize that they are addicted to this.
    It is not like they went and sought out to get addicted. 
Does it make any sense to put those people in a jail?
    Ms. Neill Harris. Thank you for that question. No, it does 
not make sense to put those people in jail. I would like to 
briefly clarify the distinction between dependence and 
addiction. It is an important one to make when we are talking 
about opioids.
    If I got surgery and had to take opioids for an extended 
amount of time, if I had to take them, say, for 10 days 
straight, my body would become physically dependent on those 
drugs. It would be difficult for me for a few days to stop 
using them. That is a different process than psychological 
addiction.
    What happens when people take these drugs, it doesn't only 
alleviate physical pain, it also helps them feel better about 
other things that are wrong in their lives. We have talked a 
lot here about the root causes of addiction--poverty, 
inequality, mental health problems, mental illness, physical 
illness, all of these things.
    So, if we really want to address the roots of psychological 
addiction, for opioids and for all drugs, we really have to 
invest in addressing those systemic issues that lead to 
addiction.
    Mr. Lieu. Thank you.
    Ms. Austin-Hillery, in your statement, you talk about 
decriminalization. So, I support Chair Nadler's efforts to 
legalize marijuana. I believe that cannabis is no more 
dangerous than alcohol, and in many situations, it is actually 
less dangerous. I think it is just a remarkably stupid use of 
federal resources to spend even a single penny trying to 
prosecute and jail people for cannabis use.
    However, I do recognize that some opioids are in fact more 
dangerous than alcohol. I am curious, Ms. Austin-Hillery, what 
would it look like if we were to decriminalize opioid use?
    Ms. Austin-Hillery. Congressman, thank you for that 
question. I would point back to an example that I brought up 
during my oral testimony and that I have also included in my 
written testimony, which is that there are templates available 
when we look at countries such as Portugal.
    When Portugal applied decriminalization, that didn't mean 
that there were absolutely no crimes related to drugs any 
further. That just meant they were smarter about drugs, and 
they were smarter about making sure that individuals who use 
drugs for personal use were not then penalized for that.
    Personal drug use is an issue that mostly involves that 
person, and it is about their personal choice, and that is a 
right. That is how they started to look at that issue.
    Now, there are other issues related to drugs in Portugal 
for which one does get brought into the criminal justice 
system. Again, they don't treat it with one broad brush. They 
look at the different drugs. They look at the different 
outcomes. They look at how communities are impacted, and they 
make decisions based on those differences. That is what we need 
to do if we were to look--and we should look--at 
decriminalizing drugs for personal use here in the United 
States.
    Mr. Lieu. Thank you. I yield back.
    Ms. Jackson Lee. The gentleman's time has expired.
    Now, I will call on the gentleman from Tennessee for 5 
minutes, Mr. Cohen.
    Mr. Cohen. Thank you, Madam Chair. I appreciate your 
calling this hearing on this important subject. One of the most 
pressing subjects we can deal with in criminal justice--and Mr. 
Lieu was right, it is insanity to continue dealing with it in 
the same way. We have had a failure for years. We fail, we 
fail, we fail; we need to try something different.
    Let me ask the panel a question, and I don't know who the 
right responder may be. Let me start with Ms. Harris because I 
liked your 5 minutes. I agreed with everything you said.
    I read that Mexico may be decriminalizing or legalizing 
recreational marijuana. Have you seen that story?
    Ms. Neill Harris. Yes, Congressman, I have.
    Mr. Cohen. Assuming they do, how is that going to affect 
the drug situation as far as Mexico, the cartels, and the 
United States goes? If there is legal medical--recreational 
marijuana in Mexico, does that take away from the cartel's 
strength? What happens?
    Ms. Neill Harris. I think that legalization in Mexico will 
reduce the cannabis aspect of their business model. However, 
the cartels are essentially, like Fortune 500 companies. They 
are well-run business organizations.
    They have been able to capitalize on prohibition that we 
have in this country and be able to profit immensely off 
supplying the demands that we have here and have not addressed. 
So, they have made an immense profit off of that. They have 
diversified to other sources of revenue, such as human 
trafficking and the trafficking in other goods besides drugs 
and besides people.
    So, I do think that the issue of the cartel is one that is 
a complicated issue to address, legalizing cannabis here and in 
Mexico is one step to addressing. I think that if we 
decriminalize drugs and remove all of the profit that comes 
along with supplying the demand of drugs from the cartels, that 
will also help to put a dent in their businesses and ending the 
violence that they perpetuate.
    Mr. Cohen. Exactly. Okay. Let me ask you this, too. An 
arrest or conviction for even a minor drug offense in the 
United States can have life-long consequences to the individual 
who has been arrested or convicted of that crime. They may not 
be able to get a job. They may not be able to obtain a loan, a 
professional license. Maybe they can't get a college 
scholarship or housing, federal housing, et cetera.
    Tell me a little more about these collateral consequences 
and other solutions to address this unfair impact on our 
criminal justice system.
    Ms. Neill Harris. Thank you for that question. You really 
just explained a lot of those collateral consequences that 
people had. It really can damage their employment prospects, 
especially when we treat drug possession as a felony, which, in 
my State of Texas, we do.
    Possession of any number of drugs other than cannabis is a 
felony charge. It goes on a person's record. It impedes their 
ability to get a job. It impedes their ability to get 
assistance with housing, with employment, with education. It 
can impede their parental rights.
    There has been legislation at the federal level to bar 
discrimination from federal loans for education for past drug 
convictions. I think that is excellent. I think that we need to 
work to provide for expungement for people's records to make 
that process automatic, so that people don't have to navigate 
through the bureaucracy of the legal system to have that 
happen.
    I also think that all of the reforms that we have been 
talking about here about reducing mandatory minimums, about 
reducing drug disparities, all of those need to be retroactive, 
so that people currently serving sentences for those things can 
be released for them as well.
    Ms. Jackson Lee. Mr. Cohen, you may be muted. We are not 
hearing you.
    Mr. Cohen. Right. Ms. Austin-Hillery, I have a bill that 
will allow federal judges to expunge an individual's record if 
they go 7 years without any kind of offense at all, if they 
were convicted of drug crimes. Do you think that would be good? 
How do you feel about collateral consequences for these people?
    Ms. Austin-Hillery. Congressman, I think that would be an 
excellent piece of legislation. What we need to do is to give 
people second chances. That is really what we are talking 
about. When you were addressing the collateral consequences, it 
is about giving people opportunities.
    We should not punish people for the rest of their lives for 
issues related to drugs. Your bill would do just that. The 
people who have the hardest time getting second chances are the 
Black and brown and poor people who are most impacted by these 
onerous laws. So, yes, I would welcome your legislation.
    Mr. Cohen. Unfortunately, my time has expired. So, I yield 
back my time.
    Ms. Jackson Lee. Thank you very much, Mr. Cohen. Thank you 
for your testimony.
    Let me quickly allow Mr. Biggs for a quick clarifying 
question and submission of documents in the record.
    Mr. Biggs. Thank you, Madam Chair. I appreciate your 
courtesy. I won't read all of these because there is 13 of 
them, but I am going to submit these articles, everything from 
The Washington Post to The Washington Times, and a host of 
others, dealing with the topic of the day.
    Ms. Jackson Lee. Without objection, so ordered.
    [The information follows:]



      

                        MR. BIGGS FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Biggs. Thank you. Then, Mr. Maltz, my clarifying 
question for you is, in response to something that Professor 
Harris said when she talked about the increase in drug 
trafficking is, in part at least, due to prohibition policies 
with regard to drugs.
    That is an interesting contraindication. In some corridors 
right now, the number one drug being illegally transited into 
the United States is marijuana. This is the case in Colorado 
they have seen an increase in Black market marijuana. This is 
the case even though marijuana is legalized in many states, 
including Colorado.
    The rationale that has been suggested not today by anybody 
on the panel but in other studies that I have read is that 
domestic pot costs more because of taxes and regulatory 
schemes, and that because of those additional tax burdens and 
regulatory burdens what we see is it is still cheaper for 
cartels to transit pot across the border where they can't 
create the grow houses that they are creating in the United 
States. Is that accurate?
    Mr. Maltz. Yes. I mean, the people that are using marijuana 
do not want to pay these exorbitant prices that they would have 
to pay because of the taxes. So, the Black market is going to 
explode, and the Chinese and the cartels are going to continue 
to get the marijuana into the United States.
    We see the same thing with cigarette trafficking, right? 
People don't want to pay $13 a pack for cigarettes in New York 
City, so they buy the cigarettes on the Black market. This is 
nothing new, and it is going to continue.
    Mr. Biggs. Thank you, and I appreciate the share.
    Ms. Jackson Lee. Not at all, to the Ranking Member.
    Let me quickly clarify two points. First of all, quickly, 
Dr. Henderson, if you could, there was some discussion about 
middle class African Americans and maybe suggesting that, why 
is this happening, and this does not necessarily need to happen 
to the population of African Americans.
    Can you do a deep dive very quickly on why the idea of 
addiction and possession for African Americans winds up with 
incarceration and mass incarceration?
    Mr. Henderson. Yeah. Thanks for the opportunity to chime in 
here. One of the realities that we understand--and I want to 
correct the record--supply side drug interdiction has never 
worked. It has never been effective in any period of the War on 
Drugs. We understand that.
    We also understand that 75 percent of the individuals who 
have been convicted at the federal level for Fentanyl have been 
people of color. When you talk about the decimation of the 
Black community, we understand that ultimately the Black 
community and the Hispanic community and overall poor community 
have received the brunt of the bad drug policies in this 
country. We understand the impact of the school-to-prison 
pipeline. We understand the reality of being incarcerated, and 
we understand the mark on the criminal record.
    I thank this Committee for having the opportunity to 
conversate about possible solutions to moving this country in 
the right direction. But ultimately, we have to reframe our 
thinking in the right direction and focus on harm reduction.
    Ms. Jackson Lee. Thank you.
    Ms. Austin-Hillery, a quick response to that dichotomy?
    Ms. Austin-Hillery. I am in complete agreement with Mr. 
Henderson. It is those very circumstances that lead to 
disparity.
    Now, I also need to point out that there are economic 
changes that make it very difficult to compare the 
circumstances that existed for African Americans 40 and 50 
years ago than exist now. Changes such as gentrification and 
other kinds of policy reforms have made the African American 
experience different, and in many ways more difficult for 
African Americans to access some of the benefits that they 
might have had available to them previously. So, we have to 
keep these things in context.
    Ms. Jackson Lee. Thank you.
    Mr. Maltz, very quickly, you indicated that you were being 
stifled through some technology in terms of what information 
you can secure--and I want to make it very clear--against the 
murderous big guys like the cartels. What was that specifically 
that you said that you were being stymied because of the 
encrypted aspects of the work that you were trying to do or 
what you were trying to obtain?
    Mr. Maltz. Thank you for the concern. So, obviously, the 
communications are very vital to a law enforcement 
investigation. If the bad guys are using encrypted apps that 
are being used every day all over America, law enforcement is 
not going to be able to intercept the content pursuant to a 
federal court order.
    So, we have to look closer at the encryption issue with 
these new types of technologies.
    Ms. Jackson Lee. Excellent. Thank you. I wanted to clarify 
that for the record.
    Mr. Maltz. Thank you.
    Ms. Jackson Lee. Ensure all of us against the murderers, 
bad guys. Thank you so very much.
    Let me indicate that we appreciate very much the witnesses 
who have been very open and very provocative and very thorough. 
Let me thank Nicole Austin-Hillery, executive director of the 
Human Rights Watch; Dr. Howard Henderson, director of Center 
for Justice Research, Texas Southern University; Derek Maltz, 
28 years in public service with DEA; and Dr. Katharine Neill 
Harris of the Alfred C. Glassell, III, fellow in drug policy at 
Rice University. Thank you very much for your testimony.
    This concludes today's hearing. Thank you to our 
distinguished witnesses for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions that the witness--or 
additional materials for the record.
    The hearing is adjourned. Thank you again.
    [Whereupon, at 1:38 p.m., the Subcommittee was adjourned.]



      

                                APPENDIX

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
